App. 1
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 19-1380
-----------------------------------------------------------------------

SHAWNA CANNON LEMON,
Plaintiff—Appellant,
v.
MYERS BIGEL, P.A., f/k/a Myers Bigel & Sibley and Myers Bigel Sibley & Sajovec, P.A.; LYNNE A. BORCHERS; UNNAMED OTHERS,
Defendants—Appellees.
-----------------------------------------------------------------------

Appeal from the United States District Court for the
Eastern District of North Carolina, at Raleigh. Louise
W. Flanagan, District Judge. (5:18-cv-00200-FL)
-----------------------------------------------------------------------

Argued: December 9, 2020

Decided: January 19, 2021

-----------------------------------------------------------------------

Before WILKINSON, NIEMEYER, and DIAZ, Circuit
Judges.
-----------------------------------------------------------------------

App. 2
Affirmed by published opinion. Judge Wilkinson wrote
the opinion, in which Judge Niemeyer and Judge Diaz
joined.
-----------------------------------------------------------------------

ARGUED: Steven Wayne Seymour, SAMUELS
YOELIN KANTOR LLP, Portland, Oregon; John Heydt
Philbeck, BAILEY & DIXON, Raleigh, North Carolina,
for Appellant. Kerry A. Shad, Isaac Augustin Linnartz,
SMITH, ANDERSON, BLOUNT, DORSETT, MITCHELL & JERNIGAN, LLP, Raleigh, North Carolina, for
Appellees. ON BRIEF: Brandon S. Neuman, Nathaniel J. Pencook, SHANAHAN LAW GROUP, Raleigh, North Carolina, for Appellant.
-----------------------------------------------------------------------

WILKINSON, Circuit Judge:
Appellant Shawna Lemon practiced patent law at
Myers Bigel (MB), first as an associate and then as a
shareholding partner and equal owner of the firm.
Around ten years after her elevation to MB’s partnership and its Board of Directors, Lemon applied for
short-term leave. A vote of the full Board, however,
found Lemon did not qualify for the leave. Interpreting
this denial, and certain events that followed, as driven
by retaliatory and race-based motivations, Lemon resigned. She then filed suit, alleging claims of race- and
gender-based discrimination under Title VII and racial
discrimination under § 1981.

App. 3
The problem was that Lemon, an equity partner
at MB, was not an “employee” of the firm she sought to
sue. Pressed at argument, Lemon could not identify
any Title VII case authority that supported her position, but stated that the law must make room for novelty. While we respect her candor, we are unable to
embrace the novelty and thus affirm the trial court’s
dismissal of her action.
I.
This case presents a challenge to a dismissal for
failure to state a claim, see Fed. R. Civ. P. 12(b)(6), and
we thus take the facts as pleaded to be true. Trulock v.
Freeh, 275 F.3d 391, 405 (4th Cir. 2001).
In 2001 Lemon, an African-American attorney,
joined MB as an associate. The terms of her at-will employment agreement were unremarkable. She was
bound inter alia to “comply with the personnel policies
. . . and all other rules and regulations of the employer,” as well as to “carry out . . . orders, directions,
and policies stated by the employer . . . either orally or
in writing.” J.A. 68-72. MB reserved “complete control
and authority with respect to the acceptance or refusal
of any client and the amount of any fee charged.” Id.
When Lemon executed a shareholder agreement
in 2007, whereby she purchased 5,000 shares of MB for
approximately $62,241, her relationship to the firm
changed. She was no longer an associate, as the agreement elevated her to partnership status. She owned
the same share of the firm as all other partners, and

App. 4
the voting power of her seat on the firm’s Board of Directors was likewise the same. Like all other partners,
she was compensated according to a formula whose
output varied with the profits and losses of the firm.
She was subject to MB’s shareholder quality control
policy, which mandated that each shareholder submit
her work product to another shareholder for substantive review. And finally, she became equally eligible to
serve on the Board’s Management Committee—which
she did, in 2011—and in MB’s officer positions—which
she did, as Vice President and Secretary, in 2016. Although the shareholder agreement never formally superseded the employment agreement, the Board voted,
while Lemon was a partner, to strip from the shareholder agreement all references to shareholders as MB
“employees.”
In 2016, MB hired an outside attorney to investigate gender discrimination at the firm. Lemon
requested permission to view the memorandum summarizing the investigation’s findings prior to its circulation to the full Board. This request was denied, and
Lemon hired an attorney to “assist and advise her in
connection with” the investigation. J.A. 442. When this
fact, as well certain statements she made during her
interview with the investigating attorney, became
known to the Board, relationships between Lemon and
several of MB’s other partners soured. Shortly after
the June 2016 meeting in which the Board discussed
the investigating attorney’s full report, one shareholder allegedly remarked to another that Lemon
“played the black card too much.” J.A. 444.

App. 5
Later in that same year, Lemon submitted a request for short-term leave. Beyond stating that she
qualified “through her own health condition” as well as
through “two additional qualifying events that were
experienced” by her immediate family, Lemon declined
to specifically identify these allegedly qualifying conditions before this court or before the court below. J.A.
447. The Board, which did learn the specifics—whatever they may be—was unsympathetic. Lemon alleges
that after directing her to leave the meeting so that
“members could more freely discuss discriminatory
and retaliatory acts,” the full Board, which included
Lemon, reconvened and voted 17-3 to deny Lemon’s request. According to Lemon, this process represented a
stark departure from the customary handling of shortterm leave applications filed by white attorneys, whose
requests were allegedly “ministerially confirm[ed]” by
the Management Committee. J.A. 458.
Subsequent to this denial, Lemon alleges that
shareholder Borchers, a member of the Management
Committee and allegedly the most powerful of MB’s
partners, spoke to other members of the Board about
“punish[ing]” Lemon for “bad behavior.” J.A. 451.
Lemon also alleges that the Management Committee
had “openly discussed racial and gender discrimination and its retaliatory actions against Lemon,” including termination of her employment. J.A. 455. She
alleges that she was “interrogated” by other shareholders and that her conduct would be under discussion at a future board meeting. Id. Overcome by what
she characterized as the “extraordinary stress [and]

App. 6
humiliation” of her workplace environment, Lemon resigned. J.A. 456.
Lemon then haled her former law firm into court.
She claimed that MB had discriminated and retaliated
against her in violation of Title VII and that it had discriminated against her on the basis of race, in contravention of § 1981. MB did not share this view of events.
In light of Lemon’s status as a partner and co-equal
owner, MB did not believe that Lemon’s claim to be an
MB employee accurately reflected the significance of
her rights and responsibilities at the firm. Def.’s Mot.
Dis. 6-9,9 n.7, ECF No. 18. MB also denied that the
Board’s decision to reject her short-term leave request
was in any way motivated by racial bias. Id. at 10-12.
To the contrary, MB characterized several of Lemon’s
allegations on that score as wholly lacking a factual
basis. Id.
The district court dismissed both claims1 Lemon’s
Title VII claim failed, the court held, because she had
failed to allege sufficient facts to demonstrate that she
was an employee of MB, and therefore within the scope
of Title VII’s protections. The district court dismissed
her § 1981 claim under Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007), and Ashcroft v. Iqbal, 556 U.S. 662
(2009), on the grounds that the facts she pled could not

1

Lemon also filed claims under North Carolina state law for
breach of fiduciary duty and breach of the implied covenant of
good faith and fair dealing. Because Lemon declined to appeal the
district court’s dismissal of these claims, they are not discussed
herein.

App. 7
support a plausible inference that MB’s decisions were
motivated by race.
II.
Title VII prohibits employers from discriminating
“against any individual with respect to his compensation, terms, conditions, or privileges of employment, because of such individual’s race,” or from discriminating
“against any of his employees . . . because he has opposed any practice made unlawful by this subchapter.”
42 U.S.C. § 2000e-2(a), 3(a). As the text makes clear,
the protections of Title VII’s anti-discrimination and
anti-retaliation provisions extend only to employees.
In focusing on employees, and the terms and conditions
of employment, Congress chose to protect those least
able to combat the effects of invidious discrimination
in the workplace. The threshold inquiry in any Title
VII case must, therefore, be whether the plaintiff alleging unlawful discrimination or retaliation is, in fact, an
employee.
Title VII defines “employee” as “an individual employed by an employer.” 42 U.S.C. § 2000(e)(b). This definition is short on substance. In such instances, where
a statute’s definition of “employee” is “completely circular and explains nothing,” Nationwide Mut. Ins. Co.
v. Darden, 503 U.S. 318, 323 (1992), the Supreme Court
has stated that Congress’s words should be interpreted
to “describe the conventional master-servant relationship as understood by common-law agency doctrine,”
Clackamas Gastroenterology Associations, P.C. v. Wells,

App. 8
538 U.S. 440, 445 (2003) (quoting Darden, 503 U.S. at
322). Clackamas further specified that the “principal
guidepost” for courts applying the principles of agency
doctrine must be “the common-law element of control.”
Id. at 448. And finally, Clackamas gauged control
through a set of six non-exhaustive factors:
[1] Whether the organization can hire or fire
the individual or set the rules and regulations
of the individual’s work . . . [2] Whether and,
if so, to what extent the organization supervises the individual’s work . . . [3] Whether
the individual reports to someone higher in
the organization . . . [4] Whether and, if so, to
what extent the individual is able to influence
the organization . . . [5] Whether the parties
intended that the individual be an employee,
as expressed in written agreements and contracts . . . [6] Whether the individual shares in
the profits, losses, and liabilities of the organization.
Id. at 449-50 (internal citations and quotations omitted). Courts are responsible for merging these factors
into a judgment that embraces all the circumstances
presented in a particular case. See id. at 450 n.10. And
circuits relying on Clackamas to resolve disputes similar to the present one have not deviated from the
“principal guidepost” of common-law control. See, e.g.,
von Kaenel v. Armstrong Teasdale, LLP, 943 F.3d 1139
(8th Cir. 2019); Solon v. Kaplan, 398 F.3d 629 (7th Cir.
2005).

App. 9
This is unsurprising, because the foundational
principles in this area of law are well-settled and the
Clackamas factors are manifestly well-suited to their
expression. Murray’s Case, 154 A. 352 (S.J.C. Me. 1931),
an almost century-old chestnut of agency law, invoked
the master-servant concept to distinguish employees
from non-employees by asking who possessed the right
to “control the progress of the work.” 154 A. at 354.
Even through the transition between the Second Restatement of Agency, which substantially embraced the
framing of Murray’s Case, and the Third Restatement,
which fittingly retired terms like “master” and “servant,” the underlying notion of control has always retained primacy. See Restatement (Second) of Agency
§ 220 (1933); Restatement (Third) of Agency § 7.07(f )
(2006).
Clackamas approaches the employer-employee distinction in accord with this tradition. Responding to
the rise of corporately-structured professional partnerships in fields like medicine and law, see Clackamas,
538 U.S. at 446-47, Clackamas represents the smooth
and coherent development of familiar doctrinal principles regarding control and its indicia. In light of this
continuity, we do not find it necessary to embroider the
Clackamas factors to decide this case. We need only apply them.
And the facts of this case hardly make that task a
difficult one. As a partner and coequal owner of MB,
with an equal vote on all matters substantially impacting the firm, Shawna Lemon was not an employee.
To hold otherwise would be to stretch the concept of

App. 10
“employee” well past its breaking point and needlessly
upend understandings that have been central to the
organization of firm partnerships for decades.
Consider, to start, that Lemon served as a partner
within a structure, entirely typical among law firms,
that recognized no higher rank or responsibility. Like
every other full partner at MB, she owned 5,000 shares
and commanded one vote in all matters coming before
the Board of Directors, the body with primary decisionmaking authority over all matters substantially affecting the firm. No one owned a greater share of the firm,
or had greater voting power, than Lemon. No one had
more of a right to run for election to the Management
Committee, a panel of five partners whose authority
derived from Board delegation. Neither did anyone at
the firm have a superior claim on any of the Board’s
officer roles. In fact, the record shows that Lemon took
full advantage of these rights. She served on the Management Committee in 2011. She served as Vice President and Secretary of the firm in 2016. Like all other
partners, her annual compensation was tied to the performance of the firm and her contribution to it. In
short, Lemon was as fully integrated into MB’s management structure as anyone could possibly be.
The district court appropriately concluded that
these facts all cut sharply against designating Lemon
as an employee. J.A. 495-97. It is not plausible to suggest that such an individual, with rights second-tonone in MB’s one and only policy-setting circle, should
exercise so little control as to be considered an employee. Analyzing the aforementioned facts through

App. 11
Clackamas only makes the conclusion that much more
evident. As a full member of the Board with equal voting power, she had as much control over the “rules and
regulations” governing the work at MB, and as much
ability to “influence the organization” as any other
partner. Clackamas, 538 U.S. at 449-50 (Clackamas
factors one and four). She was not salaried or paid a
wage, the typical form of remuneration for employees,
but rather compensated according to a formula that
varied with the “profits [and] losses” of the firm, as befitted a co-owner and employer. Id. (Clackamas factor
six).
Furthermore, Lemon enjoyed a high degree of independence in discharging her duties as partner. She
presents no factually-grounded allegation that she reported to or received orders from any individual at the
firm.2 Her work was subject to review by other partners, but only pursuant to a policy that applied equally
to all shareholders. The purpose of this review was to
assure quality control and provide feedback; reviewing
shareholders did not have any authority to mandate
that the authoring shareholder make any specific revisions. And finally, no one at the firm possessed unilateral authority to terminate Lemon’s employment. She

2

Lemon claims that she, and everyone else at MB, reported
to shareholder Borchers, a partner who sat on the Management
Committee during 2016. Lemon is unable, however, to specifically
allege any instance in which she, or any other partner, was compelled to report to Borchers or obey orders that he issued solely
on his own authority.

App. 12
could only be fired by a majority vote of the full Board,
of which she was, to repeat, a voting member.
If any doubts remained as to whether or not
Lemon was subject to levels of control adequate to classify her as an employee, these facts dispel them. She
was not. The organization could “fire the individual,”
that is, Lemon, but only pursuant to a shareholder
vote. Id. (Clackamas factor one). The organization’s
“supervis[ion]” of her work was for quality-control purposes only and, ultimately, purely advisory in nature.
Id. (Clackamas factor two). She “reported” to no one,
and as a full partner at MB, was not outranked by
anyone either. Id. (Clackamas factor three). It would
contradict the image of control and agency that the Supreme Court handed down in Clackamas to treat an
individual with so much freedom and so little oversight
as an employee.
In the face of this evidence, Lemon points to the
terms of the employment agreement she signed when
she first joined MB as an associate, which subjected
her, as an “employee,” to the general control of the
firm and which the shareholder agreement did not
formally supersede. But the force of this argument
fades upon consideration that the Board subsequently
voted to amend the shareholder agreement, removing
every reference to a signatory as an MB “employee.”
This modification represents a clear, written expression of the intention that associates promoted to partners shed their employee status, not just neutralizing
Lemon’s argument under Clackamas factor five, but
actually inverting it. See id. (characterizing as relevant

App. 13
“[w]hether the parties intended that the individual be
an employee, as expressed in written agreements and
contracts”). In the final analysis, then, every Clackamas factor militates against counting Lemon among
MB’s employees.
This result was to be expected. MB’s structure is
hardly an atypical one for private practice. It is, at its
most basic, a bi-level hierarchy. On the first rung are
the associates who work under the ultimate direction
and supervision of junior or senior partners; on the top,
there are the equity partners themselves, who co-own
the firm. As co-owners, the equity partners are the ones
collectively responsible for setting the firm’s rules and
standards, and for making the decisions necessary to
secure its short- and long-term interests. In this upper
echelon, some partners exert greater influence than
others. Some form controlling factions. Others, despite their best efforts, are more often in the minority.
There may be differences in the apportionment of partnership shares. These are the inescapable realities
whenever people assemble in groups or elect to form
organizations. But inevitable differences in personal
influence do not negate a partner’s basic standing in
the firm. Nor would sifting through such differences
provide any remotely workable standard for determining employer/employee status.3
3

No two law firms are, of course, exactly the same. Indeed,
the structures of contemporary law firms have become increasingly complex, sometimes encompassing relatively new roles such
as “senior associate,” “non-equity partner,” and “of counsel.” We
do not purport to settle cases arising in these variable contexts,

App. 14
For this court to treat Lemon, an equity partner in
a conventionally-structured law firm, as an employee
would be to assign ourselves the task of single-handedly refashioning the foundation of a prevailing form
of legal practice. Clackamas provides no warrant for it.
Our common law tradition provides no warrant for it.
Our sister circuits warn against it. See, e.g., Solon v.
Kaplan, 398 F.3d 629 (7th Cir. 2005) (declining to treat
an equity partner as an employee for purposes of Title
VII); von Kaenel v. Armstrong Teasdale, LLP, 943 F.3d
1139 (8th Cir. 2019) (declining to treat an equity
partner as an employee for purposes of the ADEA). In
short, Lemon is a partner and equal owner of the firm,
not an employee, and she is not within the scope of Title VII’s coverage.
III.
Lemon also claimed that MB violated her rights
under § 1981 when it denied her request for short-term
leave. Section 1981 provides, in relevant part, that
“all persons . . . shall have the same right . . . to make
and enforce contracts . . . as is enjoyed by white citizens,” and guards generally against race-based discrimination in the workplace. A prima facie case for
discriminatory denial of employment benefits consists
of four elements: (1) the plaintiff is a member of a protected class; (2) the defendant provided the benefit in
question to members of its workforce; (3) plaintiff was
but leave them open for future consideration on their facts under
the principles set forth above.

App. 15
eligible to receive the benefit; and (4) defendant’s denial of the benefit gives rise to an inference of discrimination. See Thomas v. Potomac Elect. Power Co., 312
F.3d 645, 649-50 (4th Cir. 2002). The parties contest
only the third and fourth elements.
To survive the pleadings stage under 12(b)(6),
Lemon’s allegations respecting these elements must be
pled with sufficient facts “to state a claim to relief that
is plausible on its face.” Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 570 (2007); Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009). The facts alleged must, in other words,
nudge her claim “across the line from conceivable to
plausible.” Twombly, 550 U.S. at 570. For several reasons, Lemon’s claim under § 1981 does not satisfy this
standard.
Her allegations respecting the third element, her
eligibility, are purely conclusory. Lemon declined to indicate, even in broad outline, the nature of the medical
conditions or events that allegedly qualified her for
leave, despite being the individual best-positioned to
do so. She merely stated that she qualified “through
her own health condition” as well as through “two additional qualifying events” experienced by members of
her immediate family. J.A. 447. But what these are we
do not know. The omission of more specific factual allegations tending to corroborate Lemon’s claim of eligibility for leave is especially puzzling given her own,
cross-cutting allegation that another Board member
openly denied that Lemon was qualified for leave.

App. 16
Even if Lemon’s qualification for leave was assumed, however, she would still have failed to appropriately allege, as required by the Supreme Court’s
recent holding in Comcast Corporation v. National Association of African American-Owned Media, 140 S.Ct.
1009 (2020), that her race was the but-for cause of the
Board’s denial of her leave application. See 140 S.Ct at
1014-15; see also Potomac Elect. Power, 312 F.3d at
649—50. Lemon’s allegation that she was subject to a
different short-term leave application process than the
firm’s white partners is by itself insufficient. Because
in the absence of plausible allegations that, for example, these white partners were similarly situated, such
an allegation indicates only that she was treated differently, not that she was treated differently because of
her race. See J.A. 501.
Lemon did present one factually-specific, nonconclusory allegation of racially-motivated conduct,
namely that one shareholder complained about her
“play[ing] the black card” too often. By Lemon’s own
accounting, however, this comment was made approximately four months prior to the Board vote denying
Lemon short-term leave. As the district court aptly
observed, Lemon failed to allege any facts linking
these two events, leaving any potential connection
a matter for speculation. J.A. 503. Because Lemon’s
other race-related allegations are conclusory, they cannot be woven together with this one to suggest a “general pattern” from which racial discrimination might
be reasonably inferred. Woods v. City of Greensboro,
855 F.3d 639, 649 (4th Cir. 2017). Speculation, of

App. 17
course, falls short of what Twombly and Iqbal require.
McCleary-Evans v. Maryland Dep’t of Transp., State
Highway Admin., 780 F.3d 582, 586 (4th Cir. 2015). In
the end, the district court was left with a sparse set of
pleadings, incapable of stating a plausible claim that
Lemon’s short-term leave request would not have been
denied but for her race.
IV.
For all the foregoing reasons, the judgment of the
district court is affirmed.
AFFIRMED.

App. 18
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
No. 5:18-CV-200-FL
SHAWNA CANNON LEMON, )
)
Plaintiff,
)
v.
)
)
MYERS BIGEL, P.A. f/k/a
ORDER
)
Myers Bigel & Sibley and
(Filed Mar. 11, 2019)
Myers Bigel Sibley & Sajovec, )
P.A.; LYNNE A. BORCHERS; )
)
and UNNAMED OTHERS,
)
Defendants.
)
This matter is before the court on defendants’ motion to dismiss (DE 17) and plaintiff ’s motion to amend
complaint (DE 26). The matters have been fully
briefed, and in this posture the issue raised are ripe for
ruling.
STATEMENT OF THE CASE
Plaintiff initiated this action by complaint filed
April 4, 2018, against defendants Myers Bigel, P.A.
(“MB”), Lynne A. Borchers (“Borchers”), and unnamed
others, in Wake County Superior Court, asserting discrimination and retaliation claims under the Civil
Rights Act of 1964, as amended, 42 U.S.C. §§ 2000e, et
seq. (“Title VII”) and discrimination claim under the

App. 19
Civil Rights Act of 1871, as amended, 42 U.S.C. § 1981
(“§ 1981”). Defendants subsequently removed the action to this court.
Following the court’s grant of multiple consent motions for time extensions, defendants filed the instant
motion to dismiss on August 6, 2018. On November 19,
2018, plaintiff filed the instant motion to amend complaint with proposed amended complaint adding factual allegations in support of plaintiff ’s federal claims
and two additional claims arising under North Carolina law for breach of fiduciary duty and breach of the
implied covenant of good faith and fair dealing.
STATEMENT OF THE FACTS
The facts alleged in proposed amended complaint
may be summarized as follows.1
A. Plaintiff ’s Employment at Defendant MB
From August 24, 2001, to this current date, plaintiff has been an attorney duly licensed to practice law
by the North Carolina State Bar. Plaintiff also possesses a doctorate in biomedical sciences/pharmacology.
At all times relevant herein, plaintiff ’s law practice
has been focused in the area of patent law.

1

Because the arguments raised for dismissal of the claims
and allegations of the proposed amended complaint parallel those
raised with regard to the original complaint, the court sets forth
here a summary of the facts alleged in the proposed amended
complaint.

App. 20
Plaintiff alleges from around September 2001 to
December 31, 2016, she was employed by defendant
MB to serve as a patent lawyer. On or about September
4, 2001, plaintiff and this defendant memorialized the
terms and conditions of plaintiff ’s employment in an
employment agreement, which allowed defendant MB
to terminate plaintiff ’s employment “without cause
and at any time, by giving at least thirty (30) days’
written notice. . . .” (Prop. Am. Compl. (DE 26-1) ¶ 20).
The employment agreement also set terms and conditions of plaintiff ’s employment with defendant MB, including the following:
1.

Requiring plaintiff “to devote all necessary
time and [her] best efforts to the performance
of [her] duties as a lawyer for [defendant MB]
in accordance with the highest ethical standards of the legal profession and the rules,
regulations, and policies of [defendant MB] as
adopted from time-to-time”;

2.

Limiting her ability to work and earn income
outside of defendant MB, including income
from professional services, teaching fees, director fees, and honorariums;

3.

Requiring her to maintain “professional competence”; and

4.

Requiring her “to observe and comply with the
personnel policies, the operating policies and
procedures, and all other rules and regulations of [defendant MB]” and “to carry out and

App. 21
perform orders, directions, and policies stated
by [defendant MB] to [her.]”
(Id. ¶ 21).
On or about January 2, 2007, plaintiff entered into
the tenth modification to a shareholders’ agreement
between defendant MB and the 20 shareholders of defendant MB at that time, which has been modified and
amended thereafter. In executing the shareholders’
agreement, plaintiff agreed to purchase 5,000 shares
of defendant MB for a total $62,241.17. Plaintiff alleges no provision of the shareholders’ agreement superseded plaintiff ’s employment agreement; rather,
the shareholders’ agreement tied continued ownership
of stock to plaintiff ’s continued employment with defendant MB. Plaintiff alleges that defendant MB would
not permit a shareholder whose employment was terminated to remain as a shareholder of defendant MB,
despite an amendment to the shareholder’s agreement
in 2009 removing the word “employee.” (Id. ¶ 42).
Plaintiff alleges the employment agreement continued
in full force and effect after plaintiff became a shareholder of defendant MB. Plaintiff alleges she remained
subject to defendant MB’s control as an employee of
defendant MB and continued to be compensated as an
employee rather than as a shareholder.
At all times relevant, defendant MB had a strict
quality control policy. Defendant MB required plaintiff
and defendant MB’s other shareholders to comply with
the quality control policy, by which defendant MB required plaintiff and other shareholders to submit their

App. 22
work product for substantive review by another shareholder to ensure that assignments were met satisfactorily and provide plaintiff with feedback regarding
the same.
The quality control policy further required plaintiff and defendant MB’s other shareholders to submit
all draft bills to the managing shareholder “for compliance and [to] take appropriate action as necessary.” (Id.
¶ 23). During 2016, plaintiff alleges all attorneys at the
firm reported to the management committee, and to
defendant Borchers as managing shareholder.
During the tenure of plaintiff ’s employment, including after plaintiff became a shareholder, defendant
MB issued plaintiff a Form W-2 for each tax year for
purposes of reporting her gross income to the United
States Internal Revenue Service. Plaintiff never received a Schedule K-1 from defendant MB.2 Plaintiff ’s
compensation was governed at all relevant times by
the attorney compensation plan, an addendum to the
employment agreement.
At all times during her tenure of employment,
plaintiff met or exceeded all reasonable work expectations of her employer and generally excelled in the performance of her job duties. At no time during her
tenure did plaintiff ever receive any disciplinary sanction, counseling, warning, or complaint. As a general
practice, plaintiff treated all supervisors, colleagues,

2

A Schedule K-1 form is used to report a partner’s share of
the partnership’s income, deductions, credits, etc.

App. 23
and subordinates in a professional manner with fairness, respect, and good will.
B. Organization of Defendant MB
As a professional association, defendant MB is
owned by its shareholders. Although defendant MB is
a professional association, at all times relevant, it functioned more as a partnership, demonstrated by, among
other circumstances alleged by plaintiff, the fact that
each shareholder held an equal number of shares of
defendant MB and served as a director and officer of
defendant MB. At all times relevant, defendant MB
was governed by a board of directors. Each shareholder
also served as a director of defendant MB, as required
by its bylaws.
Defendant MB conducted its business through
regularly occurring special meetings of the board of
directors. Although the bylaws did not require defendant MB to state the purpose of a special meeting, defendant MB regularly circulated an agenda prior to the
meeting stating the purpose for the meeting and outlining matters to be considered.
The bylaws expressly reserved determination of
“admission of new member(s) to the Corporation as
Shareholder(s), the expulsion of a Shareholder, or the
termination of employment of a Shareholder” to defendant MB’s board of directors. (Id. ¶ 35). The bylaws
also provided for appointment of officers, including
president, managing shareholder, vice president,

App. 24
secretary, treasurer, assistant secretary, and assistant
treasurer.
Each shareholder served as an officer of defendant
MB in some capacity. During 2016, plaintiff served as
vice president and secretary, and defendant Borchers
served as managing shareholder. Plaintiff alleges that
while the bylaws set forth the duties and responsibilities of defendant MB’s officers, in practice, at all times
relevant, the only officer with any actual authority was
defendant Borchers as managing shareholder. Plaintiff
and defendant Borchers were shareholders of defendant MB during 2016. During 2016, there were 25
shareholders of defendant MB, each owning 5,000
shares of defendant MB stock with equal shareholder
rights and voting power.
C. Defendant MB’s Management Committee
Defendant MB’s board of directors also elected a
management committee, consisting of five shareholders, to “manage” defendant MB and “generally carry
out such duties as the Board of Directors may delegate
from time to time and carry out generally the legal
practice and administrative affairs of [defendant MB].”
(Id. ¶ 46). Plaintiff alleges that in practice, most of the
board of directors’ control was delegated to the management committee.
In 2016, the management committee consisted of
defendant Borchers, David Beatty (“Beatty”), Alice
Bonnen (“Bonnen”), Rohan Saba, and one of the female complainants plaintiff alleges was thereafter

App. 25
“retaliatory remov[ed] by the Board of Directors.” (Id.
¶ 47). Defendant Borchers was the longest serving
member of the management committee at the time.
Although defendant MB’s bylaws gave the management committee authority to “carry out such duties
as the Board of Directors may delegate,” plaintiff alleges the management committee “controlled” the
board of directors in the following ways:
1.

The management committee scheduled all
meetings of the board of directors;

2.

The management committee controlled the
matters presented to the board of directors by
preparing and circulating the agenda for such
meetings; and

3.

The management committee, through defendant Borchers as managing shareholder, made
its recommendations regarding corporate actions to the board of directors, which were
generally followed, as a matter of course.

(Id. ¶ 48).
D. Defendant MB’s Controlling Group of Shareholders
Plaintiff alleges that defendant Borchers was the
leading member of a controlling group of shareholders
consisting of David Purks, Scott Hatfield (“Hatfield”),
Tim Wall, David Hall, Peter Siddoway, and others.3
Plaintiff alleges this group of shareholders was
3

Plaintiff labels this group the “Controlling Group.”

App. 26
responsible for a significant portion of defendant MB’s
revenues and major client relationships, and was followed by the majority of defendant MB’s shareholders
as a matter of course. Plaintiff alleges through their
control of defendant MB’s revenues and major client
relationships, this group was able to exercise actual
control over the management committee, the board of
directors, and defendant MB, although this group did
not hold numeric majority of defendant MB shares.
For example, plaintiff alleges in 2015, Ken Sibley
(“Sibley”), founder and then-president of defendant
MB, recognized that he was not being permitted to exercise the authority given to him as president under
the bylaws, and raised this issue with the management
committee. In 2016, the management committee presented this issue to the board of directors. Allegedly at
the direction of defendant Borchers, with the support
of the above-named group, the board of directors decided to consolidate the role of the president with the
managing shareholder, and otherwise to recognize that
defendant Borchers was already occupying both roles
in practice.
E. Discrimination at Defendant MB
Plaintiff alleges that since at least 2011 through
the relevant time period, defendant MB and its shareholders, directors, and officers failed to remediate, and
instead fostered, a workplace that was hostile to
women and minorities. Plaintiff alleges that an incident occurred wherein a male shareholder commented

App. 27
to a female shareholder that he would be “so far up
[her] a** she wouldn’t be able to see straight,” resulting in the management committee, while plaintiff
served on that committee, discussing “the necessity of
setting a professional standard of conduct for the work
environment that would be applicable to all employees” and a working environment which is “pleasant,
healthful, comfortable and free from intimidation, hostility or other offense that might interfere with work
performance” and which would not tolerate “harassment of any sort; verbal, physical or visual. . . .” (Id.
¶¶ 58-59). Plaintiff alleges, however, that no steps were
taken to ensure the workplace was free of harassment.
Plaintiff alleges another instance occurred which
resulted in one shareholder leaving defendant MB in
2012 “due in part to the firm’s lack of support for
women and families.” (Id. ¶ 60). Plaintiff further alleges that she witnessed or was told about hiring discrimination against minorities and discrimination
against minorities advancing to become shareholders
of defendant MB.
Plaintiff alleges defendant MB hired attorney
Kevin S. Joyner (“Joyner”) of the Ogletree, Deakins,
Nash, Smoak & Stewart, P.C. law firm at some point
prior to June 2, 2016, to investigate and advise it concerning ongoing claims of gender discrimination, including a hostile work environment, that were
asserted by three of defendant MB’s female attorneys/
employees (“complainants”). As part of his investigation, Joyner met with plaintiff on or about June 2, 2016
to determine her personal knowledge about gender

App. 28
discrimination in defendant MB’s workplace. During
the course of the interview, which lasted at least one
hour, plaintiff allegedly candidly reported her personal
knowledge to Joyner about facts that ultimately supported the complainants’ concerns about gender discrimination in defendant MB’s culture and workplace
environment.
During the course of the interview, Joyner informed plaintiff that he did not represent plaintiff.
Plaintiff alleges that Joyner used the substantive information provided to him by plaintiff regarding gender discrimination in the workplace in part to prepare
a “confidential memorandum” for defendant MB’s
board of directors to review. Plaintiff requested and
was denied an opportunity to review this memorandum, after which plaintiff consulted an attorney to assist and advise her in connection with Joyner’s
investigation.
On or about June 14, 2016, Joyner provided defendant MB’s board of directors with a copy of the confidential memorandum that included information that
plaintiff had provided to him and that confirmed or corroborated gender discrimination existing in defendant
MB’s work environment. Plaintiff alleges defendant
Borchers provided a copy of the confidential memorandum to other attorney-shareholders who were not on
the management committee prior to its circulation to
members of defendant MB’s board of directors.
On or about June 15, 2016, defendant MB held a
board of directors meeting to review and discuss

App. 29
Joyner’s confidential memorandum among defendant
MB’s board members. Plaintiff alleges that during defendant MB’s board meeting of June 15, 2016, board
members “openly excoriated” plaintiff after reviewing
the confidential memorandum in at least the following
ways:
1.

Hatfield openly referred to plaintiff ’s statements concerning the hostile work environment as “idiotic;”

2.

Shortly thereafter, Joyner informed the board
members during the board meeting that
Hatfield’s characterization of plaintiff ’s concerns was “not accurate;’

3.

Another board member responded openly to
Joyner’s statement that he would have said
“much worse [than Hatfield]” in describing his
reaction to plaintiff ’s statements concerning
the hostile work environment;

4.

Other board members screamed at plaintiff to
“grow up” and “stop complaining;” and

5.

Other board members chastised plaintiff for
having hired a lawyer to advise her after
Joyner’s interview of her.

(Id. ¶ 71).
Plaintiff alleges no reproach or reprimand was
issued by defendant MB to these other board members.
Plaintiff alleges that after the June 15, 2016 meeting,
the allegedly controlling group of board members held
discussions regarding forcing plaintiff and another
female complainant to leave defendant MB. Plaintiff

App. 30
alleges this group and defendant Borchers began exploring possible retaliatory efforts against plaintiff
and the other female complainants, including possibly
ending the firm’s trademark practice, which was led by
one of the female complainants.
Following the June 15, 2016 board meeting, defendant MB’s shareholder Julie Richardson (“Richardson”) told another shareholder that plaintiff “played
the black card too much.” (Id. ¶ 76). Plaintiff alleges
that at that point in time, plaintiff had never made
any complaints to defendant MB about “race” or being
“black.” Plaintiff alleges Richardson “sought to spread
the inaccurate and ugly stereotype about AfricanAmericans as being applicable to plaintiff in an effort
to discredit and isolate plaintiff from collegiality and
support in the workplace and amongst the defendant
MB Board of Directors and shareholders in retaliation
for having reported gender discrimination to Joyner.”
(Id. ¶ 77).
On July 8, 2016, Beatty, a defendant MB shareholder and management committee member, prepared
and circulated an email to defendant MB’s shareholder/employees that referenced plaintiff as a “bad
a**hole” for having expressed “sincere concerns” about
gender discrimination to Joyner. (Id. ¶ 79). The email
stated that defendant MB needed more “good a**holes”
instead. (Id.).
On July 11, 2016, at the direction of defendant
Borchers and the management committee, Ashley
Woodruff (“Woodruff ”), defendant MB’s director of

App. 31
administration, circulated what purported to be the
complete agenda for a board of directors meeting
scheduled for July 13, 2016; however, the agenda did
not include consideration of removal of one of the female complainants from the management committee.
Plaintiff alleges that nevertheless, during this meeting, defendant MB’s board of directors unilaterally expelled one of the complainants as a member of
defendant MB’s management committee. Plaintiff alleges this was done in retaliation for having complained about the hostile work environment, as was
reported in Joyner’s confidential memorandum. Plaintiff alleges during this meeting a non-shareholder attorney “openly reprimanded plaintiff for her having
expressed sincere concerns about gender discrimination” and directed plaintiff to “leave [the firm] and do
better.” (Id. ¶ 82).
Defendant MB held a board of directors meeting
on July 14, 2016, to discuss the removal of one of the
female complainants as a member of the management
committee. Prior to the meeting, Sibley noted his disappointment “that a motion of such gravity-which was
not on the agenda circulated 7:11 pm Monday evening
not postponed by the board, so that partners not present (and who had no idea such a motion would be
made) would have an opportunity to participate in the
discussion and subsequent vote.” (Id. ¶ 84). In the June
14, 2016 meeting, Sibley, along with plaintiff, moved to
cancel the removal of one of the female complainants
from the management committee. The motion did not

App. 32
carry. Sibley thereafter resigned from defendant MB, a
firm he co-founded, on September 14, 2016.
F. Defendant MB’s STL Plan
As part of defendant MB’s policies and procedures,
defendant MB adopted a short-term leave/short-term
disability plan (“STL plan”) to “provide greater flexibility for Shareholders to work reduced hours due to personal illness, family leave, or serious family illness or
other hardship” and to establish a plan for short term
leave that is “more equitable than addressing individual situations on an ad hoc basis as they arise.” (Id.
¶ 87).4

4

When ruling on a motion to dismiss, the court may consider
the facts as alleged in the complaint, “documents attached to the
complaint, . . . [and documents] attached to the motion to dismiss,
so long as they are integral to the complaint and authentic.” Sec’y
of State for Defence v. Trimble Navigation Ltd., 484 F.3d 700, 705
(4th Cir. 2007) (internal citations omitted). Attached to defendants’ motion to dismiss are four documents, the employment
agreement, the shareholders’ agreement, the compensation plan,
and the STL plan, all of which are discussed by plaintiff in complaint and proposed amended complaint. Plaintiff has not challenged the authenticity of these documents. Plaintiff argues in
motion to amend that these documents are outside the pleadings
and should be disregarded, although previously in response in opposition to defendants’ motion to dismiss, plaintiff cited to the employment agreement, the shareholders’ agreement, and the STL
plan and referenced all four documents. (See, e.g., DE 21 at 21,
23-24). The court finds these documents integral to the complaint
and authentic; other exhibits submitted by defendant are not integral to the complaint and will not be considered by the court.
(See DE 23-3).

App. 33
Plaintiff alleges that throughout 2016, plaintiff experienced numerous events which qualified her for
participation in defendant MB’s STL plan. Plaintiff
timely notified defendant Borchers and Woodruff
throughout 2016 that she was experiencing qualifying
events under the STL plan that made it difficult for her
to meet her 1600 billable hour requirement. Defendant
Borchers and Woodruff followed up with plaintiff periodically to determine whether she was still experiencing the qualifying events and whether she was on track
for her work.
Eventually, on or about September 14, 2016, plaintiff elected to participate in defendant MB’s STL plan
as a qualified applicant under the firm’s policies and
procedures. Plaintiff alleges that in addition to qualifying to participate in defendant MB’s STL plan
through her own health condition at the time, plaintiff
further qualified for participation due to two additional independent qualifying events that were being
experienced by plaintiff ’s immediate family members.
Prior to plaintiff ’s election, defendant MB’s management committee would ministerially confirm an
attorney/employee’s STL request and simply inform
the board of directors about the attorney/employee’s
election to participate in the STL plan. Plaintiff alleges
that instead of approving plaintiff ’s election at the
typical ministerial management committee level, defendant MB subjected plaintiff to “insensitive questioning” about her health at the management
committee level and required her to obtain medical
documentation for further consideration, which

App. 34
plaintiff alleges was done in retaliation for her participation in the Equal Employment Opportunity
(“EEO”) investigation and complaints about the controlling group of shareholders. (Id. ¶ 94).5
Although plaintiff obtained the requested medical
documentation from her physician that confirmed the
need for accommodations through the STL plan and
offered to provide the same to defendant MB’s director
of administration, defendant MB informed plaintiff
that she instead would need to address defendant MB’s
board of directors with her request to participate in the
STL plan.
Defendant MB placed the issue of plaintiff ’s STL
request on the agenda for the October 19, 2016, meeting of defendant MB’s board of directors, allegedly facilitating an open discussion among board members
about plaintiff ’s private health condition, which was
an underlying basis for the leave request. During the
meeting, defendant Borchers directed plaintiff and one
of the female complainants to leave the meeting so that
the board could discuss the matter in their absences,
allegedly because plaintiff and the female complainant, who had not made any election to participate in
the STL plan that year, engaged an attorney to advise
and assist them after having been interviewed by
Joyner. During that meeting defendant Borchers and
the group of controlling shareholders allegedly made
5

Presumably plaintiff here is referencing the investigation
in response to which defendant MB hired Joyner. (See DE 26-1 at
44).

App. 35
their negative opinions towards plaintiff and her STL
request known to the other shareholders and directors
at the meeting and suggested that plaintiff ’s request
should be denied.
When plaintiff and the female complainant were
permitted to return to the meeting, defendant Borchers led a brief discussion amongst the shareholders
about plaintiff ’s STL election. During this discussion,
Richardson intentionally misled the board of directors
by stating that Richardson “wrote the policy” which
“was for prolonged family illness,” and stated that she
did not “see how” plaintiff ’s qualifying events applied
to the STL plan. (Id. ¶ 102). Richardson had previously
stated the plan was “primarily driven by [a shareholder’s] plan for adoption.” (Id.). Thereafter, all but
three of the approximate 20 board members in attendance voted to deny plaintiff ’s election to invoke the
right to participate in the STL plan.
Plaintiff alleges that defendant MB’s board of directors had never previously voted on this issue of STL
election as it pertained to its white employees, including those seeking short-term leave for such events as
cataract surgery, undisclosed illnesses, and even for
one white employee who did not otherwise qualify for
the STL plan, but was granted participation by defendant MB nonetheless. Plaintiff additionally alleges
that prior to plaintiff ’s request for STL plan participation, defendant MB had never required any other
white shareholders or employees to disclose their specific medical conditions to prove qualification; never
required other shareholders or employees to present

App. 36
their request for STL plan participation to the board of
directors for approval; and never required the shareholder or employee to present physician statements
confirming health conditions.
Following the rejection of plaintiff ’s election to
participate in defendant MB’s STL plan, defendant
Borchers discussed “punishment” for “bad behavior”
and specifically mentioned plaintiff ’s name along with
that of another female complainant for having “hired a
lawyer” back in June 2016. (Id. ¶ 107). During the
board meeting of October 19, 2016, defendant Borchers
also suggested and discussed a range of punishment
for plaintiff with defendant MB’s board of directors, including public censure, monetary penalties, and termination. The board of directors took up discussion of
“Shareholder Conduct,” allegedly at the direction of defendant Borchers. (Id. ¶ 110). During this discussion,
two shareholders suggested that defendant MB have a
“reset” of relations between shareholders; however, defendant Borchers disagreed that defendant MB could
have such a “reset.” (Id.).
G. Further Actions Taken by Board of Directors
After this discussion, the board of directors took
up consideration of policy review and revisions, including amendments to the compensation plan, allegedly
at the direction of defendant Borchers. Allegedly
Beatty proposed making an amendment to the compensation plan that would specifically punish plaintiff
if she was unable to meet her billable hour

App. 37
requirements for 2016. Plaintiff alleges this amendment was in violation of defendant MB’s “unwritten
but widely understood policy of not making policy
changes that would negatively impact a specific shareholder at the time of making the policy change.” (Id.
¶ 113). This amendment was approved. Thereafter, defendant Borchers unilaterally contacted one of defendant MB’s largest clients to inform the client that
client management responsibility was being transferred to a member of the controlling group of shareholders, which plaintiff alleges was not in the best
interest of defendant MB.
On October 7, 2016, a day following plaintiff ’s request for STL, but prior to the board’s consideration of
the request, defendant MB’s management committee
circulated notes of its meetings held July 26, 2016,
August 2, 2016, and August 16, 2016. Plaintiff alleges
these notes contained a substantially higher level of
detail than notes previously provided to defendant
MB’s shareholders. The notes allegedly covered a conversation that plaintiff had with defendant MB’s
shareholder and management committee member
Bonnen, but the content included inaccurate statements attributed to plaintiff and contained a critical
omission by Bonnen, indicating incorrectly plaintiff ’s
desire to undermine the firm. Thereafter, the management committee did not circulate any further meeting
minutes while plaintiff remained employed by defendant MB.
Plaintiff alleges, in contrast, an additional incident following Joyner’s investigation. This incident

App. 38
involved a male shareholder’s interaction with a female staff member being described as him addressing
the staff member “loudly and angrily” when he yelled
and cursed at her and caused her fear. (Id. ¶ 120). Notwithstanding, no mention of his previous similar interactions with a different female staff member were
discussed in the management committee meeting nor
were statements made regarding remedial measures
to be taken.
On or about November 2, 2016, plaintiff alleges
she became aware that defendant MB’s management
committee had openly discussed racial and gender discrimination and its retaliatory actions against plaintiff
and the complainants during at least one of its meetings. Plaintiff also became aware that defendant MB’s
management committee had specifically discussed
terminating her and that another shareholder had
specifically discussed a motion to terminate plaintiff ’s
employment.
Around November 4, 2016, plaintiff alleges a
poorly noticed meeting was called for the shareholders of defendant MB’s “ChemBio” practice group of
which plaintiff was a member. During this meeting,
defendant MB’s shareholder/employees “interrogated”
plaintiff by asking about her “intentions” and whether
she was going to sue the firm. (Id. ¶ 126). Plaintiff alleges that defendant MB’s ChemBio practice group further “openly chastised” plaintiff on or about November
4, 2016, for having hired a lawyer. (Id. ¶ 127). Bonnen
asked plaintiff at the November 4, 2016 ChemBio

App. 39
practice group meeting what would happen “if somebody pushed” her “off the cliff.” (Id. ¶ 128).
Around this period, plaintiff was repeatedly asked
to speak with defendant MB’s board of directors to answer “some tough questions.” (Id. ¶ 129). On November
5, 2016, defendant Borchers emailed plaintiff to inform
that plaintiff was being placed on the agenda for the
board of directors meeting scheduled for November 8,
2016, based on a meeting with ChemBio members regarding “workplace concerns” with no further specification. (Id.). Plaintiff subsequently provided defendant
MB’s management committee with documentation
from a health care provider that indicated she needed
to avoid stress during this time for health reasons.
Plaintiff alleges that defendant MB’s hostile work environment had been taking a toll on plaintiff ’s health
by causing her to experience difficulty in breathing
through the exacerbation of her asthmatic condition;
however, plaintiff continued working through those
health issues.
H. Plaintiff ’s Resignation
On December 23, 2016, plaintiff tendered her resignation. Plaintiff has obtained employment but her
“opportunities for compensation have been significantly diminished.” (Id. ¶ 133). On or about January 3,
2017, defendant Borchers and the controlling group of
shareholders formed their own firm (“Sage Patent
Group”). Plaintiff alleges that the Sage Patent Group
registered a website on November 12, 2016 and signed

App. 40
articles of incorporation on December 12, 2016. Plaintiff alleges defendant MB shareholders acknowledged
that the Sage Patent Group “used many of us to help
them carry the bags out to the car” and “lamented what
they were able to easily do in 2016 without meaningful
protest.” (Id. ¶ 139).
DISCUSSION
A. Standard of Review
A plaintiff may amend complaint one time as a
matter of course within 21 days after service of a responsive pleading or 21 days after service of a motion
under Rule 12(b), whichever is earlier. Fed.R.Civ.P.
15(a). Otherwise, however, a plaintiff may amend complaint only by leave of the court or by written consent
of the defendant, although “[t]he court should freely
give leave when justice so requires.” Id. This liberal
rule gives effect to the federal policy in favor of resolving cases on their merits, rather than disposing of
them on technicalities. See Ostrzenski v. Seigel, 177
F.3d 245, 252–53 (4th Cir. 1999). Leave to amend
should be freely given in the absence of “undue delay,
bad faith or dilatory motive on the part of the movant,
repeated failure to cure deficiencies by amendments
previously allowed, undue prejudice to the opposing
party by virtue of allowance of the amendment, or futility of the amendment.” Foman v. Davis, 371 U.S. 178,
182 (1962).
With respect to futility, the court may deny leave
to amend “if the proposed amended complaint fails to

App. 41
state a claim under the applicable rules and accompanying standards.” Katyle v. Penn Nat. Gaming, Inc.,
637 F.3d 462, 471 (4th Cir. 2011). A complaint states a
claim if it contains “sufficient factual matter, accepted
as true, to ‘state a claim to relief that is plausible on
its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). “Asking for plausible grounds . . . does not impose a probability requirement at the pleading stage;
it simply calls for enough fact to raise a reasonable
expectation that discovery will reveal [the] evidence”
required to prove the claim. Twombly, 550 U.S. at 556.
In evaluating the complaint, “[the] court accepts all
well-pled facts as true and construes these facts in the
light most favorable to the plaintiff,” but does not consider “legal conclusions, elements of a cause of action,
. . . bare assertions devoid of further factual enhancement [,] . . . unwarranted inferences, unreasonable
conclusions, or arguments.” Nemet Chevrolet, Ltd. v.
Consumeraffairs.com, Inc., 591 F.3d 250, 255 (4th Cir.
2009).
Likewise, “[t]o survive a motion to dismiss” under
Rule 12(b)(6), “a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’ ” Iqbal, 556 U.S. at 663
(quoting Twombly, 550 U.S. at 570). “Factual allegations must be enough to raise a right to relief above the
speculative level.” Twombly, 550 U.S. at 555.

App. 42
B. Analysis
Plaintiff asserts the following claims: 1) Title VII
claims for race-based discrimination and retaliation
for plaintiff ’s participation in the investigation concerning gender discrimination and 2) a § 1981 claim
for race discrimination. In her proposed amended complaint, plaintiff additionally asserts the following
claims: 3) a North Carolina claim for breach of fiduciary duty and 4) a North Carolina claim for breach of
the implied covenant of good faith and fair dealing. The
court addresses each claim in turn below, holding that
for each claim, plaintiff has failed to state a claim on
which relief can be granted under the facts alleged in
plaintiff ’s proposed amended complaint. Thus, the
court grants defendant’s motion to dismiss plaintiff ’s
first and second claims and denies plaintiff ’s motion to
amend as futile with regard to all additional factual
allegations and with regard to plaintiff ’s third and
fourth claims.6
1. Title VII Claims
Title VII contains both antidiscrimination and antiretaliation provisions. Regarding the former, Title VII
in relevant part makes unlawful for an employer to do
as follows:
(1) to fail or refuse to hire or to discharge
any individual, or otherwise to discriminate
against any individual with respect to his
6

The time in which plaintiff could amend her complaint as a
matter of right has passed.

App. 43
compensation, terms, conditions, or privileges
of employment, because of such individual’s
race, color, religion, sex, or national origin; or
(2) to limit, segregate, or classify his employees or applicants for employment in any way
which would deprive or tend to deprive any
individual of employment opportunities or
otherwise adversely affect his status as an
employee, because of such individual’s race,
color, religion, sex, or national origin.
42 U.S.C. § 2000e-2(a) (emphasis added). Regarding
the latter, Title VII provides that “[i]t shall be an unlawful employment practice for an employer to discriminate against any of his employees . . . because he
has opposed any practice made an unlawful practice
by this subchapter.” 42 U.S.C. § 2000e-3(a) (emphasis
added). The Supreme Court has held that “Title VII’s
antiretaliation provision prohibits any employer action that well might have dissuaded a reasonable
worker from making or supporting a charge of discrimination.” Thompson v. N. Am. Stainless, LP, 562 U.S.
170, 174 (2011) (citations omitted).
Title VII permits “a person claiming to be aggrieved” to file a charge with the Equal Employment
Opportunity Commission (“EEOC”) alleging that the
employer committed an unlawful employment practice, and, if the EEOC declines to sue the employer, it
permits a civil action to “be brought . . . by the person
claiming to be aggrieved . . . by the alleged unlawful
employment practice.” 42 § 2000e-5(b), (f )(1).

App. 44
“An entity can be held liable in a Title VII action
only if it is an ‘employer’ of the complainant.” Butler v.
Drive Auto. Indus. of Am., Inc., 793 F.3d 404, 408 (4th
Cir. 2015). Title VII defines an “employer” as “a person
who is engaged in an industry affecting commerce who
has fifteen or more employees . . . and any agent of
such a person.” 42 U.S.C. § 2000e(b). Title VII defines
an “employee” only as “an individual employed by an
employer.” 42 U.S.C. § 2000e(f ). The Supreme Court
has recognized that this definition “is completely circular and explains nothing.” Nationwide Mut. Ins. Co. v.
Darden, 503 U.S. 318, 323 (1992) (addressing the question of whether a person was an independent contractor or an employee under the Employee Retirement
Income Security Act (“ERISA”)).
The Supreme Court has repeatedly held that
when a statute contains the term “employee” but does
not define it, a court must presume that Congress has
incorporated traditional agency law principles in order
to determine who is or is not an “employee.” See Clackamas Gastroenterology Assocs., P.C. v. Wells, 538 U.S.
440, 444–47 (2003) (addressing whether a directorshareholder physician was an “employee” in determining whether professional corporation was covered by
American with Disabilities Act (“ADA”), discussed
more below); Nationwide, 503 U.S. at 319, 322-23 (addressing the question of whether a person was an independent contractor or an employee under ERISA
and “read[ing] ERISA to incorporate traditional
agency law criteria”); Cmty. for Creative Non-Violence
v. Reid, 490 U.S. 730, 739–41 (1989) (“We thus agree

App. 45
with the Court of Appeals that the term ‘employee’
should be understood in light of the general common
law of agency.”).
Of particular relevance, in Clackamas, the Supreme Court in deciding whether physician shareholders were employees or employers under the ADA, a
statute that defines “employee” identically to Title VII,
the Court focused on the common law agency doctrine
and stated courts should look to the guidelines in the
EEOC’s Compliance Manual to address the question of
when a person is an “employee.” The Court turned to
the following factors from the EEOC’s Compliance
Manual in effect at that time: 1) “Whether the organization can hire or fire the individual or set the rules
and regulations of the individuals work,” 2) “Whether
and, if so, to what extent the organization supervises
the individual’s work,” 3) “Whether the individual reports to someone higher in the organization,” 4)
“Whether and, if so, to what extent the individual is
able to influence the organization,” 5) “Whether the
parties intended that the individual be an employee,
as expressed in written agreements or contracts,” and
6) “Whether the individual shares in the profits, losses,
and liabilities of the organization.” Clackamas, 538
U.S. at 449-50. The Court held that “the answer to
whether a shareholder-director is an ‘employee’ to determine whether the threshold was met depended on
‘all of the incidents of the relationship . . . with no one
factor being decisive.’ ” Id. at 450-51 (citations omitted).

App. 46
Plaintiff first argues that “the sole question for the
Court as to this issue is whether Lemon was protected
from sex discrimination and retaliation as an ‘individual’ and ‘person aggrieved’ under Title VII even if she
was a concurrent employee and shareholder for defendant MB,” and that the court should liberally construe Title VII in light of its remedial purpose, arguing
it is unnecessary for plaintiff to allege she was an employee as defined in Clackamas. (See DE 21 at 11).
Plaintiff argues that there is no dispute that defendant
MB is an employer within the meaning of Title VII in
that defendant MB is an entity that “is engaged in an
industry affecting commerce who has fifteen or more
employees.” (Id. at 15).
Plaintiff ’s interpretation is inconsistent with the
statutory language of Title VII as well as Supreme
Court precedent. First, Title VII’s substantive antidiscrimination provision prohibits discrimination on the
basis of “race, color, religion, sex, and national origin”
“with respect to . . . compensation, terms, conditions or
privileges of employment,” and discriminatory practices that would “ ‘deprive . . . any individual of employment opportunities or otherwise adversely affect his
status as an employee.’ ” 42 U.S.C. § 2000e-2(a) (emphasis added). Although “Title VII should be liberally
construed in light of its remedial purpose,” Butler, 793
F.3d at 409-10, the court cannot wholly divorce the
word “individual” from the rest of 42 U.S.C. § 2000e2(a), which prevents an employer for discriminating
against an individual with respect to that individual’s
employment or status as an employee. In order for an

App. 47
individual to have employment, that individual must
be an employee in some capacity, even when construing
the term employee liberally.
Regarding Title VII’s antiretaliation provision, as
stated by the Supreme Court, although the statute
does not “specify[ ] the employer acts that are prohibited” and, “unlike the substantive provision, is not limited to discriminatory actions that affect the terms and
conditions of employment,” Thompson, 562 U.S. at 174
(citations omitted), the antiretaliation provision still
prohibits an employer from “discriminating against
any of his employees,” 42 U.S.C. § 2000e–3(a) (emphasis added); see also Thompson, 562 U.S. at 177-78
(holding Title VII grants a cause of action to plaintiff
who was fired in retaliation for his fiancé’s filing of an
EEOC charge against their shared employer, as one
who “falls within the zone of interests protected by Title VII” as Thompson “was an employee” and “the purpose of Title VII is to protect employees from their
employers’ unlawful actions”).
Additionally, although not directly addressed by
the Supreme Court or the Fourth Circuit, multiple
court of appeals have held that the term “employee”
under Title VII, in order to determine whether the “employer” is subject to liability under Title VII, is defined
with reference to the common law agency principles
discussed above if not specifically dictated by Clackamas. See, e.g., Mariotti v. Mariotti Bldg. Products, Inc.,
714 F.3d 761, 766-77 (3d Cir. 2013) (citing Clackamas
and holding “the definitions of ‘employer’ and ‘employee’ set forth in both the ADA and Title VII are

App. 48
relevant in resolving (1) whether an entity qualifies as
an ‘employer’ under Title VII, and (2) whether an individual is an ‘employee’ who ‘may invoke [Title VII’s] . . .
protections against discrimination’ ”); Lopez v. Massachusetts, 588 F.3d 69, 83 (1st Cir. 2009) (“It is clear that
plaintiffs are not HRD’s employees, and HRD is therefore not their ‘employer’ for Title VII purposes, based
on [the Clackamas] factors”); Gulino v. N.Y. State Educ.
Dep’t., 460 F.3d 361, 377–78 (2d Cir. 2006) (citing
Clackamas and applying the common law agency test
to define an “employee” under Title VII because Supreme Court precedents “require adherence to common law principles of agency in Title VII cases”); Shah
v. Deaconess Hosp., 355 F.3d 496, 499–500 (6th
Cir.2004) (citing Clackamas, applying the common law
agency test to determine employee status under Title
VII, and suggesting that other tests cannot be reconciled with Supreme Court decisions); see also Steelman
v. Hirsch, 473 F.3d 124, 130 (4th Cir. 2007) (citing
Clackamas and holding plaintiff to not be an employee
under the Fair Labor and Standards Act).
Plaintiff next argues that even under the direction
provided by the Supreme Court for determining who is
an “employee” as found in Clackamas, plaintiff has alleged sufficient facts plausibly showing she has standing to assert claims for sex discrimination and
retaliation under Title VII. The court turns to the
Clackamas factors.
First, regarding “[w]hether the organization can
hire or fire the individual or set the rules and regulations of the individuals work,” plaintiff alleges that

App. 49
pursuant to her September 4, 2001 employment agreement, she could have been fired without cause, (Prop.
Am. Compl. (DE 26-1) ¶ 20), which would weigh in her
favor on this factor. However, it is undisputed January
2, 2007, plaintiff signed a shareholders’ agreement
which made her an equal owner of the firm along with
the other shareholders and which plaintiff paid
$62,241.17 for her ownership interest. (See DE 18-2 at
140-144).7 As a shareholder, plaintiff owned an equal
number of shares in the firm as other shareholders,
served as a director and officer of the firm, as vice president and secretary in 2016, and had “equal shareholder rights and voting power.” (Prop. Am. Compl.
¶¶ 37, 44). According to plaintiff, shareholders “owned”
the firm and the firm “conducted its business through
regularly-occurring special meetings of the Board of
Directors.” (Id. ¶¶ 30, 33). Plaintiff further alleges that
only the board of directors could admit, expel, or terminate shareholders and that plaintiff was a member of
that board, making her position more as an employer
than employee. (Id. ¶¶ 32, 35).8
7

It is also undisputed that prior to executing the shareholders’ agreement, plaintiff was an employee who could be terminated without cause on 30 days’ notice, was provided a salary, did
not share in the profits or expenses of the law firm, and did not
have an ownership interest in the firm or any right to participate
in the management of the firm.
8
Plaintiff alleges as relevant that there “was an open discussion by MB’s board of directors about a ‘range of punishment’ for
Lemon, including the potential for ‘public censure, monetary penalties, and termination.’ ” (DE 21 at 18 (citing Compl. (DE 1-7)
¶ 46). However, that the board of directors, of which plaintiff was
a member, could vote to take action against a shareholder,

App. 50
Turning to the second factor, “[w]hether and, if so,
to what extent the organization supervises the individual’s work,” plaintiff alleges that at all times relevant,
defendant MB had a strict quality control policy which
required plaintiff and “other shareholders to submit
their work product for substantive review by another
shareholder to ensure that assignments were met satisfactorily and provide Lemon with feedback regarding
the same” and submit all draft bills to the managing
shareholder “for compliance and [to] take appropriate
action as necessary.” (Id. ¶¶ 22-23). However, post-completion quality control measures of work products and
draft bill compliance review are not equal to supervision or control of plaintiff ’s work. These allegations do
not indicate, for example, that plaintiff ’s work product
was in any way directed by another or that any feedback she received impacted the work product she had
completed.
Third, regarding"[w]hether the individual reports
to someone higher in the organization,” plaintiff alleges that “all attorneys at the firm reported to the
Management Committee, and to Borchers as Managing Shareholder.” (Id. ¶ 24). However, there is no indication in what way this “report” occurred, how often, or
how it changed plaintiff ’s or others’ work product or
work choices, if at all. Plaintiff additionally alleges
including plaintiff, indicates plaintiff was a “manager” of the business, as opposed to an employee. See Clackamas, 538 U.S. at 448
(“If the shareholder-directors operate independently and manage
the business, they are proprietors and not employees; if they are
subject to the firm’s control, they are employees”) (citations omitted).

App. 51
that she met work expectations and, “[w]hile the Bylaws set forth the duties and responsibility of MB’s officers, in practice, and at all times relevant, the only
officer with any actual authority was Borchers as
Managing Shareholder.” (Id. ¶¶ 28, 38). Without more,
these allegations fail to indicate that plaintiff reported
to someone higher in the organization, where plaintiff
alleges only without elaboration that all attorneys “reported” to defendant Borchers, that defendant Borchers was the only one with actual authority, and that
plaintiff met work expectations. See Nemet, 591 F.3d
at 255 (the court does not consider “bare assertions devoid of further factual enhancement”); Kirleis v. Dickie,
McCamey & Chilcote, P.C., No. 06CV1495, 2009 WL
3602008, at *22 (W.D. Pa. Oct. 28, 2009), aff ’d, No. 094498, 2010 WL 2780927 (3d Cir. July 15, 2010) (“Traditionally, partnerships-law firms are not democracies,
and often are dominated by one or a few ‘autocratic’
partners, but this reality does not render every other
partner in the firm an employee even though he or she
retains most of the indicia of ownership and control.”).
Regarding the fourth factor, “[w]hether and, if so,
to what extent the individual is able to influence the
organization,” plaintiff offers no further factual enhancement that her “equal shareholder rights and voting power,” (Prop. Am. Compl. (DE 26-1) ¶ 44), was less
influential than that of the other shareholders.
Turning to the fifth factor, “[w]hether the parties
intended that the individual be an employee, as expressed in written agreements or contracts,” although
plaintiff alleges that “no provision of the Shareholders’

App. 52
Agreement superseded Lemon’s Employment Agreement” and “the Shareholders’ Agreement tied continued
ownership of stock to Lemon’s continued employment
with MB,” (id. ¶ 41), these allegations are insufficient
to establish that once she became a shareholder in
2007, she remained an employee for Title VII purposes.
Again, of significance and as stated above, plaintiff alleges that “[a]lthough MB is a professional association,
in practice it functioned more as a partnership, demonstrated by, among other circumstances alleged herein,
the fact that each shareholder [held] an equal number
of shares of MB and [served] as a director and officer
of MB.” (Id. ¶ 31). The parties’ agreement and contract
with defendant MB, as well as plaintiff ’s allegations,
indicate the parties intended plaintiff to be a shareholder, functioning as a partner, not an employee, as
characterized by the Clackamas test.
Finally, as to “[w]hether the individual shares in
the profits, losses, and liabilities of the organization,”
plaintiff alleges that after she became a shareholder
she “continued to be compensated as an employee,” but
also states that her “compensation was governed at all
relevant times by the Attorney Compensation Plan,
which was an addendum to the Employment Agreement.” (Id. ¶¶ 24-26, 43).9 Turning to the plan,
9

As previously stated, although plaintiff argues that defendants “again reference[ ] materials not contained in the pleadings,
which is a tacit admission that there are factual disputes to be
resolved in discovery,” (DE 35 at 4n2.), presumably referencing
the compensation plan, plaintiff specifically cites this plan in proposed amended complaint and does not question the validity of
the plan attached to defendants’ motion to dismiss.

App. 53
shareholders were not paid a salary but instead were
compensated based on several factors, including individual shareholder collections, firm revenue, and firm
expenses, which were allocated equally among shareholders. (See DE 18-3 at 2–5).10
Plaintiff further argues the following are relevant
to the present inquiry: First, in his investigation, defendant MB’s lawyer informed plaintiff prior to interviewing her that he did “not represent” plaintiff but
that he represented defendant MB, and second, plaintiff ’s lack of control over her position at defendant MB
is evidenced by the fact she was asked to leave a board
meeting, she was “subjected to a vote by the managing
committee and board of directors,” and she was excluded from “privileged information” regarding her
STL request. (DE 21 at 19).
First, that the law firm’s attorney did not represent plaintiff does not indicate she is an employee under the Clackamas test. Second, the Clackamas test
does not indicate that those who are part of an organization are employees unless they enjoy absolute control over the terms and conditions of their association
with said organization. See Mariotti, 714 F.3d at 761
10

Regarding plaintiff ’s allegation that issuance of a W-2 by
defendant MB is indicative of her employee status, (Prop. Am.
Compl. (DE 26-1) ¶¶ 25-26), the court does not find the issuance
of a W-2 dispositive of the present inquiry. See Bluestein v. Cent.
Wisconsin Anesthesiology, S.C., 769 F.3d 944, 955 (7th Cir. 2014)
(explaining that receiving a W-2 is not dispositive of an employment relationship and must be evaluated along with the other
factors).

App. 54
(holding absence of exclusive control “does not compel
a conclusion that an individual who lacks it is an employee entitled to invoke Title VII’s protections” as
such a conclusion would ignore that the Clackamas
factors “pertain[ ] to business entities that do not vest
exclusive control in any one individual.”). Likewise,
plaintiff ’s allegation that a “non-shareholder attorney”
openly reprimanded plaintiff, directing her to “leave
[the firm] and do better,” (DE 21 at 18), does not indicate plaintiff ’s lack of power or control as shareholder.
Plaintiff has failed to allege employee status under any of the of the Clackamas factors. Although
plaintiff is correct, as the Third Circuit has stated, that
“the Clackamas test is a fact intensive one; therefore,
cases requiring application of the test may generally
require resolution at the summary judgment stage, rather than at the motion to dismiss stage,” Mariotti, 714
F.3d at 768 n.5, at times resolution at the motion to
dismiss stage is appropriate where plaintiff has twice
failed to allege sufficient facts that she was an employee within the meaning of Title VII.11

11

Generally, plaintiff argues “[t]here is simply nothing that
Defendants can point to that would indicate that Lemon at any
time exerted control or had the right to exert control or even
shared control over the MB organization.” (DE 21 at 21). However, it is not defendants’ burden to plead that plaintiff is an employee sufficient to bring Title VII claims against her alleged
employer. As alleged by plaintiff, she was a shareholder and
member of the board of the directors of the institution she seeks
to bring claims against, and had the rights of control consistent
with that position.

App. 55
Accordingly, plaintiff ’s Title VII claims are dismissed.
2. Section 1981 Race Discrimination
Section 1981 provides that “all persons . . . shall
have the same right . . . to make and enforce contracts
. . . as is enjoyed by white citizens.” 42 U.S.C. § 1981.
This right extends, for example, to “the making, performance, modification, and termination of contracts, and
the enjoyment of all benefits, privileges, terms, and
conditions of the contractual relationship.” Id. The elements required to establish a prima facie case are the
same under Title VII and Section 1981. James v. BoozAllen & Hamilton, Inc., 368 F.3d 371, 375 n.1 (4th Cir.
2004).
To establish a prima facie case of discriminatory
denial of an employment benefit, a plaintiff must show
that: 1) plaintiff is a member of a protected class; 2)
defendant provided a certain benefit to its employees;
3) plaintiff was eligible for the benefit; and 4) plaintiff
was not provided the benefit under circumstances giving rise to an inference of discrimination. Thompson v.
Potomac Elec. Power Co., 312 F.3d 645, 649-50 (4th Cir.
2002); see also Swierkiewicz v. Sorema N.A., 534 U.S.
506, 510-11 (2002) (holding plaintiff is not required to
plead facts that constitute a prima facie case to survive
a motion to dismiss).
It is undisputed that plaintiff is a member of a protected class and that defendant provided an STL plan
as a benefit to its shareholders, including plaintiff.

App. 56
Plaintiff alleges that she was qualified to participate
in defendant MB’s STL plan through not only her own
health condition, but also qualified to participate
through two additional independent qualifying events
that were experienced by her immediate family members. (See Prop. Am. Compl. (DE 26-1) ¶ 92). Although
defendant disputes plaintiff has sufficiently alleged eligibility, the court assumes without deciding that
plaintiff was eligible for participation in the STL plan,
and turns attention to whether plaintiff has sufficiently pleaded that she was denied eligibility under
circumstances that give rise to an inference of discrimination.
Plaintiff alleges that prior to plaintiff ’s election to
participate in the STL plan, defendant MB’s management committee would ministerially confirm an STL
request and simply inform the board of directors. Prior
to plaintiff ’s experience, plaintiff alleges defendant
MB’s board of directors had never previously voted on
this issue of STL election as it pertained to its white
employees, nor required white shareholders or employees to disclose their specific medical conditions to prove
qualification; never required other shareholders or employees to present their request for STL plan participation to the board of directors for approval; and never
required the shareholder or employee to present physician statements confirming health conditions.
The above allegations indicate that plaintiff was
treated differently from others who sought to participate in the STL plan. However, the key inquiry under

App. 57
§ 1981 is whether plaintiff was treated differently as a
result of race discrimination.
The Fourth Circuit has applied Iqbal/Twombly to
dismiss a complaint pleading facts that while consistent with discrimination, require speculation to fill
in the gaps and therefore fail to nudge the plaintiff ’s
claims across the line from conceivable to plausible:
The allegations that [the employer] did not
hire [plaintiff ] because its decision makers
were biased is simply too conclusory. Only
speculation can fill the gaps in [plaintiff ’s]
complaint – speculation as to why two “nonBlack candidates” were selected to fill the positions instead of [plaintiff ]. While the allegation that non-Black decisionmakers hired
non-Black applicants instead of plaintiff is
consistent with discrimination, it does not
alone support a reasonable inference that the
decisionmakers were motivated by bias. . . . In
short, [plaintiff ’s] complaint stopped short of
the line between possibility and plausibility of
entitlement to relief.
McCleary-Evans v. Maryland Dep’t of Transp., State
Highway Admin., 780 F.3d 582, 586 (4th Cir. 2015) (emphasis in original) (citations omitted) (dismissing
plaintiff ’s Title VII discrimination claims at 12(b)(6)
stage); see also Coleman v. Maryland Court of Appeals,
626 F.3d 187, 191 (4th Cir. 2010) (“the complaint fails
to establish a plausible basis for believing Broccolina
and Coleman were actually similarly situated or that
race was the true basis for Coleman’s termination”);
Francis v. Giacomelli, 588 F.3d 186, 195 (4th Cir. 2009)

App. 58
(affirming dismissal of § 1981 claim because allegations that (1) plaintiff was in a protected class; (2) the
defendants were white; and (3) the defendants never
terminated white employees in the same manner that
the plaintiff was terminated were insufficient “unadorned allegations of wrongdoing”).
Although the Supreme Court has stated “[d]epartures from the normal procedural sequence also might
afford evidence that improper purposes [of racially discriminatory intent] are playing a role,” Vill. of Arlington Heights v. Metro. Hous. Dev. Corp., 429 U.S. 252,
267 (1977), here, it is not possible for the court to determine based on plaintiff ’s allegations whether the
white employees who were allowed to participate in
the STL plan were similarly situated to plaintiff and
thus draw a reasonable inference that a departure
from the normal procedural sequence occurred, see
Lightner v. City of Wilmington, N.C., 545 F.3d 260, 265
(4th Cir. 2008) (“The similarity between comparators
and the seriousness of their respective offenses must
be clearly established in order to be meaningful.”).
Plaintiff alleges only that she qualified for the
STL plan for an undisclosed reason and was denied
whereas others who were white were not denied “for
such events as cataract surgery, undisclosed illness,
and even for one Caucasian employee who did not
otherwise qualify.” (Prop. Am. Compl. (DE 26-1) ¶ 105).
This is an insufficient allegation to give rise to a reasonable inference that plaintiff was not allowed to participate in the STL plan for racially-motivated reasons.

App. 59
Plaintiff highlights general circumstantial and
contextual evidence as indicative of discriminatory intent, arguing that she was treated differently from
others not of her protected class based on retaliation
for her cooperation in an investigation about discrimination, and that the firm culture encouraged discrimination and retaliation. However, the discrimination
alleged by plaintiff involves gender discrimination
and retaliation for reporting gender discrimination,
whereas plaintiff ’s claim under § 1981 by necessity applies only to race discrimination. Plaintiff may well
have been subjected to gender discrimination and retaliation, but § 1981 addresses only race-based discrimination.
Plaintiff additionally offers the specific allegation
that board member Richardson, four months before the
board vote was taken to deny plaintiff the STL benefit,
told another shareholder that plaintiff “played the
black card too much,” (DE 21 at 26; Prop. Am. Compl.
(DE 26-1) ¶¶ 76-77), arguing also that discriminatory
intent can be inferred in that the board asked plaintiff
and another complainant to leave a board meeting
“so that the board may discuss the matter in their absence.” (DE 21 at 27; Prop. Am. Compl. (DE 26-1) ¶ 99).
However, plaintiff offers no allegation connecting
Richardson’s race-based comment in June 2016 to another unknown shareholder to the 17-3 vote of the
board of directors four months later denying plaintiff ’s
request to participate in the STL plan or that the
board’s request that plaintiff leave the board meeting
was connected in any way to plaintiff ’s race. Therefore,

App. 60
plaintiff fails to provide allegations sufficient to allow
to the court to determine that plaintiff ’s claims cross
the line from conceivable to plausible that defendants’
actions are not just consistent with discrimination but
support a reasonable inference that the decisionmakers were motivated by bias. See McCleary-Evans, 780
F.3d at 586.
Turning to plaintiff ’s specific allegations against
defendant Borchers, plaintiff alleges only as follows: 1)
“On information and belief, Borchers was instrumental
in influencing other board members to treat Lemon differently because of race, as alleged herein”; 2) “On information and belief, [defendant MB] and Borchers
denied Lemon the ability to elect or otherwise participate in the STL plan because she was an African American even though she was otherwise qualified”; 3) “In
violation of 42 U.S.C. §1981, [defendant MB] and
Borchers denied Lemon the right to make and enforce
her contract with [defendant MB] and to have the full
and equal benefit of all laws when [defendant MB] and
Borchers intentionally discriminated against Lemon
because of her race by rejecting her request to participate in [defendant MB’s] STL plan even though she
was fully qualified for the same”; and 4) defendant
Borchers acted with “malice or reckless indifference” to
plaintiff ’s federally protected rights. (Prop. Am. Compl.
(DE 26-1) ¶¶ 148-50, 152)).12 These allegations do not
12

Plaintiff additionally alleges defendant Borchers “discussed ‘punishment’ for ‘bad behavior’ and specifically mentioned
Lemon’s name along with that of another female complainant for
having ‘hired a lawyer’ back in June 2016 to discuss the sincere

App. 61
offer more than “bare assertions devoid of further factual enhancement,” Nemet, 591 F.3d at 255, and as
such are insufficient.
Accordingly, plaintiff ’s § 1981 claim is dismissed.
3. Breach of Fiduciary Duty
Under North Carolina law, the elements of breach
of fiduciary duty are as follows: 1) the existence of a
fiduciary duty; 2) breach of that fiduciary duty; and
3) damages resulting from that breach. Green v. Freeman, 367 N.C. 136, 141 (2013). As stated by the North
Carolina Supreme Court:
For a breach of fiduciary duty to exist, there
must first be a fiduciary relationship between
the parties. Such a relationship has been
broadly defined by this Court as one in which
there has been a special confidence reposed in
one who in equity and good conscience is
bound to act in good faith and with due regard
to the interests of the one reposing confidence
. . . [and] it extends to any possible case in
which a fiduciary relationship exists in fact,
and in which there is confidence reposed on

concerns each had about MB’s gender discrimination and its hostile work environment towards female attorneys and employees”
and that during the October 19, 2016, board meeting “Borchers
also suggested and discussed a range of punishment for Lemon.”
(Prop. Am. Compl. (DE 26-1) ¶¶ 107-108)). However, as stated
above, these allegations do not provide a basis to conclude a reasonable inference that defendant Borchers was motivated by racial bias.

App. 62
one side, and resulting domination and influence on the other.
Dalton v. Camp, 353 N.C. 647, 651 (2001) (citations
omitted).
In North Carolina, directors and officers have certain fiduciary duties, including duties to act in good
faith, with the care of an ordinarily prudent person in
similar circumstances, and in the best interests of the
corporation. N.C. Gen. Stat. §§ 55-8-30, 55-8-42. While
shareholders generally do not owe duties to one another, the North Carolina Supreme Court has “held . . .
that the majority stockholder of a corporation owes fiduciary duties to the minority stockholders.” Corwin as
Tr. for Beatrice Corwin Living Irrevocable Tr. v. British
Am. Tobacco PLC, 821 S.E.2d 729, 730 (N.C. 2018) (citing Gaines v. Long Manufacturing Company, 234 N.C.
340, 344 (1951)). The fiduciary duty owed by controlling shareholders includes “the duty to exercise good
faith, care, and diligence to make the property of the
corporation produce the largest possible amount” and
“to protect the interests of the holders of the minority
of the stock. . . .” Gaines, 234 N.C. at 344. Although
North Carolina requires certain claims against a director or officer to be brought derivatively on behalf of the
corporation, there are two exceptions to this general
rule which allow a plaintiff to bring a claim for breach
of fiduciary duty directly: (1) where “the wrongdoer
owed him a special duty” or (2) where “the injury suffered by the shareholder is separate and distinct from
the injury sustained by the other shareholders or the

App. 63
corporation itself.” Barger v. McCoy Hillard & Parks,
346 N.C. 650, 659 (1997).
Plaintiff argues she has sufficiently alleged the existence of a fiduciary duty in that “the proposed
amended complaint alleges that Borchers served as an
officer, director, and controlling shareholder of MB,
each of which gives rise to a fiduciary relationship to
Lemon and MB pursuant to North Carolina law.” (DE
27 at 13).
a. Controlling Shareholders of Defendant
MB
Plaintiff ’s primary argument that such a duty exists is that defendant Borchers and the other “controlling group of shareholders”13 effectively controlled
defendant MB, thus creating a fiduciary relationship
between these controlling shareholders and plaintiff, a
minority shareholder. Specifically, plaintiff alleges control as follows:
Borchers, along with the Controlling Group,
exercised actual control over MB in at least
the following ways:
a.

13

They controlled the Management Committee through Borchers, who led discussion amongst the Management
Committee and influenced its decisions;

Plaintiff alleges this group included “others,” but does not
identify who those others may be of the 25 shareholders of defendant MB in 2016.

App. 64
b.

They controlled the Board of Directors
through the Management Committee by
setting special Board of Directors meetings, preparing and circulating agendas,
and making recommendations which the
Board of Directors would approve as a
matter of course;

c.

They unilaterally removed one of the female complainants from the Management Committee to stifle a dissenting
voice;

d.

They controlled the firm’s revenues and
the abilities of other shareholders to
earn more than their base compensation
through their control of major client relationships, and controlled the firm’s billing
through Borchers’s authority and oversight;

e.

They expressly excluded individuals
outside of the Controlling Group from
exercising control, including by giving
Borchers consolidated authority of MB’s
President and Managing Shareholder
and otherwise disregarding the authority
of other officers; and

f.

They manipulated the flow of information
from the Management Committee to the
Board of Directors and Shareholders by
including factually incorrect statements,
delaying the release of minutes to prejudice directors and shareholders against

App. 65
Lemon, and outright failing to release
certain other minutes.
(Prop. Am. Compl. (DE 26-1) ¶ 167; DE 27 at 13-14).
However, the proposed amended complaint also
states that “each shareholder [held] an equal number
of shares of MB and [served] as a director and officer
of MB,” “[e]ach MB shareholder also served as a director of MB, as required by the Bylaws,” and “[e]ach MB
shareholder served as an officer of MB in some capacity.” (Prop. Am. Compl. (DE 26-1) ¶¶ 31–32, 37). For
2016, the year that is the focus of plaintiff ’s allegations, “there were twenty-five (25) shareholders of MB,
each owning 5,000 share of MB stock with equal shareholder rights and voting power.” (Id. ¶ 44). In other
words, every shareholder, including plaintiff, owned
the same percentage of shares that defendant Borchers did, four percent; the entire alleged controlling
group of six shareholders owned 24 percent of the
shares of defendant MB in 2016; every shareholder, including plaintiff, was an officer; and every shareholder,
including plaintiff, was an equal voting member of the
board of directors.
The court finds instructive the North Carolina Supreme Court’s recent decision in Corwin, wherein the
court confirmed majority stockholders owe fiduciary
duties to minority stockholders, expressly declined to
determine whether minority stockholders can owe fiduciary duties to other stockholders, and held even if
such a duty existed “the complaint in this case would
still fail to state a claim upon which relief can be

App. 66
granted because the Complaint does not adequately
allege that BAT exercised actual control over the
Reynolds board here.” 821 S.E.2d at 730. Turning to
Delaware law and assessing whether actual control
had been exercised, the court stated as follows:
This inquiry focuses on actual control over the
board of directors. Actual control exists only
when the allegedly controlling stockholder
“exercises such formidable voting and managerial power that [it], as a practical matter,
[is] no differently situated than if [it] had
majority voting control.” As a necessary prerequisite for a minority stockholder to exercise actual control, then, the stockholder’s
“power must be so potent that independent
directors . . . cannot freely exercise their
judgment, fearing retribution.” . . . . the [c]omplaint must contain well-pled facts showing
that the minority stockholder ‘exercised actual domination and control over . . . [the] directors.’ ” Even at the motion to dismiss stage,
Delaware courts have noted that “[t]his actual
control test is ‘not an easy one to satisfy’ as
‘stockholders with very potent clout have been
deemed, in thoughtful decisions, to fall short
of the mark.’ ”
That the actual control standard emphasizes
the exercise of actual control over the board—
an affirmative act by the minority stockholder—and not just the mere possession of
power means that an allegation that a minority stockholder has some leverage over the
board of directors is not enough. A party may,

App. 67
after all, use its leverage to negotiate favorable terms in a transaction with another party
even when it has no control (and thus has
exercised no control) over that other party.
Applying this standard in the context of a
Rule 12(b)(6) motion, plaintiff ’s Complaint
necessarily fails if it “reveals the absence of
facts” that BAT engaged in some affirmative
act to direct or compel the Reynolds board to
enter into the Lorillard transaction on the
terms that plaintiff takes issue with here. In
other words, the complaint must allege,
through well-pleaded facts, actual control,
which refers to control that prevents a company’s directors from “freely exercis[ing] their
judgment in determining whether or not to
approve and recommend” a transaction.
Id. at 730 (citations omitted).
Plaintiff ’s allegations fall short of sufficiently alleging defendant Borchers and the five other shareholders’s “power [was] so potent that independent
directors . . . cannot freely exercise their judgment,
fearing retribution,” id., where plaintiff alleges this
group owned 24 percent of defendant MB and held
equal voting rights with all other shareholders. In
Corwin, by contrast, the alleged controlling stockholder, British American Tobacco PLC, owned 42 percent of the company and had certain additional rights
and powers under a governance agreement and the
court still found allegations of control inadequate.
Plaintiff argues she has alleged sufficient facts
under the standard set by Corwin, in that plaintiff

App. 68
alleged the group had “control of MB’s revenues and
major client relationships and exercised actual control
of the firm in practice through threats and intimidation.” (DE 35 at 7 (citing Prop. Am. Compl. (DE 26-1)
¶¶ 50-52, 107-108)). However, the allegations in the
paragraphs cited by plaintiff do not support plaintiff ’s
argument and contain only unexplained and unsubstantiated allegations of control, that this group of
“responsible for a significant portion of MB’s revenues
and major relationships, and was followed by the
majority of MB’s shareholders as a matter of course,”
and that defendant Borchers at board meetings “discussed,” “mentioned” and “suggested” various actions
to be taken by the board against plaintiff. (Prop. Am.
Compl. (DE 26-1) ¶¶ 50-52, 107-108)). Such allegations
are insufficient where plaintiff offers no indication
that defendant Borchers and the alleged controlling
group of shareholders made the board take any action
it would not have otherwise taken nor that this group
in any way threatened or intimidated the board. See
Corwin, S.E.2d at 730 (“Although BAT could stop this
transaction from happening, BAT could not make it
happen. . . . Plaintiff does not allege that BAT ever
threatened the Reynolds board in any way.”).
b. Barger Exceptions
Separately, plaintiff argues that under the North
Carolina Supreme Court’s decision in Barger, plaintiff
has sufficiently alleged circumstances that allow her
as a shareholder to bring claims against officers directly, rather than derivatively, where there is a special

App. 69
relationship or individual loss. (DE 35 at 5); see Green,
367 N.C. at 143 (“Thus, we next consider whether
plaintiffs can recover under the special duty or unique
personal injury exception”).
First, plaintiff argues “Borchers (and Others)
owed Lemon special duties by nature of Borchers’s
status as controlling shareholder, officer, and director
of MB, as well as her status as Lemon’s law partner.”
(DE 27 at 14).14 As already discussed above, plaintiff
has failed to allege Borchers’s status as controlling
shareholder. See Corwin, 821 S.E.2d at 730 (“In this
case, whether plaintiff had standing to bring a direct
claim under the first exception depends on whether
BAT was a controlling stockholder that owed plaintiff
fiduciary duties.”). Regarding defendant Borchers’s
status as officer, director, or law partner, plaintiff argues only the proposed amended complaint “invokes
the ‘special protection’ afforded to “minority shareholders in a close corporation.’ ” (DE 35 at 6 (citing
Rivers v. Wachovia Corp., 665 F.3d 610 (4th Cir. 2011)).
In Rivers, the Fourth Circuit discussed Norman v.
Nash Johnson & Sons’ Farms, Inc., 140 N.C.App. 390
(2000) as extending “special protection to minority
14

Plaintiff ’s argument that defendant Borchers and plaintiff
have a special relationship due to defendant Borchers’s status
as “law partner” is inconsistent with plaintiff ’s allegation that
“[a]lthough MB is a professional association, in practice it functioned more as a partnership, demonstrated by, among other circumstances alleged herein, the fact that each shareholder [held]
an equal number of shares of MB and [served] as a director and
officer of MB.” (Prop. Am. Compl. (DE 26-1) ¶ 31).

App. 70
shareholders in a closely held corporation,” under
North Carolina law. 665 F.3d at 617–18. However, in
neither Rivers, nor Norman, nor in the cases cited by
Rivers or Norman, is the special protection afforded to
minority shareholders extended in such a way to include what plaintiff currently alleges, that there exists
a special relationship between plaintiff and defendant
Borchers due solely to Borchers’s status as an officer,
director, or law partner. See, e.g., Rivers, 665 F.3d at
618 (“Absent any allegation that Rivers was party to a
separate contract with the defendants which created
distinct duties personal to him, or that he was individually subject to misleading inducements outside the
officer-shareholder relationship, Rivers ‘fails to set
forth any allegations which, even taken as true, support a special duty between [him] and defendants.’ ”)
(citing Energy Investors Fund, L.P. v. Metric Constructors, Inc., 351 N.C. 331, 525 S.E.2d 441, 444 (2000));
Norman, 140 N.C. App. at 407 (“Here, plaintiffs allege
that defendants are acting in concert, that defendants
own the majority of the stock in the Company, are the
officers of the Company, and control the Company’s
Board of Directors. These allegations are sufficient to
give rise to a fiduciary relationship between plaintiffs
and the defendants and establish that defendants
owed plaintiffs a ‘special duty’ within the meaning of
the Barger decision.”).
Plaintiff has not cited, nor is the court aware, of
any case law invoking the first Barger exception the
way in which plaintiff here proposes or based on such
limited allegations. As stated in Barger:

App. 71
The existence of a special duty thus would be
established by facts showing that defendants
owed a duty to plaintiffs that was personal to
plaintiffs as shareholders and was separate
and distinct from the duty defendants owed
the corporation. A special duty therefore has
been found when the wrongful actions of a
party induced an individual to become a
shareholder . . . ; when a party violated its fiduciary duty to the shareholder . . . ; when
the party performed individualized services
directly for the shareholder . . . ; and when a
party undertook to advise shareholders independently of the corporation. . . . This list is
illustrative; it is not an exclusive list of all factual situations in which a special duty may be
found.
346 N.C. at 659 (citations omitted). Accordingly, plaintiff has failed to sufficiently allege a special relationship based solely on defendant Borchers status as
officer, director, or law partner.
Second, plaintiff argues she has alleged “separate
and distinct harm” sufficient to bring a direct claim
under the second Barger exception. Plaintiff alleges
that she worked through health issues after being denied qualification for the STL plan; resigned due to
“stress, humiliation, and hostile work environment”;
“opportunities for compensation have been significantly diminished,” although plaintiff has found employment; and, more comprehensively:
As a result of the breaches of fiduciary duties
to MB by Borchers, Lemon suffered separate

App. 72
and distinct injuries, including denial of her
STL/STD claim, amendment of the Attorney
Compensation Plan solely to penalize Lemon,
and promotion of a hostile work environment
to cause Lemon to terminate her employment,
all in retaliation for Lemon voicing sincere
concerns about discrimination at MB.
(Prop. Am. Compl. (DE 26-1) ¶¶ 131-33, 178).
Although it is clear the damages claimed by plaintiff are unique to her, such damages are not the sort of
damages that would bring plaintiff ’s claim for breach
of fiduciary duty under the Barger exception under the
facts alleged here. As stated in Barger, a shareholder
may bring a direct claim where “the injury suffered by
the shareholder is separate and distinct from the injury sustained by the other shareholders or the corporation itself.” 346 N.C. at 650 (emphasis added). Here,
plaintiff alleges no injury to other shareholders or the
corporation itself. Additionally, plaintiff provides no
reasoning or case law, nor is the court aware of any,
where a court has applied the second Barger exception
to allow a plaintiff shareholder to pursue a cause of action in circumstances even somewhat similar to those
alleged here. See, e.g., Energy Inv’rs Fund, L.P., 351
N.C. at 336 (“In applying this rule of shareholder law
to that of limited partnerships, we find that the complaint shows EIF’s injury is the loss of its investment,
which is identical to the injury suffered by the other
limited partners and by the partnership as a whole. . . .
The complaint does not allege a basis demonstrating
that the investment, and thus the injury, is peculiar or

App. 73
personal to the limited partner, EIF.”); Rivers, 665 F.3d
at 618 (“A common example of a distinct injury is a
‘claim of stock dilution and a corresponding reduction
in a shareholder’s voting power.’ Fletcher Cyclopedia
§ 5913.”).
In sum, plaintiff has failed to allege the existence
of a fiduciary duty and therefore fails to state a claim
for relief for breach of fiduciary duty.15
4. Breach of Implied Covenant of Good Faith
and Fair Dealing
“In every contract there is an implied covenant of
good faith and fair dealing that neither party will do
anything which injures the right of the other to receive
the benefits of the agreement.” Bicycle Transit Auth.,
Inc. v. Bell, 314 N.C. 219, 228 (1985) (emphasis added).
“[T]he implied duty of good faith and fair dealing only
arises where a party to a contract performs its contractual obligations in bad faith, and such breach of the
implied duty serves as a cognizable basis for a breach
15

Additionally, even if plaintiff could show that defendant
Borchers owed plaintiff a fiduciary duty, plaintiff has failed to allege that defendant Borchers has breached that duty where plaintiff alleges that the board of directors, not defendant Borchers,
made the decision to deny her request for short-term leave and
made the decision to amend the compensation plan. (Prop. Am.
Compl. (DE 26-1) ¶¶ 104, 114). Plaintiff argues that “[t]o the extent any misconduct was alleged to have been taken solely by the
Board, such misconduct is directly tied to Borchers’s control.” (DE
35 at 9). However, as already held by the court, plaintiff has failed
to allege Borchers or the other allegedly controlling shareholders
in fact controlled the board.

App. 74
of contract.” Suntrust Mortgage, Inc. v. Busby, 651
F. Supp. 2d 472, 487 (W.D.N.C. 2009).
Here, plaintiff has not alleged that defendants
breached the two contracts potentially at issue, the employment agreement or the shareholders’ agreement.
Plaintiff argues, however, that her “standalone claim
for breach of the implied covenant of good faith and fair
dealing . . . is grounded in the fiduciary duty owed by
Borchers as a controlling shareholder. . . .” (DE 35 at
9). However, the court has rejected this argument
above and rejects it here as well.
Additionally, plaintiff has failed to allege that she
has been denied the benefits of the bargain of the two
contracts at issue. Although plaintiff argues that she
was deprived of the benefits of the bargain of these
contracts in that she has been treated unlike other
shareholders and has been treated unfairly, (see DE
35 at 10), and in that defendants “den[ied] her STL,
chang[ed] the Attorney Compensation Plan . . . foster[ed] a hostile work environment, and otherwise
discriminat[ed] and retaliat[ed] against her, (Prop.
Am. Compl. (DE 26-1) ¶¶ 184-186), plaintiff does not
explain how these alleged breaches deprived her of any
benefit she was entitled to under the contracts at issue.
Plaintiff has not alleged the STL policy is a contract or
connected to the contracts at issue. Similarly, plaintiff
alleges the compensation plan was an “addendum” to
the employment agreement, (id. ¶ 27), but does not
contend that defendant MB breached that plan or deprived her of any benefit she was entitled to under the

App. 75
plan.16 Plaintiff also does not allege any connection between the employment agreement or shareholders’
agreement and plaintiff ’s allegations concerning discrimination and hostile work environment.
In sum, plaintiff fails to state a claim for relief for
breach of implied covenant of good faith and fair dealing.
CONCLUSION
Based on the foregoing, defendants’ motion to
dismiss (DE 17) is GRANTED. Plaintiff ’s motion to
amend complaint (DE 26) is DENIED. Plaintiff ’s
claims against defendants are DISMISSED WITHOUT PREJUDICE. The clerk is DIRECTED to close
the case.
SO ORDERED, this the 11th day of March, 2019.
/s/ Louise W. Flanagan
LOUISE W. FLANAGAN
United States District Judge

16
Plaintiff alleges that defendant MB changed the compensation plan to punish her but does not contest the board of directors’ authority to make changes to the plan.

App. 76
FILED:

February 17, 2021

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
-----------------------------------------------------------------------

No. 19-1380
(5:18-cv-00200-FL)
-----------------------------------------------------------------------

SHAWNA CANNON LEMON
Plaintiff - Appellant
v.
MYERS BIGEL, P.A., f/k/a Myers Bigel & Sibley and
Myers Bigel Sibley & Sajovec, P.A.; LYNNE A.
BORCHERS; UNNAMED OTHERS
Defendants - Appellees
-----------------------------------------------------------------------

ORDER
-----------------------------------------------------------------------

The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge Niemeyer, and Judge Diaz.
For the Court
/s/ Patricia S. Connor, Clerk

App. 77
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
No. 5:18-cv-200
SHAWNA CANNON LEMON, )
)
Plaintiff,
PLAINTIFF’S
)
v.
) MEMORANDUM
OF LAW IN
MYERS BIGEL, P.A., formerly )
) OPPOSITION TO
known as “Myers Bigel &
DEFENDANTS’
)
Sibley” and “Myers Bigel
MOTION TO
)
Sibley & Sajovec, P.A.,
DISMISS
)
LYNNE A. BORCHERS,
) (Filed Sep. 10, 2018)
and UNNAMED OTHERS,
)
Defendants )
Pursuant to Local Civil Rules 7.1(e) and 7.2, plaintiff Shawna Cannon Lemon (“Lemon”), by and through
undersigned counsel, hereby respectfully submits this
memorandum of law in opposition to defendants’ motion to dismiss in this action.
NATURE OF THE CASE:
On April 4, 2016, Lemon filed this civil action
against defendants Myers Bigel, P.A. (individually
“MB” and collectively “Defendants”) and Lynne A.
Borchers (individually “Borchers” and collectively “Defendants”) in the Wake County Superior Court. In her
complaint, Lemon asserted discrimination and retaliation claims against Defendants for violations of 42

App. 78
U.S.C. § 2000e-1, et seq. and 42 U.S.C. § 1981. Defendants were served with process on April 9, 2016
(Borchers) and April 12, 2016 (MB). On May 9, 2016,
Defendants filed a notice of removal of this action to
the United States District Court for the Eastern District of North Carolina. After filing several consent
motions to extend time, which were granted by the
Court, Defendants filed the pending motion to dismiss
Lemon’s claims, pursuant to Fed. R. Civ. P. 12(b)(6). For
reasons stated herein, Lemon opposes Defendants’ motion to dismiss.
ISSUES PRESENTED:
I.

Title VII of the Civil Rights Act of 1964 prohibits employers from discriminating against
individuals because of their gender and retaliating against individuals because of their
cooperation in investigations for discrimination. Title VII permits shareholders to sue a
qualified corporate “employer” so long as the
shareholder is a “person aggrieved” under the
statute. Did Lemon state claims against the
corporate “employer” under Title VII even
though she was a shareholder?

II. Section 1981 provides individuals with the
right to the performance and enjoyment of all
benefits from contractual relationships without regard for race. Under the Swierkiewicz
and Iqbal standards, did Lemon state a plausible Section 1981 claim for race discrimination when Defendants denied her the benefit
of short-term leave for which she was

App. 79
qualified under the standards Defendants
applied when approving short-term leave for
persons of a race other than Lemon’s race.
STATEMENT OF THE FACTS:1
Shawna Lemon is an attorney licensed by the
North Carolina State Bar. (¶ 13) She is a black female
of African-American descent. (¶ 1) In addition to a law
degree, Lemon has also earned a Ph.D. in biomedical
sciences/pharmacology. (¶ 13) In September 2001, MB
hired Lemon to serve as one of its patent lawyers.
(¶ 14) Lemon worked as a patent attorney for MB until
December 31, 2016. (¶14) Lemon generally excelled
in the performance of her job duties at MB. (¶15) At
no time throughout her tenure did she ever receive
any disciplinary actions. (¶16) As a general practice,
Lemon treated all supervisors, colleagues, and subordinates in a professional manner with fairness, respect, and good will. (¶ 16)
During the Spring 2016, several female attorneys/
employees at MB asserted complaints about gender
discrimination, including a hostile work environment
because of gender. (¶ 17) MB hired attorney Kevin S.
Joyner (“Joyner”) of the Ogletree Deakins law firm to
investigate and advise it concerning these claims of
gender discrimination. (¶ 17) As part of the investigation, Joyner met with Lemon on June 2, 2016 to
1

All paragraph citations contained in this section reference
the corresponding paragraphs in Lemon’s complaint in this action.

App. 80
determine her personal knowledge about the gender
discrimination in MB’s workplace. (¶ 18) Joyner made
clear to Lemon that he did not represent her regarding
her sincere concerns about gender discrimination in
MB’s workplace. (¶20)
During the course of the interview, Lemon candidly reported her personal knowledge about gender
discrimination in MB’s culture and workplace environment. (¶19) Using the substantive information gathered from the investigation, including that provided by
Lemon, Joyner prepared a “confidential memorandum”
that confirmed or corroborated the existence of gender
discrimination in MB’s work environment. (¶ 22)
Around June 14, 2016, Joyner provided MB’s board of
directors with a copy of the “confidential memorandum” that included the information provided to him by
Lemon and other female attorneys, which confirmed or
corroborated the existence of gender discrimination in
MB’s workplace. (¶22)
On June 15, 2016, MB’s board of directors met to
review and discuss Joyner’s “confidential memorandum” among MB’s board members. (¶24) During this
meeting, MB’s board members openly excoriated
Lemon after reviewing the confidential memorandum.
(¶25) One board member openly referred to Lemon’s
hostile workplace concerns as being “idiotic” while another board member added that he would have said
“much worse” in response to the other board member’s
ad hominem attack. (¶ 25) Other board members literally screamed at Lemon to “grow up” and “stop complaining” while others chastised Lemon for having

App. 81
hired a lawyer to advise her during the course of
Joyner’s interview. (¶ 25) These derisive comments to
and about Lemon were made openly during the board
meeting without any reproach or reprimand by MB.
(¶ 25)
Following the board meeting, one MB shareholder
told another that Lemon “played the black card too
much.” (¶ 27) This board member’s reference was
based on her own unfair and inaccurate racial stereotype about African-Americans being persons who
knowingly voice false concerns about racism in the
workplace in an effort to gain some material advantage. (¶ 28) Even though Lemon had not previously
complained to MB about “race” or being “black,” the
shareholder used it as an effort to discredit and isolate
Lemon from collegiality and support in the workplace
in retaliation for having reported gender discrimination to Joyner. (¶¶ 27, 29)
Shortly thereafter on July 8, 2016, a MB shareholder and management committee member prepared
and circulated an email to MB’s shareholder/employees
that referenced Lemon as a “bad asshole” for having
expressed undisputed “sincere concerns” about gender
discrimination to Joyner. (¶ 30) The email stated that
MB needed more “good assholes” instead. (Id.) On July
13, 2016, MB’s board of directors unilaterally expelled
a female member of MB’s management committee in
retaliation for having complained about MB’s hostile
work environment towards women, as was reported in
Joyner’s “confidential memorandum.” (¶31) Also during this board meeting, a non-shareholder attorney

App. 82
openly reprimanded Lemon for her having expressed
sincere concerns about gender discrimination at MB.
(¶32) At the board meeting, he openly directed Lemon
to “leave [the firm] and do better.” (Id.)
Around September 14, 2016, Lemon elected to participate in MB’s short-term leave/short-term disability
(“STL”) plan as a qualified applicant under the firm’s
policies and procedures. (¶ 33) In addition to qualifying
to participate through her own health condition at the
time, Lemon additionally qualified to participate due
to two additional independent qualifying events that
were experienced by Lemon’s immediate family members. (¶34) Prior to Lemon’s election, MB’s management committee would ministerially confirm an
attorney/employee’s STL request and simply inform
MB’s board of directors about the attorney/employee’s
election to participate in the STL plan. However, instead of approving her election at the typical ministerial management committee level, MB subjected
Lemon to insensitive questioning about her health at
the management committee level and required her to
obtain and present additional medical documentation.
(¶36)
Lemon obtained the requested additional medical
documentation from her physician confirming the
need for accommodations through the STL plan. (¶ 37)
When Lemon offered to provide this information in
emails to MB’s director of administration, MB informed Lemon that she instead would need to address
MB’s board of directors about her request to participate in the STL plan, notwithstanding her having

App. 83
unquestionable, multiple qualifying events. (Id.) MB
placed the issue of Lemon’s STL request on its board
of director’s agenda for the October 19, 2016 meeting.
(¶38) By placing Lemon’s STL request on the board’s
agenda, MB facilitated an open discussion among MB’s
board members about Lemon’s private health condition, which was an underlying basis for the leave request. (¶39) Prior to the board meeting of October 19,
MB’s management committee circulated modified
notes of its previous meetings that falsely attributed
comments to Lemon showing unresolved conflict and
that the management committee should consider adverse action against Lemon for “undermining” the
firm. (¶¶ 49-53) The purpose was to discredit Lemon
and force a denial of her request for STL leave. (Id.)
During the board of director’s meeting of October
19, 2016, MB directed Lemon and one of the female
discrimination complainants (who incidentally was not
making an STL election) to leave the meeting so that
the board of directors could discuss the issue in their
absences. (¶¶ 40-41) The board of directors expelled
Lemon and the other female member (who had previously complained about the hostile work environment)
so that the members could more freely discuss discriminatory and retaliatory acts concerning Lemon and the
other female member who had previously complained.
(Id.)
After a brief discussion about Lemon’s STL election, MB’s board of directors voted to deny the STL
election by Lemon even though she was qualified to
participate under MB’s policies. (¶ 42) Prior to this

App. 84
meeting, MB’s board of directors had never previously
required its Caucasian attorneys/shareholders to disclose specific medical conditions to prove qualification,
never required any other attorneys/shareholders to
present physician statements confirming health conditions, and never required attorneys/shareholders to
present their request for STL plan participation to the
board of directors for approval. (¶¶ 43-44)
Immediately following the board of directors’ rejection of Lemon’s STL election, MB’s managing shareholder, Borchers, discussed “punishment” for “bad
behavior” and specifically mentioned Lemon’s name
along with that of another female attorney who had
complained about gender discrimination in MB’s workplace for having “hired a lawyer” back in June 2016 to
discuss the sincere concerns each had about MB’s hostile work environment towards female attorneys and
employees. (¶ 45) Borchers then proceeded to discuss
a range of punishment for Lemon with MB’s board of
directors, including the prospect of censure, monetary
penalties, and termination. (¶46) The board of directors under Borchers’ direction further discussed
changing MB’s compensation plan (and thus Lemon’s
compensation) for the retaliatory purpose of detrimentally affecting Lemon’s compensation. (¶47) In fact,
MB’s purpose in denying Lemon’s valid and qualified
request for STL leave was to retaliate against her by
causing financial and emotional costs that would serve
in significant part as “punishment” for having participated and assisted in standing against gender discrimination in her disclosures to Joyner. (¶ 48)

App. 85
Around November 2, 2016, Lemon became aware
that MB’s management committee had openly discussed racial and gender discrimination and its retaliatory actions against Lemon (and the EEO
complainants) during at least one of its meetings. (¶54)
Specifically, Lemon learned that MB’s management
committee had discussed terminating her as part of
the retaliation and discussed a motion to terminate
Lemon’s employment. (¶ 55) During a practice group
meeting on November 4, 2016, MB’s shareholders interrogated Lemon by asking about her “intentions” and
whether she was going to sue the firm. (¶56) MB’s
shareholders further openly chastised Lemon during
the meeting for having hired a lawyer to address her
sincere concerns about MB’s hostile work environment
towards women. (¶57) In a (perhaps no so) veiled
threat, one shareholder ominously asked Lemon at the
practice group meeting what would happen “if somebody pushed [her] off the cliff ?” (¶58)
On November 5, 2016, MB’s managing shareholder, Borchers, emailed Lemon to inform that Lemon
was being placed “on the agenda” for the board of directors meeting scheduled for a few days later because
of the referenced practice group meeting and “workplace concerns” without further specification. (¶59)
Lemon subsequently provided MB’s management committee with documentation from a health care provider
that indicated she needed to avoid stress during this
time for health reasons. (¶ 60) MB’s hostile work environment had caused Lemon to experience inter alia

App. 86
difficulty in breathing through the exacerbation of her
asthmatic condition. (Id.)
On December 23, 2016, Lemon tendered her resignation to MB because she could no longer work under
the extraordinary stress, humiliation and hostile work
environment that she had been experiencing in MB’s
workplace. (¶ 61)
ARGUMENT:
I.

Standard for review.

“To survive a motion to dismiss under Fed. R. Civ.
P 12(b)(6), a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 570 (2007)). “A claim has facial plausibility when
the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. (citing
Twombly, 550 U.S. at 570). “In other words, the complaint’s factual allegations must produce an inference
of liability strong enough to nudge the plaintiff ’s
claims ‘across the line from conceivable to plausible.’ ”
Nemet Chevrolet, Ltd. v. Consumeraffairs.com, Inc., 591
F.3d 250, 256 (4th Cir. 2009) (citing Iqbal, 556 U.S. at
683). A plaintiff is not required to plead facts that
constitute a prima facie case to survive a motion to
dismiss. Swierkiewicz v. Sorema N.A., 534 U.S. 506,
510-11 (2002); McCleary-Evans v Md. DOT, 780 F.3d
582, 584 (4th Cir. 2015). Fed. R. Civ. P. 8(a)(2) “requires

App. 87
only a short and plain statement of the claim showing
the pleader is entitled to relief . . . ” Twombly, 550 U.S.
at 555. Specific facts are not necessary; the statement
need only “give the defendant fair notice of what the
. . . claim is and the grounds upon which it rests.”
Erickson v. Pardus, 551 U.S. 89, 93 (2007).
To state a claim under Title VII, plaintiff is required only to allege facts to satisfy the elements of a
cause of action created by that statute—i.e. . . . the [defendant] “fail[ed] or refus[ed] to hire” her “because of
[her]race . . . [or] sex.” McCleary-Evans, 780 F.3d at
591. The court must determine whether it is plausible
that the factual allegations in the complaint are
enough to raise a right to relief above the speculative
level. Simmons v. United Mortg. & Loan Inv., LLC, 634
F.3d 754, 757 (4th Cir. 2011).
Employment discrimination claims carry no
heightened pleading standard. See Twombly, 550 U.S.
at 569-70.In considering a motion to dismiss made under Rule 12(b)(6), “[the] court accepts all well-pled
facts as true and construes these facts in the light most
favorable to the plaintiff in weighing the legal sufficiency of the complaint.” Erickson, 551 U.S. at 93-94;
Nemet Chevrolet, Ltd., 591 F.3d at 255. The court draws
all reasonable inferences in favor of the plaintiff. Id.
This standard, applied to the applicable law discussed
below, dooms Defendants’ motion.

App. 88
II.

Defendant’s motion to dismiss Lemon’s sex
discrimination and retaliation claims under Fed. R. Civ. P. 12(b)(6) should be denied
because Lemon alleged sufficient facts
plausibly showing she was an “individual”
and “person aggrieved” within the meaning of Title VII.

Defendants argue that Lemon’s Title VII claims
“must be dismissed” because Title VII only applies to
“employee/employer” relationships and that Lemon
had not adequately alleged that she was an “employee”
of defendant MB. (DB p. 1) Notably, Defendants do not
challenge the notion that when construing the facts to
be true, Lemon alleged sufficient facts showing it plausible that defendant MB discriminated against Lemon
because of her gender and retaliated against her for
engaging in activity protected under law. Accordingly,
acknowledging sufficient facts showing defendant MB
plausibly discriminated against Lemon because of her
gender and retaliated against her for engaging in protected activity, the sole question for the Court as to this
issue is whether Lemon was protected from sex discrimination and retaliation as an “individual” and
“person aggrieved” under Title VII even if she was a
concurrent employee and shareholder for defendant
MB.
A. Title VII should be liberally construed
in light of its remedial purpose.
The purpose of Title VII of the Civil Rights Act is
to eliminate discrimination in employment based on

App. 89
race, color, religion, sex, or national origin. Griggs v.
Duke Power Co., 401 U.S. 424, 429 (1969). “Congress
clearly included in the objectives of Title VII the elimination of job discrimination in professional fields including law and medicine.” See Lucido v. Cravath,
Swaine & Moore, 425 F. Supp. 123, 126 (S.D.N.Y. 1977).
The courts have accorded a liberal interpretation to Title VII to effectuate this Congressional purpose. Butler
v. Drive Auto. Indus. Of Am., 793 F.3d 404, 409-10 (4th
Cir. 2015) (“Title VII should be liberally construed in
light of its remedial purpose”); see also Rogers v. EEOC,
454 F.2d 234, 238 (5th Cir. 1971), cert. denied, 406 U.S.
957 (1972) (“Congress intended that Title VII proscribe
employment discrimination ‘in the broadest possible
terms’ and, accordingly, it ‘should be accorded a liberal
interpretation . . . to effectuate the purpose of Congress to eliminate the inconvenience, unfairness and
humiliation of [employment] discrimination”).
The Fourth Circuit has recently demonstrated the
judicial trend to interpret Title VII terms in an expansive measure to achieve its purposes. In Butler, the
Fourth Circuit determined whether “joint employers”
could be liable to employees as an “employer” under Title VII. Butler, 793 F.3d at 409-10. After recognizing
the remedial purpose behind Title VII, the Fourth
Circuit held that an expansive scope of interpretation
for the statutory definition of “employer” was in accordance with its Congressional purpose. Id.; see also
Magnuson v. Peak Tech. Servs., 808 F. Supp. 500, 508
(E.D.Va. 1992) (“the term ‘employer’ under Title VII
should be ‘construed in a functional sense to

App. 90
encompass persons who are not employers in conventional terms, but who nevertheless control some aspect
of an individual’s compensation, terms, conditions, or
privileges of employment"‘).
B. By its plain language, Title VII broadly
protects “individuals” within workplace from sex discrimination and retaliation by an “employer” (defined as
that with 15 or more employees) and
enables “persons aggrieved” with a private right to action.
Title VII declares it an unlawful employment practice for an employer (i.e. defined as entities with 15 or
more employees) to “ . . . discriminate against any individual with respect to [her] compensation, terms,
conditions, or privileges of employment, because of
such individual’s . . . sex . . . ” 42 U.S.C. § 2000e2(a)
(Emphasis added). The term “employer” is specifically
defined in relevant part as a “person engaged in an industry affecting commerce who has fifteen or more
employees . . . ” 42 U.S.C. § 2000e(b). In this case, Defendants do not dispute that defendant MB met the
definition of the term “employer” under Title VII by
having fifteen or more employees during the statutorily relevant times, as defined by statute. 42 U.S.C.
§ 2000e(b). The question Defendants raise is whether
Lemon, as a shareholder, had standing to sue defendant MB under Title VII even though MB is undoubtedly an “employer” within the scope of the statute.

App. 91
Congress specifically chose the expansive term
“individual,” rather than the more limited term of “employee” in the description of the proscribed actions by
employers, as contained in 42 U.S.C. § 2000e-2(a) and
§ 2000e-3(a); Kennedy v. St. Joseph’s Ministries, Inc.,
657 F.3d 189, 192 (4th Cir. 2011) (“as in all statutory
construction, unless otherwise defined, words will be
interpreted as taking their ordinary, contemporary,
common meaning”).
The Act defines “employee” as “an individual employed by an employer.” 42 U.S.C. § 2000e(f ). However,
in providing the right to file private civil actions in
district court, Congress specifically omitted using the
term “employee,” but instead chose the substantially
more expansive term “person aggrieved” as for standing to file suit under Title VII. 42 U.S.C. § 2000e5(f )(1); see also Sibley Mem’l Hosp. v. Wilson, 488 F.2d
1338, 1341 (D.C. Cir. 1973) (“The Act defines ‘employee’
as ‘an individual employed by an employer,’ but nowhere are there words of limitation that restrict references in the Act to ‘any individual’ to include only
former employees or applicants for employment, in addition to present employees”). Moreover, as for retaliation, Congress explicitly included “any individual” (in
addition to “employees”) for protection, thus, indicating
an intent for broad applicability well beyond that of a
mere “employee” in the workplace. See 42 U.S.C.
§ 2000e-3(a).
The central question is whether Lemon was a “person aggrieved” within the meaning of Title VII and,
therefore, has standing to bring the claims for gender

App. 92
discrimination and retaliation against defendant MB.
Consistent with the expansive purpose of Title VII in
eradicating discrimination, Congress defined the
term “person” to include individuals in addition to corporate entities and governmental agencies. 42 U.S.C.
§ 2000e(a). If Congress intended to exclude from its
definition of “person” to exclude individuals who are
shareholders, it would have specifically said so--- or at
least narrowed the purposeful wide-scope of the terms
“individuals” and “person aggrieved,” simply by substituting the statutory language with the term “employee.”
Put differently, by Title VII’s plain language, Congress specifically intended an expansive scope for individuals, such as Lemon, to have the protections from
illicit discrimination and retaliation by employers as it
pertains to their compensation, terms, conditions or
privileges of employment, and provided those individuals, so aggrieved, with standing to assert protections
under Title VII. 42 U.S.C. §§ 2000e-2 and 2000e-5; see
Kennedy v. St. Joseph’s Ministries, Inc., 657 F.3d 189,
191 (4th Cir. 2011) (“If the statute is unambiguous, ‘our
inquiry into Congress’ intent is at an end, for if the language is plain and the statutory scheme is coherent
and consistent, we need not inquire further”).
It follows that defendant MB--- which entity indisputably qualified as an “employer” under Title VII by
having fifteen or more employees--- had a legal duty
not to discriminate against individuals because of
their sex in the terms and conditions of employment,
or otherwise, risks facing a Title VII action from any

App. 93
person aggrieved. See 42 U.S.C. §§ 2000e(b).2 If Congress intended to limit standing under Title VII only
to “employees,” it would have simply used the term
“employees,” instead of using the terms “individuals”
and “persons aggrieved.” Alternatively, Congress could
have altered the definition of the term “employer,” but
instead chose to limit it only by the minimum number
of individuals necessary to qualify as an “employer.” As
such, by its plain language, Lemon has standing under
Title VII to assert her sex discrimination and retaliation claims against MB for its unlawful business practices within the workplace.
C. Even under the Clackamas standard,
which applies to determining the
threshold number of “employees” sufficient to satisfy the qualification for
“employer,” Lemon alleged sufficient
facts plausibly showing she has standing to assert claims for sex discrimination and retaliation under Title VII.
Defendants argue the applicability of the Supreme
Court’s holding in Clackamas as for who has standing
to file a civil action under Title VII. See Clackamas
2

Note that in their brief, Defendants only reference the unlawful employment practices pertaining to employees in subsection 2 of 42 U.S.C. § 2000e-2. Defendants completely omit the
applicable subsection 1, which directly references “or otherwise
discriminate against any individual. . . .” See DB p. 6; c.f. 42
U.S.C. § 2000e-2(a) and (b) (Emphasis added). Defendants’ selective citation of the law in its brief to this Court does not fairly
state its applicability as it pertains to this action.

App. 94
Gastroenterology Assoc. P.C. v. Wells, 538 U.S. 440
(2003). In Clackamas, the plaintiff filed suit against
the defendant, pursuant to the Americans with Disabilities Act of 1990 (“ADA”). See 42 U.S.C. §§ 12101, et
seq.3 The Clackamas plaintiff was a bookkeeper for defendant corporation and, undoubtedly, an “employee”
for ADA purposes with standing in which to assert a
disability discrimination claim. Clackamas, 538 U.S. at
442. Instead, the Court was called to determine
whether the defendant corporation was covered under
the ADA because (unlike the case at bar) it did not
have the statutory requisite of 15 or more employees.
Id. The Court had to determine who counted as “employees” for purposes of determining “15 or more employee” threshold to confer statutory jurisdiction. The
central issue in Clackamas was a completely different
issue that is presented in the case at bar where there
is no dispute that defendant MB had the requisite
number of employees to count as an “employer” under
Title VII.
However, assuming arguendo that the Clackamas
holding applies for standing to assert protection from
Title VII, Lemon has asserted sufficient facts plausibly
3

The ADA provides a specialized, unique definition for both
a “qualified individual,” “covered entity,” and “employer.” 42
U.S.C. § 12111(2), (5) and (8). Any “person” can bring a claim “in
violation of any provision” of the ADA. 42 U.S.C. § 12117(a). However, what constitutes a violation is limited in relevant part by 42
U.S.C. § 12112(a) (“No covered entity shall discriminate against a
qualified individual on the basis of disability in regard to . . .
terms, conditions, and privileges of employment”) (Emphasis
added).

App. 95
showing her to be an “employee” under Title VII under
this standard. In Clackamas, the issue was whether
four physician-shareholders who owned the professional corporation and constituted its board of directors should be counted as “employees” in the
determination as whether the professional corporation
had the requisite 15 employees for statute applicability. Id. In its decision, the Court held six factors to be
considered in determining whether an individual “acts
independently and participates in managing the organization” (hence an “employer” and not counted in
the 15 or more person threshold) or whether the “individual is subject to the organization’s control” (hence
an “employee” subject to the 15 or more person threshold). Id. at 449. The critical factor is whether an individual exhibits a level of “control” over an entity such
that she should be considered as an “employer” rather
than an “employee.”
The Court found the following six factors, drawn
from EEOC’s Compliance Manual, as relevant to the
inquiry whether a shareholder-director in a particular
work situation is an “employer” or an “employee” for
purposes of counting the 15 employee minimum
threshold:
Whether the organization can hire or fire the
individual or set rules and regulations of the
individual’s work;
Whether and, if so, to what extent the organization supervises the individual’s work;

App. 96
Whether the individual reports to someone
higher in the organization;
Whether and, if so, to what extent the individual is able to influence the organization;
Whether the parties intended that the individual be an employee, as expressed in written agreements or contracts;
Whether the individual shares in the profits,
losses, and liabilities of the organization.
Id. at 449-50. The Court held that “the answer to
whether a shareholder-director is an “employee” to determine whether the threshold was met depended on
‘all of the incidents of the relationship . . . with no one
factor being decisive.’ ” Id. at 450-51; see also Goldberg
v. Whitaker House Coop., Inc., 366 U.S. 28, 32 (1961)
(“There is nothing inherently inconsistent between the
coexistence of a proprietary and an employment relationship). After establishing the standard for what constituted an “employee” in determining whether an
entity is an “employer” with potential ADA liability, the
Court ultimately remanded the case to the district
court for further findings. Id.
In her complaint, Lemon alleged sufficient facts
showing a plausible conclusion that she met the Clackamas standard for “employee” to the extent applicable.
Lemon was employed by defendant MB to serve as one
of its patent lawyers. (Compl. ¶ 14) Defendant MB
could “hire or fire Lemon at any time with or without
cause.” (Comp. ¶¶14(a), 55) This fact is further supported by the fact that Lemon “met or exceeded all

App. 97
reasonable work expectations . . . and generally excelled in the performance of her job duties.”4 (Compl.
¶ 16) A “non-shareholder attorney” openly reprimanded Lemon for her having expressed sincere concerns about gender discrimination and further
directed her to “leave [the firm] and do better.”5 (Compl.
¶ 32) MB’s managing shareholder openly discussed
“punishment” for “bad behavior” that she had attributed to Lemon for having “hired a lawyer.” (Compl.
¶ 45) There was an open discussion by MB’s board of
directors about a “range of punishment” for Lemon, including the potential for “public censure, monetary
penalties, and termination.” (Compl. ¶ 46) (Emphasis
added) A plan to terminate Lemon was openly discussed by MB’s management committee and another
shareholder had specifically discussed a motion to terminate Lemon’s employment. (Compl. ¶55) MB called
Lemon to appear before the board of directors to answer “some tough questions.” (Compl. ¶59)
In his investigation concerning MB’s hostile work
environment, MB’s lawyer informed Lemon prior to interviewing her that he did “not represent” Lemon, but
that he represented MB.6 (Compl. 20) MB’s managing
4

The reasonable implication being that if Lemon did not
meet the reasonable expectations of her employer, that she would
have been terminated for performance reasons rather than discrimination or retaliation.
5
i.e. conduct by an “of counsel” attorney wholly inconsistent
if the target of his criticism, Lemon, were one with “power” or
“control” of MB.
6
The reasonable implication being if MB’s lawyer represented MB and Lemon were a true owner with control and

App. 98
shareholder, Borchers, refused to provide Lemon with
a copy of the “confidential memorandum” prepared by
MB’s legal counsel that she provided to other shareholders prior to its circulation to members of the board
of directors.7 (Compl. ¶23)) In Lemon’s invocation for
participation in the STL plan, defendant MB required
her to be subjected to a vote by the managing committee and board of directors unlike others with true
power and control. (Compl. ¶¶ 33-48) Inconsistent with
being anything other than an “employee,” defendant
MB directed Lemon to leave the board meeting because it had planned to discuss the discriminatory and
retaliatory acts, at issue, about Lemon. (Compl. ¶41)
Further indicative of Lemon’s lack of power or control,
MB’s board of directors further excluded Lemon from
the “privileged information” regarding her STL request. (Compl. ¶¶ 41-42)
Moreover, defendant MB would set the rules and
regulations pertaining to Lemon’s work and professional relationship with the firm. (Compl. ¶¶ 14(b), 50)
Defendant MB reviewed Lemon’s work to ensure that
assignments were met satisfactorily and provided
Lemon with feedback regarding the same under its
quality control procedures. (Compl. ¶14(c)) Defendant
influence, there would at the very least be a potential conflict-ofinterest in the representation.
7
If she were a true “owner” with power and control, Lemon
would have an absolute legal right to review the “confidential
memorandum” just as others with power and control of MB. However, the reasonable implication by Borchers’ action, or inaction,
underscore her understanding that Lemon had no such power or
control.

App. 99
MB required Lemon to report to someone with higher
authority within the corporate organization. (Compl.
¶¶ 14(d), 59) Further, defendant MB intended that
Lemon be an employee as evidenced by the written
employment agreements and shareholder agreements
and by admissions from other shareholders. (Compl.
¶ 14(e)) For each tax year, defendant MB would issue
Lemon a Form W-2 for purposes of reporting her gross
income to the Internal Revenue Service.8 (Compl.
14(f ))
Defendants argue that the “Employment Agreement . . . expressly states the “employment” ends when
the individual becomes a Shareholder” and cites its
Exhibit A, ¶ 3 as the source. (DB p. 8) However, a close
reading of the “Employment Agreement” cited by Defendants reveal their assertion to be a misrepresentation through misapprehension of the cited content.
Paragraph 3 of the “Employment Agreement” reads:
“This Agreement shall be terminated by the EMPLOYEE at any time upon thirty (30) days’ written notice which written notice shall be considered to be
given upon the offer of any stock in the EMPLOYER,
by the EMPLOYEE, to the EMPLOYER.” (DB, Ex. A,
¶ 3) (Emphasis added)
While Defendants contend that this provision “expressly states” that the employment ended “when the
individual becomes a Shareholder,” a close reading
8

Form W-2 (officially, “Wage and Tax Statement”) is an Internal Revenue Service form used to report wages paid by employers to employees along with the taxes withhold from them. See
generally 26 U.S.C. § 6051, 26 C.F.R. §§ 31.6051-1 and 31.6051-2.

App. 100
indicates quite the opposite: that written notice that
the “Employment Agreement” is terminated shall be
automatically considered upon the Employee offering
to give up Employer’s stock to the Employer.9 Id. By its
own terms, the Employment Agreement indicates that
Lemon as an “employee” will still be able to own stock
at some point in the future without necessarily losing
her “employee” status, which, as Defendants’ exhibit
shows, is precisely what had happened. Contrary to
Defendants’ contentions in their brief, the documents
submitted by Defendants, as referenced in the complaint by Lemon, actually underscore Lemon’s allegations about being an “employee” of defendant MB,
notwithstanding the fact of owning some shares.
There is simply nothing that Defendants can point
to that would indicate that Lemon at any time exerted
control or had the right to exert control or even shared
control over the MB organization. Lemon had no control over her fate, as the control-group within MB were
exhibiting. She could not cause the cessation of the extraordinary stress, humiliation, and hostile work environment that the control-group within MB inflicted on
her, so she tendered her resignation rather than be
faced with termination by the control-group or continue suffering from the resulting mental duress.
(Compl. ¶¶ 60-61) If Lemon had “control” or the right
to exert “control” within MB, she would have most
9

Defendants’ mischaracterization lies in the fact that the
“triggering event” is the employee offering to give up her [already
issued] stock to the “Employer,” not whenever stock is issued, if
at all.

App. 101
certainly caused the hostile work environment and retaliation towards her to cease. Unfortunately, as
demonstrated in the complaint, Lemon had no such
control.
As the Third Circuit has observed, “the Clackamas
test is a fact intensive one; therefore, cases requiring
application of the test may generally require resolution
at the summary judgment stage, rather than at the
motion to dismiss stage. Mariotti v. Mariotti Bldg.
Prods., 714 F.3d 761, 768 n.5 (3d Cir. 2013). Lemon respectfully requests that the Court issue an order denying Defendants’ motion to dismiss her claims under
Title VII, pursuant to Fed. R. Civ. P. 12(b)(6).
III. DEFENDANTS’ MOTION TO DISMISS LEMON’S
§ 1981 CLAIM SHOULD BE DENIED UNDER
FED. R. CIV. P. 12(b)(6) BECAUSE LEMON ALLEGED SUFFICIENT FACTS ESTABLISHING
A PLAUSIBLE CLAIM FOR RACE DISCRIMINATION.
Defendants argue that Lemon’s § 1981 claim “also
must be dismissed” because she purportedly failed to
allege sufficient facts showing it plausible that Defendants discriminated against Lemon because of her race
in denying her invocation of the STL plan. (DB p. 1)
Section 1981 affords a federal remedy against discrimination in private employment inter alia on the
basis of race. Johnson v. Ry. Express Agency, Inc., 421
U.S. 454, 459-60 (1975). The statute provides that “all
persons . . . shall have the same right . . . to make and

App. 102
enforce contracts . . . as is enjoyed by white citizens.”
42 U.S.C. § 1981(a). This right extends, for example, to
“the making, performance, modification, and termination of contracts, and the enjoyment of all benefits,
privileges, terms, and conditions of the contractual relationship.” Id.; § 1981(b).
The elements required to establish a prima facie
case are the same under Title VII and Section 1981.
James v. Booz-Allen & Hamilton, Inc., 368 F.3d 371,
375 n.1 (4th Cir. 2004). To establish a prima facie case
of discriminatory denial of an employment benefit, a
plaintiff must show that: (1) the plaintiff is a member
of a protected class; (2) the defendant provided a certain benefit to its employees; (3) the plaintiff was eligible for the benefit; and (4) the plaintiff was not
provided the benefit under circumstances giving rise to
an inference of discrimination. Thompson v. Potomac
Elec. Power Co., 312 F.3d 645, 649-50 (4th Cir. 2002); c.f.
Swierkiewicz, 534 U.S. at 510-11(A plaintiff is not required to plead facts that constitute a prima facie case
to survive a motion to dismiss);10 McCleary-Evans, 780
F.3d at 584(same).

10

“When a federal court reviews the sufficiency of a complaint, before the reception of any evidence either by affidavit or
admissions, its task is necessarily a limited one. The issue is not
whether a plaintiff will ultimately prevail but whether the claimant is entitled to offer evidence to support the claims . . . Before
discovery has unearthed relevant facts and evidence, it may be
difficult to define the precise formulation of the required prima
facie case in a particular case.” Swierkiewicz, 534 U.S. at 511-12.

App. 103
In determining whether Lemon’s claims contain
factual allegations that raise the right to relief above
the speculative level, there is no dispute that plaintiff
alleged she was a member of a protected class. (Compl.
¶1) As admitted by Defendants in their brief, there is
also no dispute that defendant MB provided a STL
plan as a benefit to its shareholders, including Lemon.
(Compl. ¶¶ 33-34) (DB pp. 10, Ex. B, pp. 140-61; Ex. D)
Instead, Defendants raise issues as to whether
Lemon was eligible to participate in the STL plan and
whether she was not provided the benefit of the STL
plan under circumstances giving rise to an inference
of discrimination. Lemon alleged that she qualified to
participate in MB’s STL plan through not only her
own health condition, but also further qualified to participate from two additional independent qualifying
events that were being experienced by her immediate
family members. (Compl. ¶¶ 34-37) Defendants’ evidence actually corroborates these two independent
qualifying conditions: prolonged illness suffered by the
Shareholder for which leave is recommended by a physician and prolonged serious illness of an immediate
family member that imposes a substantial burden on
the Shareholder and impairs the ability of the Shareholder to meet the 1600 billable hour requirement. (DB
Ex. D, p. 3) Lemon alleged that she provided MB with
the appropriate medical documentation supporting
her application for STL participation. (Compl. ¶ 37) By
their actions, or rather inactions, Defendants tacitly
concede these qualifications; of all the voluminous
documents that Defendants provided to the Court, as

App. 104
attached to their brief, Defendants tactically chose to
omit attaching Lemon’s request that she submitted
showing her qualifications (in addition to the explicit
allegations contained in the complaint). (DB Ex A-D)
Moreover, Lemon alleged that MB’s practice as for
what constituted “qualifications” was ministerial in
practice and that the management committee would
merely “inform” the board of directors about the
attorney/employee’s election to participate in the STL
plan. (Compl. ¶¶ 35-36) Lemon further alleged that in
the past MB had never required other shareholders or
employees to disclose their specific medical conditions
or otherwise prove qualification for the STL plan.
(Compl. ¶ 44) Lemon undoubtedly alleged facts showing that she was plausibly qualified to participate in
MB’s STL plan, particularly in light of MB’s practice to
grant “qualification” for some shareholders, other than
Lemon, in a ministerial manner, even for conditions
not covered by its own plan. (Compl. ¶ 43)
Lemon also alleged sufficient facts showing Defendants denied her the benefit of participating in the
STL plan under circumstances giving rise to an inference of discrimination. Determining whether invidious
discriminatory purpose was a motivating factor demands a sensitive inquiry into such circumstantial
and direct evidence of intent as may be available. Vill.
of Arlington Heights v. Metro. Hous. Dev. Corp., 429 U.S.
252, 266 (1977). The historical background of the decision is one evidentiary source, particularly if it reveals
a series of official actions taken for invidious purposes.
Id. at 267. Departures from the normal procedural

App. 105
sequence also might afford evidence that improper
purposes are playing a role. Id. Substantive departures
too may be relevant, particularly if the factors usually
considered important by the decisionmaker strongly
favor a decision contrary to the one reached. Id. The
administrative history may be highly relevant, especially where there are contemporary statements by
members of the decisionmaking body, minutes of its
meetings, or reports. Id. at 268.
In their brief, Defendants seek for the Court to see
this question essentially in a vacuum. Defendants do
not explain the totality of the circumstances in their
brief as for the allegations made by Lemon. Defendants completely ignore the pertinent facts related to
Lemon’s initial experience with a hostile work environment and retaliation arising from her cooperating in
an investigation about discrimination. (See Compl.
¶¶ 13-32) It is important to consider the context, background, and firm culture for overt retaliation as for the
investigation concerning a hostile work environment
because of sex and retaliation related thereof, particularly when it involves the same set of persons.
Sprint/United Mgmt. Co. v. Mendelsohn, 552 U.S. 379,
388 (2008) (whether evidence of discrimination by
other supervisors is relevant in an individual discrimination case is fact based and depends on many factors,
including how closely related the evidence is to the
plaintiff ’s circumstances and theory of the case). Evidence of a discriminatory and retaliatory work culture
is highly relevant to the question as to whether race
was a motivating factor underlying a firm’s decision to

App. 106
deny a benefit contrary to its past standards and practices. Just four months before a board vote was taken
to deny Lemon the STL plan benefit, board member
Julie Richardson told another shareholder that Lemon
“played the black card too much” even though the
statement was not based on any underlying fact.
(Compl. ¶¶ 27-28) Lemon alleged on information and
belief that Richardson continued to spread the inaccurate and ugly stereotype of Lemon “playing the black
card too much” in an effort to discredit and isolate
Lemon from collegiality and support, which discovery
could reveal lasted up to the board vote to deny STL
benefit four months later. (Compl. ¶ 29)
Against this discriminatory and retaliatory backdrop, Lemon requested the firm’s STL benefit as a
qualified applicant. (Compl. ¶ 33) Lemon alleged that
prior to her election, MB would “ministerially confirm
an attorney/employee’s STL request and simply inform
the board of directors about the attorney’s election to
participate in the STL plan. (Compl. ¶ 35) However,
MB treated Lemon differently—MB subjected Lemon
to insensitive questioning about her health and required medical documents (which it did not require for
others). (Compl. ¶ 36) Once Lemon obtained the requested medical documentation (that MB did not require for others), MB informed Lemon that she would
instead be required to address MB’s board of directors
with the request. (Compl. ¶ 37) Of the hundreds of
pages of documents that Defendants attached to their
brief, they omitted including any minutes of other STL
decisions showing other attorneys had been required

App. 107
to present their health conditions, etc. to the board of
directors in an effort to secure approval for STL decisions. (DB Ex A-D)
After openly discussing Lemon’s health conditions,
MB’s board of directors denied her invocation of STL
leave. (Compl. ¶¶ 39, 42) Among the voluminous documents Defendants attached to their brief, Defendants
omitted inclusion of any board minutes that would indicate at least a putative legitimate business reason
for denying Lemon’s request for STL leave. (DB Ex AD) Lemon further alleged that MB directed that
Lemon and another board member (who had been a
complainant of sex discrimination) to leave the board
meeting “so that the board may discuss the matter in
their absences.” (Compl. ¶ 40) Lemon and the other
board member had a legal right to be in attendance at
the board meeting. The fact that Defendants excluded
them from the board meeting where a discussion of the
true reasons would take place further give rise to an
inference of discrimination.
Lemon specifically alleged that MB’s board of directors had never previously voted on the issue of STL
election as it pertained to its Caucasian attorneys, including those seeking short-term leave for such events
as cataract surgery, undisclosed illnesses (thus indicating no reason need be provided), and for one who would
not qualify for the STL plan under policy, but was
nonetheless permitted to participate. (Compl. ¶ 43)
Lemon also alleged facts showing MB’s attempts to rewrite their past notices of meetings in an effort to help
it in the event of legal action. (Compl. ¶¶ 49-52)

App. 108
Defendant Borchers played a significant role behind the denial by MB’s board of directors for Lemon
to participate in the STL plan for which she was
qualified. (Compl. ¶¶ 45-46) Lemon became aware on
November 2, 2016 that MB’s management committee
(of which Borchers was a member) had openly discussed racial discrimination inter alia and its retaliatory actions against Lemon during at least one of its
meetings. (Compl. ¶ 54) Richard v. Bell Atl. Corp.,
946 F. Supp. 54, 74 (D.D.C. 1996) (Individuals may be
liable under Section 1981 when they have been “personally involved in the discrimination” and have “directly participated” in the alleged discriminatory
acts.”)
On November 5, 2016, Borchers emailed Lemon to
appear at another board of directors meeting on November 8, 2016 to discuss “workplace concerns” with
no elaboration. (Compl. ¶ 59) Lemon provided MB’s
management committee with a doctors’ note to excuse
her from having to appear before the board of directors
for health reasons related to the accompanying stress.
(Compl. ¶ 60) Lemon resigned from her employment
shortly thereafter. (Compl. ¶ 61) When reviewed in
their totality, Lemon alleged sufficient facts giving
arise to an inference of race discrimination for MB’s
denial of her request for participation in MB’s STL
plan.
In their brief, Defendants asserted essentially that
Lemon had not alleged damages. Compensatory damages may be inferred from the circumstances as well
as proven by the testimony. Ferrill v. Parker Group,

App. 109
Inc., 168 F.3d 468 (11th Cir. 1999). The standard of review for awards of compensatory damages for intangible, emotional harms is deferential to the fact finder
because the harm is subjective and evaluating it depends considerably on the demeanor of the witnesses.
Defendants’ assertions concerning the harm, losses
and damages incurred by Lemon by Defendants’ actions are contained in the complaint. (Compl. ¶¶ 37,
60-61, and 72)
As such, Lemon alleged facts showing a plausible
claim for racial discrimination under Section 1981. The
Court should deny Defendants’ motion to dismiss for
purported failure to state a claim under Fed. R. Civ. P.
12(b)(6).
CONCLUSION:
For the reasons set forth herein, Lemon respectfully requests that the Court deny Defendants’ motion
to dismiss her claims in this action and that Lemon
have the opportunity to make her case following discovery in this action.

App. 110
This the 10th day of September, 2018.
BAILEY & DIXON, LLP
By: /s/ J. Heydt Philbeck
J. Heydt Philbeck
434 Fayetteville Street,
Suite 2500
Raleigh, North Carolina 27601
Telephone: (919) 828-0731
Facsimile: (919) 828-6592
Email: hphilbeck@bdixon.com
NC State Bar # 19379
Attorneys for Plaintiff

[Certificate Of Word Count Omitted]
[Certificate Of Service Omitted]

App. 111
BAILEY [LOGO] DIXON

J. Heydt Philbeck
hphilbeck@bdixon.com

December 7, 2020
Patricia S. Connor, Clerk
U.S. Court of Appeals for the Fourth Circuit
1100 East Main Street, Suite 501
Richmond, Virginia 23219
Re: Lemon v. Myers Bigel, PA., No. 19-1380
Appellant’s Response to Citation of Supplemental
Authority
Dear Ms. Connor:
I write in response to Appellees’ recent citation of
supplemental authority regarding the Supreme Court’s
decision in Comcast Corp. v. Nat’l Ass’n of African
American-Owned Media, 140 S. Ct. 1009 (2020), pursuant to Fed. R. App. P. 28(j) and Local Rule 28(e). In
Comcast, the Supreme Court answered in part a splitcircuit issue confirming that race discrimination claims
under 42 U.S.C. § 1981 do not encompass a “mixedmotive” theory, but instead operate exclusively under
a “because of or “but for” theory. However, as related to
the case at bar, this holding is inconsequential.
Appellant initially mentioned in passing the potential “mixed-motive” theory for development through
discovery and cited the pending decision in Comcast.
(Doc. 18 at 51, 62 & n.6). Other than a blanket denial,
Appellees did not respond substantively to the reference, but instead asserted that Appellant’s mention of
potential “mixed-motive” was in effect waived. (Doc. 23
at 48 n.13). In her reply, Appellant explained why

App. 112
Appellees’ waiver assertion was erroneous. (Doc. 25 at
2729).
Throughout her appellant briefing, Appellant argued with the assumption that the “because of theory
was the operative causation standard, but referenced
the potential “mixed-motive” theory because Appellant
was aware that Comcast was pending before the Supreme Court. (Doc. 23 at 48 n.13) The fact that the Supreme Court has now held that the “mixed-motive”
standard is inapplicable to § 1981 claims has no consequence to Appellant’s overall argument. This is particularly true in light of the recent decision where our
Supreme Court held that “multiple causes” can support “because of causation, which was Appellant’s original point. See Bostock v. Clayton, Cty, 140 S. Ct. 1731,
1739 (June 15, 2020).
Sincerely,
/s/ J. Heydt Philbeck
J. Heydt Philbeck
cc: Counsel of Record (via ECF)
Tel 919 828 0731
Fax 919 828 6592

BAILEY & DIXON, LLP
Attorneys at Law

Post Office Box 1351
Raleigh, NC 27602
2500 BB&T/Two Hannover Sq.
Raleigh, NC 27601
www.bdixon.com

App. 113
BAILEY [LOGO] DIXON

J. Heydt Philbeck
hphilbeck@bdixon.com

December 7, 2020
Patricia S. Connor, Clerk
U.S. Court of Appeals for the Fourth Circuit
1100 East Main Street, Suite 501
Richmond, Virginia 23219
Re: Lemon v. Myers Bigel, PA., No. 19-1380
Appellant’s Amended Citation of Supplemental
Authority to ECF 50
Dear Ms. Connor:
On behalf of the Appellant, I write to cite as supplemental authority the Supreme Court’s decision in
Bostock v. Clayton Cty., 140 S. Ct. 1731 (2020), pursuant to Fed. R. App. P. 28(j) and Local Rule 28(e).
On June 15, 2020, the Supreme Court issued its
Bostock decision. In Bostock, our Supreme Court elucidated on the rather broad scope that is implicated under “because of ” or “but for” causation. The Court
stated: “[‘But for’] can be a sweeping standard. Often,
events have multiple but-for causes . . . the adoption of
the traditional but-for causation standard means a defendant cannot avoid liability by citing some other factor that contributed to its challenged employment
decision. So long as the plaintiff ’s sex [or race] was one
but-for cause of that decision, that is enough to trigger
the law.” Bostock, 140 S. Ct. at 1739.
As the holding relates to the case at bar, there may
be multiple factors – in addition to race-discrimination

App. 114
– that contributed to Appellees’ decision the deny Appellant the STL leave, as alleged in the amended complaint. However, in accordance with Bostock, the mere
fact of potential multiple factors in the decision to deny
STL leave, inter alia should not bear adversely on
Appellant’s claim for racial discrimination under 42
U.S.C. § 1981. Consistent with Bostock, Appellees very
well may have been motivated by a discriminatory animus for both race and gender in how it treated Appellee in violation of § 1981, as alleged.
Sincerely,
/s/ J. Heydt Philbeck
J. Heydt Philbeck
cc: Counsel of Record (via ECF)
Tel 919 828 0731
Fax 919 828 6592

BAILEY & DIXON, LLP
Attorneys at Law

Post Office Box 1351
Raleigh, NC 27602
2500 BB&T/Two Hannover Sq.
Raleigh, NC 27601
www.bdixon.com

App. 115
RECORD NO. 19-1380
===========================================================================================
In The
United States Court of Appeals
For The Fourth Circuit
SHAWNA CANNON LEMON,
Plaintiff – Appellant,
v.
MYERS BIGEL, P.A., f/k/a Myers Bigel &
Sibley and Myer Bigel Sibley & Sajovec, P.A.;
LYNNE A. BORCHERS; UNNAMED OTHERS,
Defendants – Appellees.
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE EASTERN
DISTRICT OF NORTH CAROLINA AT RALEIGH
-----------------------------------------------------------------------

BRIEF OF APPELLANT
-----------------------------------------------------------------------

(Filed Aug. 23, 2019)
Steven W. Seymour
J. Heydt Philbeck
BAILEY & DIXON, LLP
SAMUELS YOELIN
434 Fayetteville Street,
KANTOR, LLP
Suite 2500
111 S.W. 5th Avenue,
Raleigh, North Carolina 27601 Suite 3800
(919) 828-0731
Portland, Oregon 97204
(503) 226-2966
Counsel for Appellant
Counsel for Appellant

App. 116
Brandon S. Neuman
Nathaniel J. Pencook
SHANAHAN LAW GROUP
128 East Hargett Street, Third Floor
Raleigh, North Carolina 27601
(919) 856-9494
Counsel for Appellant
===========================================================================================
UNITED STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT DISCLOSURE OF CORPORATE
AFFILIATIONS AND OTHER INTERESTS
Disclosures must be filed on behalf of all parties to a
civil, agency, bankruptcy or mandamus case, except
that a disclosure statement is not required from the
United States, from an indigent party, or from a state
or local government in a pro se case. In mandamus
cases arising from a civil or bankruptcy action, all
parties to the action in the district court are considered
parties to the mandamus case.
Corporate defendants in a criminal or post-conviction
case and corporate amici curiae are required to file
disclosure statements.
If counsel is not a registered ECF filer and does not
intend to file documents other than the required
disclosure statement, counsel may file the disclosure
statement in paper rather than electronic form.
Counsel has a continuing duty to update this
information.

App. 117
No. 19-1380
Caption:

Shawna Cannon Lemon v. Myers Bigel, P.A.
and Lynne A. Borchers

Pursuant to FRAP 26.1 and Local Rule 26.1,
Shawna Cannon Lemon
(name of party/amicus)
who is Appellant , makes the following disclosure:
(appellant/appellee/petitioner/respondent/amicus/
intervenor)
1.

Is party/amicus a publicly held corporation or
other publicly held entity? ⬜ YES 🗹 NO

2.

Does party/amicus have any parent corporations?
⬜ YES 🗹 NO
If yes, identify all parent corporations, including
all generations of parent corporations:

3.

Is 10% or more of the stock of a party/amicus
owned by a publicly held corporation or other
publicly held entity? ⬜ YES 🗹 NO
If yes, identify all such owners:

4.

Is there any other publicly held corporation or
other publicly held entity that has a direct
financial interest in the outcome of the litigation
(Local Rule 26.1(a)(2)(B))? ⬜ YES 🗹 NO
If yes, identify entity and nature of interest:

App. 118
5.

Is party a trade association? (amici curiae do not
complete this question) ⬜ YES 🗹 NO
If yes, identify any publicly held member whose
stock or equity value could be affected substantially by the outcome of the proceeding or whose
claims the trade association is pursuing in a
representative capacity, or state that there is no
such member:

6.

Does this case arise out of a bankruptcy
proceeding? ⬜ YES 🗹 NO
If yes, identify any trustee and the members of any
creditors’ committee:

Signature: /s/ J. Heydt Philbeck
Date:
April 25, 2019
Counsel for:

Shawna Cannon Lemon

CERTIFICATE OF SERVICE
**************************
I certify that on April 25, 2019 the foregoing
document was served on all parties or their counsel of
record through the CM/ECF system if they are
registered users or, if they are not, by serving a true
and correct copy at the addresses listed below:
via CM/ECF system
Kerry A. Shad, Esq.
Smith, Anderson, Blount, et al.
Email: kshad@smithlaw.com

App. 119
/s/ J. Heydt Philbeck
(signature)

April 25, 2019
(date)

TABLE OF CONTENTS
Page
CORPORATE DISCLOSURE STATEMENT
TABLE OF AUTHORITIES .................................

iv

JURISDICTIONAL STATEMENT ......................

1

ISSUES PRESENTED .........................................

2

STATEMENT OF THE CASE..............................

3

STATEMENT OF THE FACTS ...........................

4

Dr. Lemon excels in her work performance as a
patent attorney for MB .......................................

4

At all relevant times, Lemon was an employee
and shareholder of MB who had no meaningful
control ..................................................................

5

Lemon experiences retaliation immediately
following her cooperation in MB’s internal
investigation for gender discrimination .............

6

Lemon experiences retaliation immediately
following her cooperation in MB’s internal
investigation for gender discrimination ............. 10
SUMMARY OF ARGUMENT ................................

15

A.

Title VII Claims ......................................... 15

B.

Section 1981 Claim ......................................

17

STANDARD OF REVIEW ................................... 19
ARGUMENT ...........................................................

22

App. 120
I.

The trial court erred as a matter of law by
dismissing Lemon’s discrimination and
retaliation claims under Title VII for
purported failure to state a claim since
Lemon was entitled to protections
afforded by Title VII when properly
applying the Supreme Court’s right to
control test, as articulated in Clackamas
Gastroenterology Associates P.C. v. Wells,
538 U.S. 440 (2003) .................................... 22
A. Introduction ......................................... 22
B. Common Law Right to Control ............ 23
C. The Clackamas Factors ....................... 26
1. Overview ......................................... 26
2. Employment Policies ...................... 28
a. Employment Agreement ........... 28
b. Shareholder Agreement ............ 34
c. Compensation Plan ................... 35
3. Employment Procedures ..................

38

a. Managing Shareholder Control .... 38
b. Management Committee Control .... 38
4. Employment Practices .....................

41

a. Overview ................................... 41
b. Gender Discrimination
Investigation ............................. 42
c. STL Plan Application ................ 43
d. Exercise of Power to Termination ............................................ 45

App. 121
e. Supervision of Work Product and
Performance ............................... 46
D. Summary and Conclusions .................. 47
II. The district court erred as a matter of law
when it dismissed Lemon’s race discrimination claim under Section 1981 for its
purported failure to state a claim under
Fed. R. Civ. P. 12(b)(6) since Lemon alleged
sufficient facts giving rise to a reasonable
inference that race improperly influenced
Defendant’s deviation from its longstanding
policy and practice in its denial of Lemon’s
election for STL status for which she was
qualified ........................................................ 51
A. Introduction ...........................................

51

B. Iqbal does not require Lemon to plead a
prima facie case to assert a Section
1981 claim .............................................. 53
C. The district court misapplied the
Swierkiewicz/McCleary-Evans pleading
standard ................................................. 54
III.

The trial court erred by denying Lemon’s
motion to amend her complaint on the basis
of futility in light of the Court’s ruling on
the preceding issues on appeal ................... 63

CONCLUSION..................................................... 63
REQUEST FOR ORAL ARGUMENT .................. 66
CERTIFICATE OF COMPLIANCE
CERTIFICATE OF FILING AND SERVICE

App. 122
TABLE OF AUTHORITIES
Page(s)
CASES
Amini v. City of Minneapolis,
643 F.3d 1068 (8th Cir. 2011), cert. denied,
132 S. Ct. 1144 (2012) .............................................61
Ashcroft v. Iqbal,
556 U.S. 662 (2009) ......................................... passim
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) ......................................... passim
Brown v. Sessoms,
774 F.3d 1016 (D.C. Cir. 2014) ................................53
Celotex Corp. v. Catrett,
477 U.S. 317 (1986) .................................................50
Clackamas Gastroenterology Associates P. C. v. Wells,
538 U.S. 440 (2003) ......................................... passim
Coleman v. Md. Court of Appeals,
626 F.3d 187 (4th Cir. 2010) ....................................20
Comcast v. National Assoc. of
African-American Owned Media,
No. 18-1171 (U.S. Sup. Ct. June 10, 2019) ..............62
Covert v. LVNV Funding, LLC,
779 F.3d 242 (4th Cir. 2015) ....................................19
Decotiis v. Whittemore,
635 Fed.3d 22 (1st Cir. 2011) ..................................28
Desert Palace, Inc. v. Costa,
123 S. Ct. 2148 (2003) .............................................62
Erickson v. Pardus,
551 U.S. 89 (2007) ...................................................54

App. 123
Estate of Waters v. Comm’r,
48 F.3d 858 (4th Cir. 1995) ......................................31
Farm Labor Org. v. Ohio State Highway Patrol,
308 F.3d 523 (6th Cir. 2002) ....................................51
Foster v. Univ. of Md.-E. Shore,
787 F.3d 243 (4th Cir. 2015) ....................................21
Georges v. Dominion Payroll Servs., LLC,
No. 3:16CV777, 2017 U.S. Dist. LEXIS 136277,
2017 WL 3669029 (E.D. Va. Aug. 24, 2017) ............57
Harris v. Testar, Inc.,
243 N.C. App. 33 (2015) ...........................................44
Johnson v. Ry. Express Agency, Inc.,
421 U.S. 454 (1975) .................................................51
Lightner v. City of Wilmington, N. C.,
498 F. Supp. 2d 802 (2008)......................................55
Mariotti v. Mariotti Bldg. Products, Inc.,
714 F.3d 761 (3rd Cir. 2013) ....................................24
McCleary-Evans v. Md. DOT,
780 F.3d 582 (4th Cir. 2015) ............................ passim
Nationwide Mutual Insurance Co. v. Darden,
503 U.S. at 324, 112 S. Ct. 1334 (1992) ..................41
Nemet Chevrolet, Ltd. v. Consumeraffairs.com, Inc.,
591 F.3d 250 (4th Cir. 2009) .............................. 20, 21
Penna v. Porter,
316 F. App’x 303 (4th Cir. 2009) ..............................51
Serapion v. Martinez,
119 Fed.3d 982 (1st Cir. 1997) cert. den.,
522 U.S. 1047 (1998)................................................27
Staub v. Proctor Hosp.,
131 S. Ct. 1186 (2011) .............................................61

App. 124
Swanson v. Citibank, N.A.,
614 F.3d 400 (7th Cir. 2010) ....................................55
Swierkiewicz v. Sorema N.A.,
534 U.S. 506 (2002) ......................................... passim
Thomas v. Denny’s, Inc.,
111 F.3d 1506 (10th Cir. 1997) ................................62
United States ex rel. Ahumada v. NISH,
756 F.3d 268 (4th Cir. 2014) ....................................21
Vill. of Arlington Heights v. Metro. Hous. Dev. Corp.,
429 U.S. 252 (1977) ........................................... 61, 62
Weidman v. Exxon Mobil Corp.,
776 F.3d 214 (4th Cir. 2015) ....................................50
STATUTES
28 U.S.C. § 1291 ............................................................2
28 U.S.C. § 1331 ............................................................1
28 U.S.C. § 1441 ............................................................1
28 U.S.C. § 1446 ............................................................1
42 U.S.C. § 1981 .................................................. passim
42 U.S.C. § 1981(a) ......................................................51
42 U.S.C. § 1981(b) ......................................................51
42 U.S.C. § 2000e ................................................ passim
42 U.S.C. § 2000e-2(a) ........................................... 22, 23
42 U.S.C. § 2000e-3 ................................................... 3, 4
42 U.S.C. § 2000e(b) ....................................................24
N.C. Gen. Stat. art. III, §§ 12(3) ...................................1
N.C. Gen. Stat. § 55-8-30(a)(2)....................................44

App. 125
N.C. Gen. Stat. § 55-8-30(a)(3)....................................44
RULES
Fed. R. App. P. 4(a)(1)(A) ...............................................2
Fed. R. Civ. P. 8(a)(2) ................................. 18, 19, 53, 54
Fed. R. Civ. P. 8(d)(2) ...................................................62
Fed. R. Civ. P. 12(b)(6) ......................................... passim
OTHER AUTHORITIES
2 Equal Employment Opportunity Commission
Compliance Manual (2000) ............................... 25, 27
Restatement (2nd) of Agency § 2(2)(1957) .................25
[1] JURISDICTIONAL STATEMENT
On April 4, 2018, Shawna Cannon Lemon, J.D.,
Ph.D (“Lemon”) brought this action against Myers
Bigel, P.A., a North Carolina law firm, which was
formed as a professional corporation (individually
“MB” and collectively “Defendants”) and Lynne A.
Borchers (individually “Borchers” and collectively
“Defendants”), a former managing shareholder and
vice president for MB, in the North Carolina General
Court of Justice, Superior Court Division, Wake County, pursuant to N.C. Gen. Stat. art. III, §§ 12(3), et seq.
Joint Appendix (“JA”) 20-45. In her complaint, Lemon
asserted claims against MB for discrimination and
retaliation, pursuant to Title VII of the Civil Rights Act
of 1964, as codified in 42 U.S.C. § 2000e, et seq. (“Title
VII”) and against Defendants for discrimination on the

App. 126
basis of race, pursuant to 42 U.S.C. § 1981 (“Section
1981”). JA 34-38. On April 5, 2018, Defendants were
each served with process in this action. JA 1217.
On May 9, 2018, Defendants filed a notice of
removal for this action in the United States District
Court for the Eastern District of North Carolina,
pursuant to 28 U.S.C. §§ 1331, 1441 and 1446. JA 8-12.
By order dated March 11, 2019, the district court
granted Defendants’ motion to [2] dismiss for Lemon’s
purported failure to state a claim, pursuant to Fed. R.
Civ. P. 12(b)(6). JA 472-514. The district court likewise
denied Lemon’s motion to amend her complaint for
purported futility in light of its decision on Defendants’
motion to dismiss. Id. On March 11, 2019, the district
court filed and entered its judgment dismissing this
action. JA 515. On April 9, 2019, Lemon timely filed a
notice of appeal, in accordance with Fed. R. App. P.
4(a)(1)(A). JA 516-17.
Accordingly, under 28 U.S.C. § 1291, this appeal is
properly before the United States Court of Appeals for
the Fourth Circuit, as the appeal arises from a final
order of the district court disposing of all claims with
respect to all parties.
ISSUES PRESENTED
1. Did the district court err as a matter of law
when it dismissed Lemon’s Title VII claims for
discrimination and retaliation for purported failure to
state a claim under Fed. R. Civ. P. 12(b)(6) by finding
that Lemon was not entitled to the protections afforded

App. 127
by Title VII through a flawed application of the right to
control test, as articulated in Clackamas Gastroenterology Associates P.C. v. Wells, 538 U.S. 440 (2003)?
[3] 2. Did the district court err as a matter of law
when it dismissed Lemon’s race discrimination claim
under Section 1981 for its purported failure to state a
claim under Fed. R. Civ. P. 12(b)(6) since Lemon alleged
sufficient facts giving rise to a reasonable inference
that race improperly influenced Defendants’ deviation
from its longstanding policy and practice in its denial
of Lemon’s election for STL status for which she was
qualified?
3. In light of this Court’s rulings on the
preceding issues, did the district court err in denying
Lemon’s motion to amend her complaint on the
purported basis of futility?
STATEMENT OF THE CASE
Lemon brought this action against her former employer, MB along with MB’s former managing shareholder and vice president, Borchers and “unnamed
others.” JA 380-427. In her amended complaint, Lemon
asserted a retaliation claim against MB under Title
VII, 42 U.S.C. § 2000e-3 for its materially adverse
employment actions following Lemon’s cooperation in
MB’s internal EEO investigation. JA 412-14. Lemon
also asserted race discrimination and retaliation
claims against [4] MB under Title VII, 42 U.S.C.
§ 2000e and race discrimination claims against
Defendants under Section 1981. JA 408-12.

App. 128
Defendants filed a motion to dismiss all claims for
purported failure to state a claim under Fed. R. Civ. P.
12(b)(6). JA 64-374. Lemon opposed Defendants’
motion to dismiss and also filed a motion to amend for
leave to amend the complaint. JA 375-471. On March
11, 2019, the trial court denied Lemon’s motion to
amend her complaint based on futility and granted
without prejudice Defendants’ motion to dismiss
Lemon’s claims against Defendants. JA 472-514. This
appeal followed.
STATEMENT OF THE FACTS1
Dr. Lemon excels in her work performance as a patent
attorney for MB.
Shawna Lemon is a black female of AfricanAmerican descent and an attorney licensed by the
North Carolina State Bar. JA 380, 384. In addition to a
law degree, Lemon has also earned a Ph.D. in
biomedical sciences/pharmacology. JA 384. From
September 2001 until December 31, [5] 2016, Lemon
worked for MB as a patent attorney. Id. Lemon
generally excelled in the performance of her job duties
at MB, received no disciplinary actions, and treated all
supervisors, colleagues, and subordinates in a
1

For purposes of analysis, the statement of facts will be
derived from the proposed amended complaint because Lemon’s
motion to amend was denied only because of purported futility.
Note, however, that for purposes of this appeal, Lemon is not
contesting the district court’s dismissal without prejudice of her
Fourth (Breach of Fiduciary Duty) and Fifth (Breach of Implied
Covenant) claims for relief.

App. 129
professional manner with fairness, respect, and good
will. JA 386.
At all relevant times, Lemon was an employee and
shareholder of MB who had no meaningful control.
When she began employment in September 2001,
Lemon entered into a written employment agreement
with MB, which set forth the terms and conditions of
her employment. JA 384. In the employment agreement, Lemon and MB agreed to provide 30 days
written notice of termination, which includes “the offer
of any stock in the EMPLOYER, by the EMPLOYEE,
to the EMPLOYER.” JA 68, 70-71, 384. MB also
negotiated the ability to control Lemon as MB’s
employee in significant ways: Lemon agreed that (1)
MB would have “complete control” over her clientele
and the fees charged for her services; (2) MB could
assign Lemon tasks at its discretion; and (3) Lemon
would “observe and comply with” MB’s “personnel
policies,” “operating policies and procedures, and all
other rules and regulations of [MB], either orally or in
writing, and related to the performance of [Lemon’s]
duties.” JA 68, 72, 384-85.
[6] MB also established significant control over
Lemon through its employment procedures. Along
with all other attorneys at the firm, Lemon reported to
Borchers as managing shareholder, which was the only
office with any actual authority at MB. JA 381, 385,
387. Moreover, Borchers controlled the management
committee, which in turn controlled MB as a whole

App. 130
through its scheduling of meetings, setting of agendas,
and obtaining the approval of a rubber-stamp board.
JA 388-89.
Lemon became a MB shareholder upon executing
the then-existing shareholder agreement on January
2, 2007. JA 75-363, 387. No provision of the shareholder agreement superseded the employment agreement; rather, the shareholder agreement had the
practical effect of changing her compensation formula
under the employment agreement to include an objective salary component and a subjective component
reflecting non-billable contributions and share of MB’s
profits and losses. JA 75-363, 386. At all times
thereafter, Lemon continued to be compensated as an
employee, receiving a W-2 for tax purposes. JA 385-86.
Lemon experiences retaliation immediately following
her cooperation in MB’s internal investigation for
gender discrimination.
Lemon’s experience was that MB’s workplace was
one of hostility towards minorities and women. JA 5761. During Spring 2016, several [7] female attorneys/
employees at MB asserted complaints about gender
discrimination, including a hostile work environment
because of gender. JA 392. MB hired attorney Kevin S.
Joyner (“Joyner”) of the Ogletree Deakins law firm to
investigate and advise it concerning these claims of
gender discrimination. Id. As part of the investigation, Joyner met with Lemon on June 2, 2016 to
determine her personal knowledge about the gender

App. 131
discrimination in MB’s workplace. Id. Joyner made
clear to Lemon that he did not represent her regarding
her sincere concerns about gender discrimination in
MB’s workplace. Id.
During the course of the interview, Lemon candidly reported her personal knowledge about gender
discrimination in MB’s culture and workplace
environment. Id. Using the substantive information
gathered from the investigation, including that
provided by Lemon, Joyner prepared a “confidential
memorandum” that confirmed or corroborated the
existence of gender discrimination in MB’s work environment. Id. Around June 14, 2016, Joyner provided
MB’s board of directors with a copy of the “confidential
memorandum” that included the information provided
to him by Lemon and other female attorneys, which
confirmed [8] or corroborated the existence of gender
discrimination in MB’s workplace. JA 393.
On June 15, 2016, MB’s board of directors met to
review and discuss Joyner’s “confidential memorandum” among MB’s board members. Id. During this
meeting, MB’s board members openly excoriated
Lemon after reviewing the confidential memorandum.
JA 393-94. One board member openly referred to
Lemon’s hostile workplace concerns as being “idiotic”
while another board member added that he would
have said “much worse” in response to the other board
member’s ad hominem attack. Id. Other board
members literally screamed at Lemon to “grow up” and
“stop complaining” while others chastised Lemon for
having hired a lawyer to advise her during the course

App. 132
of Joyner’s interview. Id. These derisive comments to
and about Lemon were made openly during the board
meeting without any reproach or reprimand by MB. JA
394.
Following the board meeting, one MB shareholder
told another that Lemon “played the black card too
much.” JA 395. This board member’s reference was
based on her own unfair and inaccurate racial stereotype about African-Americans being persons who
knowingly voice false concerns about racism in the
workplace in an effort to gain some material [9]
advantage. Id. Even though Lemon had not previously
complained to MB about “race” or being “black,” the
shareholder used it as an effort to discredit and isolate
Lemon from collegiality and support in the workplace
in retaliation for having reported gender discrimination to Joyner. Id.
Shortly thereafter on July 8, 2016, a MB shareholder and management committee member prepared
and circulated an email to MB’s shareholder/
employees that referenced Lemon as a “bad asshole”
for having expressed undisputed “sincere concerns”
about gender discrimination to Joyner. JA 395-96. The
email stated that MB needed more “good assholes”
instead. Id. On July 13, 2016, MB’s board of directors
unilaterally expelled a female member of MB’s
management committee in retaliation for having
complained about MB’s hostile work environment
towards women, as was reported in Joyner’s
“confidential memorandum.” JA 396. Also during this
board meeting, a non-shareholder attorney openly

App. 133
reprimanded Lemon for her having expressed sincere
concerns about gender discrimination at MB. Id. At the
board meeting, he openly directed Lemon to “leave [the
firm] and do better.” Id.
[10] Defendants denied Lemon the employment
benefit of STL leave as a result of race discrimination
and retaliation.
Around September 14, 2016, Lemon elected to
participate in MB’s short-term leave/short-term
disability (“STL”) plan as a qualified applicant under
the firm’s policies and procedures. JA 398. In addition
to qualifying to participate through her own health
condition at the time, Lemon additionally qualified to
participate due to two additional independent qualifying events that were experienced by Lemon’s immediate family members. Id. Prior to Lemon’s election,
MB’s management committee would ministerially
confirm an attorney/employee’s STL request and
simply inform MB’s board of directors about the
attorney/employee’s election to participate in the STL
plan. Id. However, instead of approving her election at
the typical ministerial management committee level,
MB subjected Lemon to insensitive questioning about
her health at the management committee level and
required her to obtain and present additional medical
documentation. Id.
Lemon obtained the requested additional medical
documentation from her physician confirming the need
for accommodations through the STL plan. JA 399.

App. 134
When Lemon offered to provide this information in [11]
emails to MB’s director of administration, MB
informed Lemon that she instead would need to
address MB’s board of directors about her request to
participate in the STL plan, notwithstanding her
having unquestionable, multiple qualifying events. Id.
MB placed the issue of Lemon’s STL request on its
board of director’s agenda for the October 19, 2016
meeting. Id. By placing Lemon’s STL request on the
board’s agenda, MB facilitated an open discussion
among MB’s board members about Lemon’s private
health conditions, which were part of the underlying
bases for the leave request. Id. Prior to the board
meeting of October 19, MB’s Management Committee
circulated modified notes of its previous meetings that
falsely attributed comments to Lemon showing unresolved conflict and that the management committee
should consider adverse action against Lemon for
“undermining” the firm. JA 403. The purpose was to
discredit Lemon and force a denial of her request for
STL leave. Id.
During the board of director’s meeting of October
19, 2016, MB directed Lemon and one of the female
discrimination complainants (who incidentally was
not making an STL election) to leave the meeting so
that the board of directors could discuss the issue in
their absences. JA 399-400. The board of directors
expelled Lemon and the other female member [12]
(who had previously complained about the hostile
work environment) so that the members could more
freely discuss discriminatory and retaliatory acts

App. 135
concerning Lemon and the other female member who
had previously complained. Id.
After a brief discussion about Lemon’s STL
election, MB’s board of directors voted to deny the STL
election by Lemon even though she was qualified to
participate under MB’s policies. JA 400. Prior to this
meeting, MB’s board of directors had never previously
required its Caucasian attorneys/shareholders to
disclose specific medical conditions to prove qualification, never required any other attorneys/shareholders
to present physician statements confirming health
conditions, and never required attorneys/shareholders
to present their request for STL plan participation to
the board of directors for approval. JA 401.
Immediately following the board of directors’
rejection of Lemon’s STL election, MB’s managing
shareholder, Borchers, discussed “punishment” for
“bad behavior” and specifically mentioned Lemon’s
name along with that of another female attorney who
had complained about gender discrimination in MB’s
workplace for having “hired a lawyer” back in June
2016 to discuss the sincere concerns each had about
[13] MB’s hostile work environment towards female
attorneys and employees. Id. Borchers then proceeded
to discuss a range of punishment for Lemon with MB’s
board of directors, including the prospect of censure,
monetary penalties, and termination. Id. The board of
directors under Borchers’ direction further discussed
changing MB’s compensation plan (and thus Lemon’s
compensation) for the retaliatory purpose of detrimentally affecting Lemon’s compensation. JA 401-02.

App. 136
In fact, MB’s purpose in denying Lemon’s valid and
qualified request for STL leave was to retaliate against
her by causing financial and emotional costs that
would serve in significant part as “punishment” for
having participated and assisted in standing against
gender discrimination in her disclosures to Joyner. JA
401-02.
Around November 2, 2016, Lemon became aware
that MB’s Management Committee had openly discussed racial and gender discrimination and its
retaliatory actions against Lemon (and the EEO
complainants) during at least one of its meetings. JA
405. Specifically, Lemon learned that MB’s Management Committee had discussed terminating her as
part of the retaliation and discussed a motion to
terminate Lemon’s employment. Id. During a practice
group meeting on [14] November 4, 2016, MB’s
shareholders interrogated Lemon by asking about her
“intentions” and whether she was going to sue the firm.
Id. MB’s shareholders further openly chastised Lemon
during the meeting for having hired a lawyer to
address her sincere concerns about MB’s hostile work
environment towards women. Id. In a (perhaps not so)
veiled threat, one shareholder ominously asked Lemon
at the practice group meeting what would happen “if
somebody pushed [her] off the cliff ?” Id.
On November 5, 2016, MB’s managing shareholder, Borchers, emailed Lemon to inform that Lemon
was being placed “on the agenda” for the board of
director’s meeting scheduled for a few days later
because of the referenced practice group meeting and

App. 137
“workplace concerns” without further specification. JA
406. Lemon subsequently provided MB’s management
committee with documentation from a health care
provider that indicated she needed to avoid stress
during this time for health reasons. Id. MB’s hostile
work environment had caused Lemon to experience
inter alia difficulty in breathing through the exacerbation of her asthmatic condition. Id.
On December 23, 2016, Lemon tendered her
resignation to MB because she could no longer work
under the extraordinary stress, [15] humiliation and
hostile work environment that she had been experiencing in MB’s workplace. Id.
SUMMARY OF ARGUMENT
A. Title VII Claims.
The district court erred in this case in holding that
Lemon’s proposed amended complaint did not contain
sufficient allegations of MB’s common law right to
maintain control of Lemon to support her contention
that she is entitled to the protections afforded by Title
VII of the Civil Rights Act of 1964. Consistent with the
right to the control test as articulated in Clackamas
Gastroenterology Associates, P.C. v. Wells, 538 U.S. 440
(2003) (the “Clackamas Test”), the question whether a
shareholder-director of a professional corporation,
such as Lemon, is entitled to the protection afforded by
Title VII depends upon whether the professional
corporation, here MB, has the right to control the
individual.

App. 138
The Clackamas Test furthers Title VII’s protective
function by refusing to allow labels such as partner,
shareholder and director to take individuals out of
Title VII’s coverage when those persons are in reality
subject to the organization’s control. Individuals such
as Lemon remain vulnerable to the kinds of treatment
prohibited by Title VII when those [16] who are most
able to control MB’s practices exercise that control over
the individual.
The Clackamas Test provides six factors that
distinguish between those who manage the business
and those who are subject to that business’ control.
While the district court gave lip service to the
Clackamas Test, its application of that test was flawed.
The proposed amended complaint identifies three
categories of MB’s administrative functions through
which it exercised control over Lemon. Those administrative functions include: 1. its written employment
policies contained in Lemon’s employment contract,
MB’s compensation plan, and its shareholders’
agreement; 2. its adopted employment procedures
including the conduct of the managing shareholder,
defendant Lynn Borchers, and the conduct of MB’s
Management Committee; and, finally, 3. MB’s employment practices. In all, the proposed amended complaint alleges at least nineteen well-pled allegations,
which militate in favor of Lemon being an “employee”
with standing under Title VII. The Clackamas Test is
a fact intensive one, and the true nature and scope of
these allegations can only be discovered through
discovery.

App. 139
[17] While the district court in this case erred in
holding that the proposed amended complaint failed
to allege sufficient allegations to support Lemon’s
contention that she should be entitled to the protections of Title VII, a proper application of the
Clackamas Test results in the conclusion that the
allegations support her contention that she is actually
an employee subject to MB’s control. The judgment of
the district court should be reversed, and the case
remanded for further proceedings.
B. Section 1981 Claim.
The district court erred in by dismissing Lemon’s
Section 1981 claim for race discrimination for the
purported failure to state a claim under Fed. R. Civ. P.
12(b)(6). Lemon asserted a Section 1981 claim for race
discrimination for Defendants’ denying Lemon her
election to participate in the firm’s STL plan. Lemon
alleged that Defendants deviated from their longstanding policy and practice to deny Lemon’s election
for STL participation, notwithstanding her qualification for the same when they had previously approved
multiple white or Caucasian attorneys/shareholders
whether they “qualified” or not through ministerial
approval process and without unwarranted scrutiny.
The district court acknowledged that Lemon asserted
facts showing she was [18] treated differently from
other (white/Caucasian) attorney/shareholders who
sought participation in STL plan. However, contrary to
Supreme Court and Fourth Circuit precedent, the
district court erroneously found that Lemon did not

App. 140
allege sufficient facts showing the she was treated
differently because of race discrimination.
For pleading purposes, plaintiffs are not required
to plead a prima facie case for Section 1981 actions
because this would impose a “heightened pleading
standard” that would conflict with Fed. R. Civ. P.
8(a)(2). Our courts require only that Lemon allege
sufficient facts rising above a speculative level to show
a plausible claim. The district court acknowledged that
Lemon was not required to assert a prima facie case
for Section 1981, but then evaluated her allegations
using the prima facie standard. The district court
failed properly consider the significance of Lemon
alleging the significant departures from the “normal”
procedural and substantive sequence that our
Supreme Court has recognized may afford evidence
that racial discrimination played a role in the decision.
At the pleading stage, these factual allegations should
sufficiently meet the standard, particularly when the
treatment of similarly situated (i.e. attorney/
shareholders) outside the protected class are treated
differently. [19] There is no obvious alternative explanation for the difference in treatment other than
the plausible explanation of being treated differently
because of race. Lemon does not merely rely on
conclusory allegations or threadbare recitals of the
elements of a Section 1981 claim. Rather, unlike the
plaintiffs in Iqbal, Twombly, and McCleary-Evans, but
like the plaintiff in Swierkiewicz, Lemon alleged
multiple, well-plead facts showing Defendants refused
to grant her the ministerial approval to participate in

App. 141
the firm’s STL plan, as they had granted for other
attorneys/shareholders outside the protected class. As
such, Lemon should be permitted to pursue her claim
through discovery so that her evidence can be tested
for summary judgment.
STANDARD OF REVIEW
Appellate courts review de novo the district court’s
dismissal of a complaint for purported failure to state
a claim under Fed. R. Civ. P. 12(b)(6). Covert v. LVNV
Funding, LLC, 779 F.3d 242, 244 (4th Cir. 2015). Fed.
R. Civ. P. 8(a)(2) requires “only a short and plain
statement of the claim showing that the pleader is
entitled to relief, in order to give the defendant fair
notice of what the . . . claim is and the grounds upon
which it rests.” McCleary-Evans v. Md. DOT, 780 F.3d
582, 585 (4th Cir. 2015).
[20] “To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Id. “In other
words, the complaint’s factual allegations must
produce an inference of liability strong enough to
nudge the plaintiff ’s claims ‘across the line from
conceivable to plausible.’ ” Nemet Chevrolet, Ltd. v.

App. 142
Consumeraffairs.com, Inc., 591 F.3d 250, 256 (4th Cir.
2009) (citing Iqbal, 556 U.S. at 683). Satisfying this
“context-specific” test does not require “detailed factual
allegations.” Id. at 256. The complaint must, however,
plead sufficient facts to allow a court, drawing on
“judicial experience and common sense,” to infer “more
than the mere possibility of misconduct.” Id.
In this regard, a plaintiff is not required to plead
facts that constitute a prima facie case in order to
survive a motion to dismiss. Coleman v. Md. Court of
Appeals, 626 F.3d 187, 190 (4th Cir. 2010)(citing
Swierkiewicz v. Sorema N.A., 534 U.S. 506 (2002)).
However, the factual [21] allegations much be enough
to raise a right to relief above the speculative level. Id.
In weighing the legal sufficiency of the complaint,
the court is “required to view the facts and all
justifiable inferences arising therefrom in the light
most favorable to the nonmoving party.” Foster v. Univ.
of Md.-E. Shore, 787 F.3d 243, 248 (4th Cir. 2015). The
court need not, however, accept as true a complaint’s
“legal conclusions, elements of a cause of action, and
bare assertions devoid of further factual enhancement.” Nemet Chevrolet. Ltd. v. Consumeraffairs.com,
Inc., 591 F.3d 250, 255 (4th Cir. 2009).
Although the review standard for motions to
amend are typically subject to abuse of discretion
review, where the trial court denies the motion to
amend on futility grounds, the Court employs a de novo
standard of review. United States ex rel. Ahumada v.
NISH, 756 F.3d 268, 274 (4th Cir. 2014).

App. 143
[22] ARGUMENT
I.

The trial court erred as a matter of law by
dismissing Lemon’s discrimination and
retaliation claims under Title VII for
purported failure to state a claim since
Lemon was entitled to protections afforded
by Title VII when properly applying the
Supreme Court’s right to control test, as
articulated in Clackamas Gastroenterology
Associates P.C. v. Wells, 538 U.S. 440 (2003).
A. Introduction.

Title VII of the Civil Rights Act of 1964 (“Title
VII”) protects employees from unlawful discrimination. The question presented in this case is whether
Lemon, who was an employee of the defendant as well
as a shareholder and director of the professional
corporation, as an “employee” within in the meaning of
that coverage provision when she did not actively
participate in the operation of the law firm’s practice.
That question of employee status arises under Title
VII, just as it does under the ADA and the Age
Discrimination in Employment Act, all of which
contain similar coverage. 42 U.S.C. § 2000e-2(a).
In resolving the question whether Lemon, as a
shareholder-director, is an “employee” within the
meaning of Title VII, the district court failed to place
diapositive weight on the common law element of
control which is the principal guidepost that should be
followed in this case. That was [23] error. Under Title
VII, in deciding whether a shareholder-director is an

App. 144
“employee,” a court should examine the actual
relationship between those individuals and the
corporation to determine whether they function more
like employees than proprietors. In particular, a court
should examine whether the shareholder-director
operates independently and manages the business, or
instead is subject to the law firm’s control. If the
shareholder-director operates independently and
manages the business, she is a proprietor and not an
employee. On the other hand, if she is subject to the
law firm’s control, she is an employee.
B. Common Law Right to Control.
The question whether a person is an employee
arises under Title VII of the Civil Rights Act of 1964
arises because not only that Title VII has a 15employee minimum threshold for coverage, but that
issue also arises because Title VII extends it
nondiscrimination protections only to “employees.” See
42 U.S.C. § 2000e-2(a)(“It shall be an unlawful
employment practice for an employer to fail or refuse
to hire or to discharge any individual or otherwise to
discriminate against any individual with respect to his
compensation, terms, conditions, or privileges of
employment, because of such individual’s race, color,
religion, [24] sex, or national origin . . . ”) Under the
terms of Title VII, the “employees” who may invoke the
Title VII protections against discrimination are the
same “employees” who count towards the 15-employee
threshold for coverage. 42 U.S.C. § 2000e(b). To decide
who qualifies as an employee for purposes of satisfying

App. 145
the Title VII’s minimum coverage formula, it is
therefore necessary to decide to whom Congress
intended to extend protection against discrimination
in employment.
In Clackamas, the Supreme Court set out a test
for determining whether a shareholder-director of a
professional corporation is an “employee” for purposes
of the Americans with Disabilities Act of 1990 (ADA).
Clackamas Gastroenterology Associates, P.C. v. Wells,
538 U.S. 440, 449-50 (2003). It has been held that this
test applies to professional corporations in a Title VII
employment action, such as the one before this Court.
Mariotti v. Mariotti Bldg. Products, Inc., 714 F.3d 761
(3rd Cir. 2013). The Clackamas Court held that the
common law’s definition of the master-servant
relationship provides helpful guidance to determine
whether an individual is an employee. The Court
noted, “[alt common law the relevant factors defining
the master-servant relationship focuses on the master’s control over the servant. The general definition of
the term [25] “servant” in the RESTATEMENT (2ND) OF
AGENCY § 2(2)(1957), for example, refers to a person
whose work is “controlled or is subject to the right to
control by the master.” Clackamas, 538 U.S. at 448. The
Clackamas Court held that, “We think that the
common law element of control is the principal
guidepost that should be followed in this case.” Id. The
Clackamas Court then considered and adopted specific
EEOC Guidelines that discuss both the broad question
of who is an “employee” and the narrower question of
when partners, officers, members of boards of directors,

App. 146
and major shareholders qualify as employees. See 2
EQUAL EMPLOYMENT OPPORTUNITY COMMISSION COMPLIANCE MANUAL §§ 605: 008-605:0010 (2000).
The EEOC’s guidance sensibly captures the class
of intended beneficiaries of Title VII’s protections. By
refusing to allow labels such as partner, shareholder,
and director, to take individuals out of Title VII’s
coverage when those persons in reality are subject to
the organization’s control, the EEOC’s approach
ensures that Title VII’s protections will extend to those
who, despite their titles, remain vulnerable to the
kinds of treatment prohibited by Title VII. Conversely,
by classifying as non-employees those shareholders,
partners, officers and directors who [26] actually own
and manage the business, the EEOC’s guidance
excludes from protection those who are most able to
control the firm’s practices and who, as a consequence,
are least vulnerable to discriminatory treatment
prohibited by Title VII.
C. The Clackamas Factors.
1. Overview.
At all material times, Lemon was a shareholderdirector of MB. It is now well established that shareholder-directors of a corporation are not automatically
“employers,” and placed outside the protection of the
antidiscrimination laws such as Title VII, just because
they have elected to organize their business as a
corporation. Clackamas, 538 U.S. at 451 (“the mere fact
that a person has a particular title – such as partner,

App. 147
director or vice president – should not be used to
determine whether he or she is an employee or a
proprietor.”)
Drawing on the guidelines of the Equal Employment Opportunity Commission (“EEOC”) applicable to
determining whether “partners, officers, members of
board of directors and major shareholder qualify as
employees,” the Clackamas Court declared that six
factors in the EEOC guidelines were “related to the
inquiry whether a shareholder-director is [27] an
employee.” Id. at 449. The six EEOC factors relevant to
this inquiry are:
1)

Whether the organization can hire or fire the
individual or set the rules and regulations of
the individual’s work;

2)

Whether and, if so, to what extent the
organization supervises the individual’s work;

3)

Whether the individual reports to someone
higher in the organization;

4)

Whether, and, if so, to what extent the individual is able to influence the organization;

5)

Whether the parties intended that the
individual be an employee, as expressed in
written agreements or contracts; and

6)

Whether the individual shares in the profits,
losses, and liabilities of the organization.

Id. at 449-50.

App. 148
These factors are not intended to be exhaustive.
Id. at 455 fn. 10. The EEOC’s guidance cites with
approval Courts of Appeals’ decisions that share the
EEOC’s basic approach and elaborate and expand
upon the EEOC’s factors. See EEOC 10 Compl. Man.,
Supra, at 605:009 n78 (citing Serapion v. Martinez, 119
Fed.3d 982, 989-990 (1st Cir. 1997) cert. den., 522 U.S.
1047 (1998)). For example, the First Circuit in
Serapion focused on, inter alia, to what extent the
individual’s compensation is based on [28] the law
firm’s profits, the level of the individual’s fringe
benefits as compared with non-owners, and participation in firm governance.
The Clackamas test is a fact intensive one; therefore, cases requiring application of the test are generally resolved at the summary judgment stage, rather
than at the motion to dismiss stage. See Decotiis v.
Whittemore, 635 Fed.3d 22, 35 n. 15 (1st Cir. 2011)
(noting in other context that courts hesitate to dispose
of the fact intensive inquiry at motion to dismiss
stage). Indeed, most of the Circuits’ decisions in
applying the Clackamas factors dealt with motions for
summary judgment, rather than motions to dismiss.
2. Employment Policies.
MB exercised control over Lemon through three
categories of administration:
a.

Its written employment policies;

b.

Its adopted employment procedures; and,

App. 149
c.

Its day-to-day employment practices.

These categories of administration are addressed
in turn as follows:
a. Employment Agreement.
Upon her initial employment with MB, Lemon
entered into an employment agreement (“employment
agreement”), which set forth the [29] terms and
conditions of her employment. JA 67-74, 384. On its
face, the employment agreement provides that it would
apply to Lemon both before and after she might
become a shareholder. Id. § 3 of the employment
agreement provides:
3. TERM. This agreement shall be terminated by
the EMPLOYEE at any time upon thirty (30) days
written notice which written notice shall be
considered to be given upon the offer of any
stock in the EMPLOYER, by the EMPLOYEE,
to the EMPLOYER. (Emphasis added)
JA 68. In other words, Lemon could quit on 30-days
written notice. This provision allows that notice to be
given two ways: first, by Lemon providing notice to MB
of her intention to quit at the expiration of 30 days
from the date of the notice. Alternately, Lemon could
offer to allow MB to redeem her stock. § 3 provides that
such offer of redemption serves as a 30-day notice to
quit.
This “offer of redemption” provision ties directly to
§ 3 of the shareholder agreement, which provides in
relevant part as follows:

App. 150
a.

No Shareholder, while an employee of the
Firm, may transfer, or otherwise dispose of
his/her shares of stock in the Firm without
first granting the Firm a right of first refusal
to purchase such shares from Shareholder . . .
If the offer is rejected by the Firm, then the
offering Shareholder may transfer all his or
[30] her shares for the price provided for in
Paragraph 5 to any licensed member of the
North Carolina State Bar, . . .

JA 77. Therefore, if Lemon wanted to sell her shares in
the firm to another attorney, she must first offer those
shares to the Firm, her Employer. § 3 of Lemon’s
employment agreement makes the offer an automatic
“notice to quit.” JA 68. The result is that the interplay
between § 3 of the employment agreement and § 3 of
the shareholder agreement creates a stock transfer
restriction which allows Lemon to sell her stock only
on the pain of termination of her employment.
Lemon and MB entered into this employment
agreement on October 5, 2001. JA 67-74, 384. Lemon
did not become a shareholder until January 2, 2007,
more than five years later. JA 387. Only after Lemon
became a shareholder did the stock redemption
provision of this § 3 take effect.
This stock redemption provision confirms that the
parties to the agreement intended the agreement to
survive Lemon becoming a shareholder.
If the parties intended that the employment
agreement would be superseded by a shareholder
agreement, this provision would have no meaning. Yet,

App. 151
the law provides that all provisions in a contract shall
be [31] given effect. Estate of Waters v. Comm’r, 48 F.3d
858, 843 (4th Cir. 1995). Under Clackamas Factor 5
(the parties’ intent that the individual be an employee,
as expressed in written agreements) this fact militates
in favor of Lemon being an employee.
§ 4 of the employment agreement provides in
relevant part:
4. PERFORMANCE . . . EMPLOYEE also
agrees to perform such other duties as are
assigned to EMPLOYEE from time to by the
EMPLOYER. It is understood and agreed that the
EMPLOYER shall have complete control and
authority with respect to the acceptance or refusal
of any client and the amount of any fee charged by
the EMPLOYER for EMPLOYEE’S service.
(Emphasis added).
JA 68. This section provides that the firm have the
authority to set the rules and regulations of Lemon’s
work (Clackamas Factor 1); that the organization has
the authority to supervise Lemon’s work (Clackamas
Factor 2); and, that Lemon is expected to report to
someone higher in the organization (Clackamas Factor
3).
Under Clackamas Factors 1, 2 and 3, these facts
militate in favor of Lemon being an employee.
§ 7 of the employment agreement provides that
Lemon’s “compensation shall be paid pursuant to a
compensation plan adopted by [32] the EMPLOYER’S
BOARD OF DIRECTORS, which may be amended

App. 152
from time to time without the consent of the
EMPLOYEE.” JA 69 (emphasis added). Under
Clackamas Factors 4 and 6, this fact militates in favor
of Lemon being an employee. This compensation plan
is further considered at § 2.c., below.
§ 13.1 of the employment agreement provides in
relevant part as follows:
13.1. The EMPLOYER MAY TERMINATE THIS
AGREEMENT, without cause and at any time, by
giving at least thirty (30) days written notice to
employee of its intention to terminate, and the
EMPLOYER shall only be obligated to continue to
pay EMPLOYEE the salary due EMPLOYEE
under this agreement up to the termination date
stated in said written notice. (emphasis added)
JA 70-71. Lemon was paid a salary and was issued a
W-2, even after she became a shareholder. JA 385.
Throughout the tenure of her entire MB employment,
Lemon was never issued a form K-1. JA 386. Therefore,
she was not compensated for her services in any
capacity other than as an employee. JA 385-86.
Under Clackamas Factors 1 (whether the
organization can fire the individual) and 6 (whether
the individual shares in profits), these facts militate in
favor of Lemon being an employee. She can be fired
without [33] cause and she is paid a salary, the plain
meaning of which is not a share of profits.
§ 14 of the employment agreement provides in
relevant part as follows:

App. 153
14. DEATH OF EMPLOYEE. In the event of
EMPLOYEE’S death during the term of this
agreement, . . . EMPLOYEE’S estate shall be
entitled to receive the salary due EMPLOYEE. . . .
JA 71. Under Clackamas Factor 6 (whether the
individual shares in profits), this fact militates in favor
of Lemon being an employee. This contractual
provision reinforces the salary based compensation
reflected in § 13.1, discussed above.
§ 16 of the employment agreement provides as
follows:
16. EMPLOYER’S AUTHORITY. EMPLOYEE agrees (i) to observe and comply with the
personnel policies, the operating policies and
procedures, and all other rules and regulations of the EMPLOYER, either orally or in
writing, and related to the performance of
EMPLOYEE’S duties and (ii) to carry out and
to perform orders, directions, and policies
stated by the EMPLOYER to EMPLOYEE,
from time to time, either orally or in writing.
JA 72. Under Clackamas Factors 1, 2, 3 and 4, these
facts militate in favor of Lemon being an employee. The
organization sets the rules and regulations of the
individual’s work as provided in Clackamas Factor 1.
[34] The organization has a right to control Lemon’s
work as provided in Clackamas Factor No. 2. Indeed,
on its face, the employment agreement requires Lemon
to obey even oral orders given by the EMPLOYER,
apparently without hesitation or discussion, much like
a new recruit is expected to obey the orders of a drill

App. 154
sergeant. Lemon therefore, reports to someone higher
up in the organization (Clackamas Factor 3), and she
is not allowed to influence orders given her from time
to time, either orally or in writing (Clackamas Factor
4).
b. Shareholder Agreement.
On January 2, 2007, Lemon signed the then
existing shareholder agreement of MB. JA 75-363, 387.
This shareholder agreement is a standard buy-sell
agreement. It is functionally the equivalent to a
garden-variety corporate buy-sell agreement. It provides limitations on the transfer of stock (§§ 1-4); it
provides terms and conditions of the purchase and sale
of stock (§§ 5-11) and it contains standard administrative boilerplate provisions (§§ 12-18). JA 76-85.
Becoming a shareholder did not alter Lemon’s
status as an employee as set forth in the employment
agreement, referenced in ¶2.a., above. [35] Therefore,
the shareholder agreement, by its terms, militates in
favor of Lemon being an employee.
c. Compensation Plan.
As noted in ¶2.a., above, Lemon’s employment
agreement incorporated by reference the MB attorney
compensation plan. JA 364371, 386.
The compensation plan provides three compensation formulas:

App. 155
•

A compensation plan for non-shareholders;

•

A compensation plan for standard shareholders; and

•

An alternative shareholder compensation
plan, designed for shareholders with a
reduced billable hour expectation.

Id. Aside from lateral associates and counsel (who are
governed by individual agreements), associates are
compensated on a purely production basis, unrelated
to firm profits and losses. That formula is as follows:
0.38 x Associate Billing Rate x 1,600 x 0.95.
JA 365. Both the standard shareholder plan and the
alternative shareholder plan have two components:
base compensation, an objective component, and a
subjective component.
[36] The shareholder’s base compensation is, in
essence, a salary. It is entirely unconnected to a
shareholder’s share of profits or losses, but rather is
tied to the following formula, which is substantially
identical to the associates’ production-driven formula:
•

Standard shareholders: 0.4 x Shareholder
Billing Rate x 1,600 x 0.95;

•

Alternative: 0.4 x Shareholder Billing Rate x
1,200 x 0.95

JA 366, 370. Next, the objective component is not
directly related to the shareholder’s share of profits
and losses. It is rather derived from the shareholders’
performance.

App. 156
The objective component starts with the Individual Shareholder Collections – in other words, the
shareholder’s “eat what you kill” production. Second,
there is a deduction for “Average Firm Expenses,”
which is defined as the firm expenses divided by the
number of shareholders. This step ties shareholder
compensation not to the firm’s profit and loss, but
rather to the individual shareholder’s profit and loss.
Third, the shareholders’ collections are reduced by a
production-driven base compensation formula.
Finally, the subjective component is basically
popularity contest. The subjective component has two
parts: the first part, by its terms, is to [37] compensate
a shareholder for mandatory non-billable contributions to the firm. JA 367, 370-71. This first part is not
linked to the profits or losses of the firm.
The second part of the subjective component is
based on proposals submitted by the individual
shareholders. JA 368-69, 372. This second part
includes a “pot of money” remaining after payment of
the objective component (above) less a carve-out for
management including the Management Committee
and managing shareholder. JA 368. This pot of money
is allocated by a “vote” of the shareholders.
Accordingly, a shareholder’s total compensation is
determined first by the based compensation, and then
supplemented by the objective and subjective components.
The purpose of the plan is to allocate fully all of
the firm’s earnings to the shareholders based primarily

App. 157
on their individual efforts (the objective component)
and allocating the remaining income among the
owners by a vote of those owners. There is no direct
link between shareholder ownership and the firm’s
profits and losses (Clackamas Factor 6). Therefore, the
compensation plan militates in favor of Lemon being
an employee.
[38] 3.

Employment Procedures.

a. Managing Shareholder Control.
MB’s bylaws established the position as managing
shareholder JA 387. At all material times, Borchers
was MB’s managing shareholder. JA 381. Although the
firm’s bylaws set forth the duties and responsibilities
of all of the officers of the organization, at all material
times, Borchers, in her capacity as managing shareholder, was the only officer with any actual authority.
JA 387. In fact, at all material times, all attorneys at
the firm, associates as well as shareholders, reported
to Borchers as managing shareholder. JA 385.
Therefore, the well-plead allegations of the amended
complaint contend that Lemon reported to Borchers as
managing shareholder, who was someone higher in the
organization. Under Clackamas Factor 3, this fact
militates in favor of Lemon being an employee.
b. Management Committee Control.
MB’s bylaws established a Management Committee of five shareholders to be elected by the firm’s board
of directors. JA 388-89. The Management Committee

App. 158
was given the authority to manage the firm and carry
out such duties as the board of directors might
delegate from time [39] to time to carry out the legal
practice and administrative affairs of MB. Id. In
reality, the board of directors surrendered control of
the organization to the Management Committee,
which, along with the managing shareholder, excluded
other shareholders and board members from participating in the management of the organization. JA 389.
Therefore, even though Lemon was a shareholderdirector, she was a “shareholder-director” in name only.
She had no actual power to act independently, nor did
she have power to participate in managing the
organization. She was, rather, subject to the control of
the managing shareholder and Management Committee. As such, the protections afforded by Title VII
should extend to Lemon since she, despite her titles,
remained vulnerable to the kinds of treatment prohibited by Title VII.
The Management Committee controlled the
organization in the following ways:
i.

The Management Committee scheduled all
meetings of the board of directors. JA 389.

In management, timing is everything, or, as
Agesilaus wrote in Plutarch Lives “it is circumstance
and proper timing that give an action its character and
make it either good or bad.” Timing is a powerful
element of control. The party who controls the timing
of an event has a [40] clear advantage over those who
do not. Those in control can be prepared; those not in

App. 159
control are left to scramble for footing and can never
be as effective as those who control the timing.
ii.

Management
agenda, Id.

Committee

controlled

the

Control over an agenda is control over information, and control over information is a management
tactic used to suppress opposition. In the words of
Francis Bacon, “knowledge is power.” (Meditationes
Sacrae, 1597.) And repeated by John F. Kennedy at an
address delivered at the University of California,
Berkley, March 23, 1962, “in a time of turbulence and
change, it is more true than ever that knowledge is
power.”
By controlling the information presented to MB’s
board of directors the Management Committee
exercised control over the board of directors. Id.
iii. The Management Committee recommendations were followed as a matter of course. Id.
Rubber stamp boards are not new and are not
uncommon. In the recent update to the “FDIC Pocket
Guide for Directors,” the Federal Deposit Insurance
Corp. reminded bank directors that it is their job to use
independent judgment (https://invictusgp.com/2016/04/
dont-be-a-rubberstamp, last visited August 6, 2019).
MB failed to heed such cautionary [41] tales, however,
and because the board became a rubber stamp, the
members of its board of directors were “directors” in
name only.

App. 160
Even though Lemon had the title of “board
member,” it did not provide her with an ability to
influence the organization. As noted by the Court in
Clackamas, “the mere fact that a person has a
particular title – such as partner, director, or vice president – should not necessarily be used to determine
whether he or she is an employee or a proprietor.”
Clackamas at 448. The answer to whether a
shareholder-director is an employee depends on “all of
the incidents of the relationship . . . with no one factor
being decisive, Clackamas at 448 (quoting Nationwide
Mutual Insurance Co. v. Darden, 503 U.S. at 324, 112
S. Ct. 1334 (1992)). Since she was a member of a
rubberstamp board, her title of director provided no
more ability to influence than if she were an employee.
Therefore, under Clackamas Factor 4 (whether the
individual is able to influence the organization), this
fact militates in favor of Lemon being an employee.
4. Employment Practices.
a. Overview.
In addition to the employment policies and procedures discussed in Sections 2 and 3, above, the
employment practices of MB demonstrate [42] that
Lemon should be regarded as an employee for
purposes of Title VII. Examples of these practices are
pled in the amended complaint, and are considered
below.

App. 161
b. Gender Discrimination Investigation.
During the summer of 2016, MB engaged an
attorney to investigate gender discrimination at the
firm. JA 392. Lemon met with the investigator on June
2, 2016. Id. During that interview, the investigator
advised Lemon that he did not represent her in that
investigation. Id.
If Lemon’s role in MB was the same as a partner
in a partnership, as alleged in the amended complaint,
then the investigator would have, as a matter of law,
represented Lemon along with the other “partners” in
MB. JA 386.
At first glance, it could be tempting to suggest that
the investigator intended to advise Lemon, that while
he represented her in her ownership capacity, he did
not represent her in her individual capacity, at least to
the extent that her interest might be adverse to MB.
However, that suggestion is beyond the scope of the
pleadings. And, this court’s review is limited to the
well-pled facts that are assumed to be true in the [43]
amended complaint (Trulock, supra); and all reasonable inferences drawn in favor of Lemon, as plaintiff
(Edwards, supra).
The investigator prepared a confidential memorandum for the firm. Lemon requested an opportunity
to review the confidential memorandum but that
request was denied. JA 392. This denial blocked
Lemon’s ability to analyze the report and prepare a
response based on her personal knowledge of aspects

App. 162
of the investigation. This truncated Lemon’s ability to
influence the organization.
The nature and scope of the investigator’s representation and the nature and content of the confidential memorandum are then facts, the precise
contours of which can only be discerned through
discovery. Dismissal at this time would be premature.
Therefore, at this stage of the proceeding, under
Clackamas Factor 4 (whether the individual is able to
influence the organization), this fact militates in favor
of Lemon being an employee.
c. STL Plan Application.
In September 2016, Lemon requested to take a
short-term leave of absence pursuant to the terms of
MB’s STL plan. JA 397. Lemon’s request was considered by the Management Committee, which placed
Lemon’s [44] request on the agenda for the October 19,
2016 Board of Directors meeting. JA 398-99.
During that board of directors’ meeting, Borchers,
acting in her capacity as managing shareholder,
ordered Lemon to leave the board meeting so that her
request could be discussed in her absence. JA 399.
Lemon thereupon left the board meeting. Id.
Under North Carolina law, a director owes the
organization a fiduciary duty. Harris v. Testar, Inc., 243
N.C. App. 33, 38 (2015); N.C. Gen. Stat. § 55-8-30(a)(3).
Pursuant to N.C. Gen. Stat. § 55-8-30(a)(2) and (3), a
director shall discharge her duties as a director with

App. 163
the care an ordinary prudent person would exercise
under similar circumstances, and in a manner the
director reasonably believes to be in the best interests
of the corporation. It would be reasonable and prudent
for Lemon to attend and participate in board of
directors meetings. It would be unlikely for the
managing shareholder to intentionally compel Lemon
to breach her fiduciary duty by expelling her from the
board meeting. Therefore, the logical conclusion would
be that the managing shareholder did not view Lemon
as a legitimate board member, but rather, viewed her
as a board [45] member in name only. After all, the
exclusion from the board meeting prevented Lemon
from any opportunity to influence the organization.
Upon her return to the board of directors’ meeting,
Lemon’s STL request was denied. JA 400. Based on
Clackamas Factor 4 (whether the individual is able to
influence the organization), this fact militates in favor
of Lemon being an employee.
d. Exercise of Power to Terminate.
In November 2016, Lemon learned that the
Management Committee had considered a proposal to
terminate her employment with MB. JA 405. This fact
corroborates the provision in Lemon’s employment
contract that provides that the organization could fire
Lemon. This provision was considered in § 2.a, above.
§ 13.1 of the employment contract specifically provides
that the organization can fire Lemon on 30 days’ notice.
JA 70-71. If the organization did not have the power to

App. 164
fire Lemon, the Management Committee would not
have taken up Lemon’s termination for consideration.
Therefore, based on Clackamas Factor 1 (whether the
organization can fire the individual), this fact militates
in favor of Lemon being an employee in addition to
being demonstrative of Lemon being subject of control
by MB.
[46] e. Supervision of Work Product and
Performance.
At the October 19, 2016, board of director’s
meeting, discussed above, the managing shareholder,
Borchers, directed that Lemon be punished for what
she perceived as performance failures. JA 402. Borchers took this action under her apparent authority as
Lemon’s supervisor. In response, an amendment to the
compensation plan was adopted which was specifically
aimed at and intended to punish Lemon for such
performance failures. JA 402-03. The organization,
therefore, set rules and regulations, which controlled
Lemon’s work, and took measures to supervise Lemon’s work by punishing her for perceived performance
failures. Therefore, based on Clackamas Factors 1 (set
the rules and regulations of Lemon’s work), 2
(supervise Lemon), and 3 (Lemon reports to someone
higher in the organization), these facts militate in
favor of Lemon being an employee.
Again in November, 2016, Borchers emailed
Lemon to inform her that “workplace concerns” were
being placed on the November 8, 2016 meeting of the
board of directors. JA 406. And, again, Borchers was

App. 165
acting under the apparent authority as Lemon’s
supervisor in an effort to [47] supervise Lemon’s work.
Therefore, under Clackamas Factors 1, 2, and 3, these
facts militate in favor of Lemon being an employee.
D. Summary and Conclusions.
Application of the Clackamas Factor Test to this
case reveals that Lemon was an employee of MB.
1. Factor 1: Whether the organization can hire or
fire the individual or set the rules and regulations of
the individual’s work.
•

The employment agreement provides that:
1.

MB can fire Lemon on 30 days’ notice;

2.

MB can require Lemon to perform
assigned duties;

3.

MB has “complete control” over client
selection and fees charged;

4.

MB sets Lemon’s operating policies,
procedures, as well as the rules and
regulations relating to her practice.

•

The Management Committee assumed it
had the power to unilaterally fire Lemon.

•

Borchers had the compensation plan
amended
to
punish
Lemon
for
performance failures.

•

Borchers brought Lemon up on charges
for perceived performance failures.

App. 166
[48] 2. Factor 2: Whether and, if so, to what
extent the organization supervises the individual’s
work.
•

The employment agreement provides that
Lemon is required to perform all assigned
duties and that MB has complete control over
Lemon’s client base and client charges. It also
provides that Lemon is to observe and comply
with personnel policies and procedures and
all other rules and regulations promulgated
by MB. These supervisory requirements are
not only related to written regulations but
also to any oral orders, directions and policies.

•

Borchers, as managing shareholder, acted
under her apparent authority as Lemon’s
supervisor to hold Lemon accountable for
performance issues, which Borchers perceived
as performance failures.

3. Factor 3: Whether the individual reports to
someone higher in the organization.
•

§ 4 of the employment agreement provides
that MB is required to perform all duties
assigned to her from her “employer” which is,
operationally, the supervisor.

•

§ 16 of the employment agreement provides
that Lemon is required to comply with written
and oral orders and directions, which, from a
chain of command perspective, indicates that
she must report to a higher up.

•

Borchers, in her capacity as managing
shareholder, assumed the role of Lemon’s
supervisor, and in that role, held Lemon

App. 167
accountable for perceived performance
failures on at least two occasions (October 19,
2016 and November 2016).
[49] 4. Factor 4. Whether and, and if so, to what
extent the individual is able to influence the
organization.
•

The compensation plan provides that it can be
amended from time to time without Lemon’s
consent and, in fact, at Borchers’ directions,
MB did just that to punish Lemon for
perceived performance failures.

•

§ 16 of the employment agreement provides
that Lemon is required to follow orders
without question. In this regard, Lemon’s
influence is not only marginalized, but
eliminated.

•

Management Committee recommendations
were followed as a matter of course, leaving
Lemon with no influence, even with the title
of “board member.”

•

Lemon’s treatment during the gender
discrimination investigation demonstrates
that she had no influence over the course and
scope of the investigation and, was, in fact,
barred from reviewing the investigator’s
report.

•

Lemon’s exclusion from the board of director’s
meeting during which her STL plan
application was considered prevented her
from having any influence with the firm.

App. 168
5. Factor 5: Whether the parties intended that
the individual be an employee, as expressed in written
agreements or contracts.
•

Under § 3 of the employment agreement, any
notice of employment termination provided by
Lemon would be considered an offer of
Lemon’s stock to the firm. This stock redemption provision confirms that the employment
agreement remained in full force and effect
after Lemon became a shareholder.

[50] 6. Factor 6: Whether the individual shares
in the profits, losses, and liabilities of the organization.
•

§ 7 of the employment agreement provides
that Lemon’s compensation shall be paid
pursuant to the firm’s compensation plan. The
purpose of that plan is to allocate all of the
firm’s earnings based primarily on performance, not based on the firm’s profits or losses.
That portion of compensation not allocated
based on performance is allocated, instead, by
vote of the shareholders, which is also
independent of the firm’s profits and losses.
Sections 13.1 and 14 of the employment
agreement reference employee being paid on
a salary basis. This is consistent with Lemon
being issued a W-2, and not a K-1. In addition,
this further compels the conclusion that
Lemon was not paid based on the firm’s profits
or losses.

The amended complaint contains sufficient allegations of MB’s control over Lemon for the purpose of her
employment to state a plausible claim and warrant

App. 169
discovery on this issue. The standard of proof at this
point is lower than the standard of proof required for
summary judgment. See Weidman v. Exxon Mobil
Corp., 776 F.3d 214, 219 (4th Cir. 2015); Celotex Corp.
v. Catrett, 477 U.S. 317, 407 (1986).
There is evidence in the record that calls into
question the district court’s findings. The Court should
therefore remand for a determination whether, under
the correct legal standard, Lemon is an employee for
purposes of the protections afforded an employee by
Title VII.
[51] II.

The district court erred as a matter of
law when it dismissed Lemon’s race
discrimination claim under Section
1981 for its purported failure to state a
claim under Fed. R. Civ. P. 12(b)(6) since
Lemon alleged sufficient facts giving
rise to a reasonable inference that race
improperly
influenced
Defendant’s
deviation from its longstanding policy
and practice in its denial of Lemon’s
election for STL status for which she
was qualified.

A. Introduction.
Section 1981 affords a federal remedy against
discrimination in private employment inter alia based
on race. Johnson v. Ry. Express Agency, Inc., 421 U.S.
454, 459-60 (1975). The statute provides that “all
persons . . . shall have the same right . . . to make and

App. 170
enforce contracts . . . as is enjoyed by white citizens.”
42 U.S.C. § 1981(a). This right extends, for example, to
“the making, performance, modification, and termination of contracts, and the enjoyment of all benefits,
privileges, terms, and conditions of the contractual
relationship.” Id.; 42 U.S.C. § 1981(b). Plaintiffs may
establish a Section 1981 claim through a mixedmotive. Farm Labor Org. v. Ohio State Highway Patrol,
308 F.3d 523, 536 (6th Cir. 2002); Penna v. Porter, 316
F. App’x 303, 316-17 (4th Cir. 2009).
In her amended complaint, Lemon alleged that
Defendants violated Section 1981 when they deviated
from MB’s longstanding practice by denying Lemon’s
election for STL status – normally a ministerial act –
[52] and taking extreme measures to humiliate her
(e.g. requiring that she appear before the board of
directors to explain her personal health conditions,
etc.) when a multitude of Caucasian attorneys –
whether “qualified” or not, never had to withstand such
scrutiny and were “approved” for their election with no
further information required. JA 40610. The district
court dismissed Lemon’s Section 1981 claim for a
purported failure to state a claim under Fed. R. Civ. P.
12(b)(6). JA 48286, 500-04. Lemon’s claim highlights
the tension present in considering Rule 12(b)(6)
motions for employment cases where the employers
retain the detailed information prior to discovery.
This tension notwithstanding, for the reasons explained infra, the district court erred in the misapplication of the pleading standard for employment
discrimination claims, as set forth in the Supreme

App. 171
Court’s Swierkiewicz decision, and as interpreted in
this Court’s McCleary-Evans decision. See Swierkiewicz v. Sorema N.A., 534 U.S. 506, 510-11 (2002);
McCleary-Evans v. Md. DOT, 780 F.3d 582 (4th Cir.
2015). Iqbal’s plausibility standard does not impose a
probability requirement at the pleading stage; it
simply calls for enough facts to raise a reasonable
expectation that discovery will reveal evidence of
illegal conduct. Lemon [53] provided factual allegations that made her Section 1981 claim plausible and
rose above the speculative level.
B. Iqbal does not require Lemon to plead a
prima facie case to assert a Section 1981
claim.
In Swierkiewicz, our Supreme Court has made
clear that “an employment discrimination plaintiff
need not plead a prima facie case of discrimination . . .
to survive [a] motion to dismiss.” Swierkiewicz, 534
U.S. at 510-15; see also Maduka v. Sunrise Hosp., 375
F.3d 909, 912 (9th Cir. 2004) (“M here is little doubt
that Swierkiewicz governs complaints in section 1981
discrimination actions.”); Brown v. Sessoms, 774 F.3d
1016, 1023 (D.C. Cir. 2014) (“At the motion to dismiss
stage, the district court cannot throw out a complaint
even if the plaintiff did not plead the elements of a
prima facie case.”).
The Supreme Court stated that requiring a
plaintiff to plead a prima facie case would amount to a
“heightened pleading standard” that would conflict

App. 172
with Fed. R. Civ. P. 8(a)(2). Id. The Court concluded that
“the ordinary rules for assessing the sufficiency of a
complaint apply,” referring to Fed. R. Civ. P. 8(a)(2). Id.
Fed. R. Civ. P. 8(a)(2) sets the minimal pleading
standard: “[a] pleading that states a claim for relief
must contain . . . a short and plain statement of the
claim showing that a [54] pleader is entitled to
relief. . . .” Fed. R. Civ. P. 8(a)(2). Rule 8(a)(2) sets forth
a “liberal pleading standard[ ],” one which does not
contemplate the pleading of “specific facts.” Erickson v.
Pardus, 551 U.S. 89, 94 (2007). Whether it be
subsequent decisions in Twombly, Iqbal, or any other
ruling, the Supreme Court has never overruled its
holding in Swierkiewicz for pleading discrimination
claims, which specifically addressed the particularized
standard (c.f. Twombly, Iqbal) as applied to
employment discrimination cases.2
C. The district court misapplied the Swierkiewicz/McCleary-Evans pleading standard.
Citing Swierkiewicz, the district court acknowledged that Lemon was not required to plead facts that
would constitute a prima facie case to survive a motion
to dismiss. JA 500. However, soon after its acknowledgement, the district court continued with an
2

Swierkiewicz involved a Title VII plaintiff who alleged that
his employer wrongfully terminated him due to his national
origin. Iqbal involved a suspected terrorist who alleged that he
was mistreated pursuant to an unconstitutional policy instated
by the United States Attorney General in conjunction with the
Director of the Federal Bureau of Investigations.

App. 173
analysis of Lemon’s allegations in comparison to the
prima facie case standard.3 JA [55] 500-01. While the
district court readily acknowledged that the allegations indicated Lemon “was treated differently from
the others who sought to participate in the STL plan,”
the district court ultimately held that Lemon did not
sufficiently plead the fourth factor of a prima facie case
– that plaintiff was not provided the STL benefit under
“circumstances giving rise to an inference of discrimination.”4 JA 501. In its ruling, the district court
completely discounted the significance of Lemon
alleging facts showing Defendants’ departures from
the normal procedural and substantive sequence that
provides plausible evidence of racial discrimination.
JA 502. Instead, the district court applied a summary
judgment case, Lightner v. City of Wilmington, N.C., to
rule that Lemon failed to show the “similarity between
comparators and the seriousness of their respective
offenses” that “must be clearly established in order to
be meaningful.” Id. The discount of Lemon alleging the
procedural and substantive deviation of policy by
Defendants by applying a summary [56] judgment
standard was in error. Lemon should have the
opportunity to make this evidentiary showing
following the discovery process.
3

Notably, the lower court’s opinion did not explicitly identify
the requisite elements to plead a Section 1981 claim (to the extent
it would differ from the prima facie elements).
4
c.f. Swanson v. Citibank, N.A., 614 F.3d 400, 405 (7th Cir.
2010) (adopting a liberal standard for section 1981 claims, holding
that a section 1981 plaintiff need only allege the type of
discrimination, by whom, and when).

App. 174
In McCleary-Evans, the plaintiff, an AfricanAmerican woman, claimed that a state agency refused
to hire her for two positions for which she applied
because of her race and sex, in violation of Title VII.
McCleary-Evans, 780 F.3d at 583. In support of her
claims, the plaintiff asserted that the agency was
“biased” and had “ ‘predetermined’ that it would select
white applicants to fill the positions. Id. Her complaint,
however, “did not include any allegations regarding the
qualifications or suitability of the persons hired to fill
the two positions.” Id. at 584. In a 2-1 decision, the
majority found that the plaintiff ’s allegations of bias
were “simply too conclusory,” and that the plaintiff
could “only speculate that the persons hired were not
better qualified, or did not perform better during their
interviews, or were not better suited based on
experience and personality for the positions.” Id. at
585-86. Consequently, the Court concluded that the
plaintiff ’s complaint “ ‘stop[ped] short of the line
between possibility and plausibility of entitlement to
relief ’ and was therefore subject to dismissal under
Rule 12(b)(6). Id. at 586 (quoting Iqbal, 556 U.S. at
67879). McCleary-Evans distinguished Swierkiewicz in
large part because the [57] plaintiff in Swierkiewicz
alleged he was “more qualified” than the individual
who received the promotion. Id. at 587.
In his dissent, Judge Wynn noted the difficulty of
applying the Iqbal/Twombly pleading standard to
cases in which the “requisite proof of the defendant’s
discriminatory intent is often in the exclusive control
of the defendant, behind doors slammed shut by an

App. 175
unlawful termination.” Id. at 592 (Wynn, J., dissenting); see also Georges v. Dominion Payroll Servs., LLC,
No. 3:16CV777, 2017 U.S. Dist. LEXIS 136277, 2017
WL 3669029, at *4 n.6 (E.D. Va. Aug. 24, 2017) (noting
the difficulties Justice Wynn addresses in his dissent).
The difficulties expressed by Judge Wynn
notwithstanding, McCleary-Evans is distinguishable
from the present case in at least two significant ways.
Unlike the plaintiff in McCleary-Evans, who alleged
she was simply “qualified” for the positions she sought
and did not provide any allegations regarding the
qualifications of those selected for the position over
her, Lemon alleges that she was in effect “more
qualified” than those attorneys/shareholders outside
the protected class when she sought and was qualified
for STL leave over those who received it and were not
qualified. McCleary-Evans, 780 F.3d at 587 (distinguishing [58] Swierkiewicz in large part because the
plaintiff in Swierkiewicz alleged he was “more
qualified” than the individual who received the promotion).
To be sure, Defendants will argue that Lemon is
required under Iqbal and its progeny to allege detailed
facts about her particular medical, health, and family
circumstances that “qualified” her for the STL leave.
However, we respectfully submit that Lemon should
not be required at the pleading stage to disclose
protected health and personal information other than
she was qualified as well as disclose the specific names
of others outside the protected class who received the
STL benefit for similar medical and health reasons.

App. 176
However, neither Swierkiewicz nor its progeny require
this extent of detail.5 Such argument at the pleading
stage is a red herring because Lemon alleges that there
were “no standards” for STL leave notwithstanding
any purported written policy [59] because the status
was granted to attorneys/shareholders outside the
protected class “ministerially.” JA 408-10.
Lemon does not rely on conclusory allegations or
threadbare recitals of the elements of a Section 1981
claim. Rather, unlike the plaintiffs in Iqbal, Twombly,
and McCleary-Evans, Lemon alleges multiple wellpleaded facts showing that Defendants refused to
grant the ministerial approval for Lemon’s election of
STL status. In her amended complaint, Lemon
asserted the following circumstantial facts giving rise
to an inference of discrimination:
•

5

MB’s STL plan was designed to “provide
greater flexibility for Shareholders to work
reduced hours due to personal illness, family

Also, generally speaking, note the subtle difference in
alleging a discrimination claims for “failure to promote,” as in
McCleary-Evans and other cases, which necessarily entail detailed facts to explain why one applicant within the protected
class was “more qualified” among others outside the protected
class who may have been “qualified,” but not the “most qualified.”
Further, certain details about other employees may be within
Defendants’ exclusive control. Lemon would have no access this
information outside of discovery. In the case at bar, the degree of
“qualification” is not relevant so long as Lemon was “qualified” for
STL leave and others outside the protected class were not
“qualified.”

App. 177
leave, or serious family illness or other
hardship.” JA 397, ¶ 87.
•

Throughout 2016, Lemon experienced numerous events which qualified her for participation in MB’s STL plan and timely notified
Borchers throughout 2016 that she was
experiencing qualifying events under the SLT
plan that made it difficult for her to meet the
1600 billable hour requirement. JA 397-98,
¶¶ 89, 92.

•

At no time did Borchers ever question the
seriousness of Lemon’s qualifying events or
question their legitimacy. JA 397-98, ¶ 90.

•

Borchers followed up with Lemon periodically
to determine whether Lemon was in fact still
experiencing the qualifying events. Id.

•

[60] Lemon (African-American) submitted her
STL request to MB on September 14, 2016.
Lemon was qualified to participate in MB’s
STL plan under the terms and conditions set
forth in MB’s policies, procedures, and customary practices applicable at the time. JA
398, 408; ¶¶ 91, 142.

•

Prior to Lemon’s election, white or Caucasian
attorney/shareholder employees (i.e. same
employment position as Lemon) had likewise
requested to participate in the firm’s STL
plan. At least one of the Caucasian attorney/
shareholders did not even “qualify” under the
explicit terms to participate in the STL plan.
JA 408; ¶¶ 143, 144.

App. 178
•

Unlike Lemon, white or Caucasian attorneys/
shareholders were not required to provide
medical documentation to participate in the
STL plan. JA 398-99, 408; ¶¶ 94, 96-99, 144.

•

White or Caucasian attorneys/shareholders
were not required to “present their case” to
the board of directors and submit to a vote by
the board of directors. JA 398, 408; ¶¶ 94, 144.

•

The STL elections submitted by white or
Caucasian attorneys/shareholders were
approved ministerially (i.e. without medical
documentation) at the Management Committee level. JA 398, 144; ¶¶ 93, 144-47.

•

Attorney/shareholder Julie Richardson told
another shareholder that Lemon “played the
black card too much” when at no prior time
had Lemon made any complaints to MB about
“race” or being “black.” Richardson used this
racial stereotype in a concerted effort to
discredit and isolate Lemon from the
collegiality and support of her colleagues. JA
395, ¶¶ 76-77.

•

During the deliberation by the board of
directors, Julie Richardson, who had complained that Lemon “played the black card too
much,” intentionally mislead the group by
stating she had “wrote the policy” which “was
for prolonged family illness” and she did not
“see how” Lemon’s qualifying [61] events
applied to the SLT plan. JA 400, ¶ 102. Note
the potential “cat’s paw” liability. Amini v.
City of Minneapolis, 643 F.3d 1068 (8th Cir.
2011), cert. denied, 132 S. Ct. 1144 (2012)(if

App. 179
non-decisionmaker performs an act motivated
by bias that is intended to cause and does
proximately cause adverse employment
action, employer is liable under “cat’s paw”
theory); Staub v. Proctor Hosp. 131 S. Ct. 1186
(2011).
•

Borchers denied Lemon the ability to elect or
otherwise participate in the STL plan even
though she was fully qualified because Lemon
was African-American. Borchers was instrumental in influencing other board members to
treat Lemon differently because of race. JA
409, ¶¶ 148-49. (Note also, throughout the
amended complaint, Borchers is alleged to
have had complete “control” over how MB
treated Lemon and her status of employment,
including the STL leave issue)

•

Borchers failed to protect Lemon from experiencing retaliation after engaging in
protected activity regarding her cooperation
in an internal investigation for hostile work
environment for gender (thus, indicating a
general lack of respect for promoting a work
environment free from discrimination –
whether it be gender, race, or other protected
basis). JA 394, ¶ 72, inter alia.

•

Borchers and others sought to force Lemon to
separate from her employment with MB
through the controlling group – and had
discussions related to the same – motivated in
part by unlawful race discrimination. JA 394,
¶ 74.

App. 180
Departures from the normal procedural sequence
also might afford evidence that improper purposes are
playing a role. Vill. of Arlington Heights v. Metro. Hous.
Dev. Corp., 429 U.S. 252, 266-67 (1977). Substantive
departures too may be relevant, particularly if the
factors usually considered important by the decisionmaker strongly favor a [62] decision contrary to the one
reached. Id. Lemon’s multiple allegations regarding
Defendants’ procedural and substantive departures
from the “policy” and past practices undoubtedly provide a reasonable inference to invidious discrimination to meet the plausibility standard. Other than
discrimination or retaliation, there is “no obvious
alternative explanation” for why Defendants deviated
from its past policy and practice to treat Lemon
differently as to the STL plan. The fact that Lemon
alleged gender discrimination and retaliation is
another red herring. The Fed. R. Civ. P. permit the
pleading of alternative claims. Fed. R. Civ. P. 8(d)(2).
Further, once discovery is completed, if provided the
opportunity, Lemon could proceed on a “mixed-motive”
legal theory of liability.6 See Desert Palace, Inc. v. Costa,
123 S. Ct. 2148 (2003); Thomas v. Denny’s, Inc., 111
F.3d 1506 (10th Cir. 1997).

6

Note that the Supreme Court recently granted certiorari on
the issue of whether a mixed-motive analysis can apply for
Section 1981 claims. See Comcast v. National Assoc. of AfricanAmerican Owned Media, No. 181171 (U.S. Sup. Ct. June 10,
2019).

App. 181
Iqbal’s plausibility standard does not impose a
probability requirement at the pleading stage; it
simply calls for enough facts to raise a reasonable
expectation that discovery will reveal evidence of
illegal [63] conduct. In her allegations, Lemon pled
sufficient facts to raise a reasonable expectation that
discovery will reveal evidence of illicit conduct by
Defendants in denying Lemon’s election for STL benefits. Lemon should be permitted to engage in discovery
and later have her evidence tested in a summary
judgment proceeding. For these reasons, the district
court’s dismissal of Lemon’s Section 1981 claim should
be reversed and this action remanded to the district
court for further proceedings.
III. The trial court erred by denying Lemon’s
motion to amend her complaint on the
basis of futility in light of the Court’s
ruling on the preceding issues on appeal.
In light of the district court’s error in dismissing
Lemon’s discrimination and retaliation claims, as
explained supra, the Court should remand the district
court’s denial of Lemon’s motion to amend for Lemon
to have leave to file a revised motion to amend
consistent with the Court’s opinion in this case.
CONCLUSION
For the foregoing reasons, the district court’s grant
of Defendants’ motion to dismiss for purported failure
to state a claim should be reversed, and Lemon’s case

App. 182
should be remanded to the district court for further
[64] proceedings. The Court should also remand
Lemon’s motion to amend to the district court for
further proceedings because the reasons the district
court used in denying the motion to amend are not
applicable in light of this Court’s anticipated ruling on
Defendants’ motion to dismiss. Lemon further requests
such other and further relief as the Court deems just
and proper.
This the 23rd day of August 2019.
Respectfully submitted by:
BAILEY & DIXON, LLP
By: /s/ J. Heydt Philbeck
J. Heydt Philbeck, Sr.
434 Fayetteville Street, Suite 2500
Raleigh, North Carolina 27601
Telephone: (919) 828-0731
Facsimile: (919) 828-6592
Email: hphilbeck@bdixon.com
SAMUELS YOELIN KANTOR, LLP
By: /s/ Steven W. Seymour
Steven W. Seymour
111 S.W. 5th Ave., Suite 3800
Portland, Oregon 97204
Telephone: (503) 226-2966
Fascimile: (503) 222-2937
Email: sws@samuelslaw.com

App. 183
[65] SHANAHAN LAW GROUP, PLLC
By: /s/ Nathaniel J. Pencook
Brandon S. Neuman
Nathaniel J. Pencook
128 E. Hargett Street, Suite 300
Raleigh, North Carolina 27601
Telephone: (919) 856-9494
Facsimile: (919) 856-9499
Email: npencook@shanahanlawgroup.com
Counsel for Plaintiff-Appellant
[66] REQUEST FOR ORAL ARGUMENT
The undersigned counsel for Dr. Lemon respectfully submits that oral argument in this case would aid
the Court in fairly deciding this case because of the
inherent complex legal and factual issues in the
application of legal issues that present questions of
first impression. Accordingly, the undersigned counsel
requests that the Court grant the parties an oral
argument for this case.
CERTIFICATE OF COMPLIANCE
1.

This brief complies with type-volume limits
because, excluding the parts of the document
exempted by Fed. R. App. P. 32(f ) (cover page,
disclosure statement, table of contents, table of
citations, statement regarding oral argument,
signature block, certificates of counsel, addendum,
attachments):
[ X ] this brief contains [12, 599] words.

App. 184
[ ] this brief uses a monospaced type and
contains [state the number of ] lines of text.
2.

This brief document complies with the typeface
and type style requirements because:
[ X ] this brief has been prepared in a
proportionally spaced typeface using [Microsoft
Word 2016] in [14pt Century Schoolbook]; or
[ ] this brief has been prepared in a monospaced
typeface using [state name and version of word
processing program] with [state number of
characters per inch and name of type style].

Dated: August 23, 2019

/s/ J. Heydt Philbeck, Sr.
Counsel for Appellant

CERTIFICATE OF FILING AND SERVICE
I hereby certify that on this 23rd day of August,
2019, I caused this Brief of Appellant and Joint
Appendix to be filed electronically with the Clerk of the
Court using the CM/ECF System, which will send
notice of such filing to the following registered
CM/ECF users:
Kerry A. Shad, Esq.
Issac A. Linnarz, Esq.
Smith, Anderson, Blount, Dorsett, et al
Post Office Box 2611
Raleigh, North Carolina 27602
Email: kshad@smithlaw.com
Counsel for Appellees

App. 185
I further certify that on the 26th day of August,
2019, I caused the required copies of the Brief of
Appellant and Joint Appendix to be hand filed with the
Clerk of the Court.
/s/ J. Heydt Philbeck, Sr.
Counsel for Appellant

